Pen
  nsion Benefit
        B       Guaran
                     nty Corrporatio
                                   on
    Office
         e of Ins
                specto
                     or Gen
                          neral
             Aud
               dit Repo
                      ort




  Audit
  A     of the Pen
                 nsion Be
                        enefit Guuaranty
 Co
  orporation's Fis
                 scal Yea
                        ar 2012 and
                                a 2011  1
  Special-P
  S       Purposee Financ
                        cial State
                                 ements




           Novem
               mber 16, 2011
                                 AUD-2013--4 / FA-12-88
                                                      8-4
This page intentionally left blank.
This page intentionally left blank.
                  Audit of the Pension Benefit Guaranty
                 Corporation’s Fiscal Year 2012 and 2011
                  Special-Purpose Financial Statements


                   Audit Report AUD-2013-4 / FA-12-88-4


                                  Contents


Section I:     Independent Auditor’s Report on the
               Special-Purpose Financial Statements




                     U.S. Department of the Treasury
                     Financial Management Service
          Governmentwide Financial Report System (GFRS) Reports


Section II:    GF001G – Financial Statements Template with
                        Standard General Ledger (SGL) Accounts
Section III:   Audited Financial Statements (FS) Reports including
               Other Comprehensive Basis of Accounting (OCBOA) Reports
                  GF002A – Audited FS Report
                  GF002B – OCBOA Statement Report
                  GF002C – OCBOA Adjustments Report
Section IV:    GF003F – Closing Package Financial Statement Report
Section V:     GF003G – Closing Package Line Reclassification Summary Report
Section VI:    GF004F – Trading Partner Summary Note Report
Section VII: GF006     – Financial Report (FR) Notes Report
Section VIII: GF006F – Notes Status Report
Section IX:    GF007F – Other FR Data Status Report
Section X:     GF007 – Other Data Report
Section XI:    GF008   – Completion and Approvals Report
Section XII: GF120     – Reclassification Audit Trail Report
                         at Statement Summary Level
   Audit of the Pension Benefit Guaranty
  Corporation’s Fiscal Year 2012 and 2011
   Special-Purpose Financial Statements


  Audit Report AUD-2013-4 / FA-12-88-4




                Section I

  Independent Auditor’s Report on
Special-Purpose Financial Statements
This page intentionally left blank.
                                                                     CliftonLarsonAllen LLP
                                                                     11710 Beltsville Drive, Suite 300
                                                                     Calverton, MD 20705
                                                                     301-931-2050 | fax 301-931-1710
                                                                     www.cliftonlarsonallen.com




           Independent Auditor’s Report on Special-Purpose Financial Statements


To the Board of Directors, Management,
and Inspector General of the
Pension Benefit Guaranty Corporation
Washington, DC

We have audited the accompanying reclassified balance sheets as of September 30, 2012 and
2011, and the related reclassified statements of net cost and changes in net position for the years
then ended (hereinafter referred to as the special-purpose financial statements) contained in the
special-purpose closing package of Pension Benefit Guaranty Corporation (PBGC). These special-
purpose financial statements are the responsibility of PBGC’s management. Our responsibility is to
express an opinion on these special-purpose financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United
States of America and the standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States; and Office of
Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial
Statements, as amended. Those standards require that we plan and perform the audit to obtain
reasonable assurance about whether the special-purpose financial statements are free of material
misstatement. An audit includes examining, on a test basis, evidence supporting the amounts and
disclosures in the special-purpose financial statements. An audit also includes assessing the
accounting principles used and significant estimates made by management, as well as evaluating
the overall special-purpose financial statement presentation. We believe that our audits provide a
reasonable basis for our opinion.

The accompanying special-purpose financial statements and accompanying notes contained in the
special-purpose closing package have been prepared for the purpose of complying with the
requirements of the U.S. Department of the Treasury’s Financial Manual, Volume I, Part 2, Chapter
4700 (TFM Chapter 4700), solely for the purpose of providing financial information to the
U.S. Department of the Treasury and U.S. Government Accountability Office to use in preparing
and auditing the Financial Report of the U.S. Government, and are not intended to be a complete
presentation of PBGC’s financial statements.

In our opinion, the special-purpose financial statements and accompanying notes referred to above
present fairly, in all material respects, the financial position of PBGC as of
September 30, 2012 and 2011, and its net costs and changes in net position for the years then
ended in conformity with accounting principles generally accepted in the United States of America
and the presentation pursuant to the requirements of the TFM Chapter 4700.

By law, PBGC’s Single-Employer and Multiemployer Program Funds must be self-sustaining. As of
September 30, 2012, PBGC reported in its general-purpose financial statements, net deficit
positions (liabilities in excess of assets) in the Single-Employer and Multiemployer Program Funds
of $29.14 billion and $5.24 billion, respectively. As discussed in Note 9 to the general-purpose
financial statements, loss exposure for the Single-Employer and Multiemployer Programs that are



                                                1
reasonably possible as a result of unfunded vested benefits are estimated to be $295 billion and
$27 billion, respectively. Management based the Single-Employer Program estimate on data for the
fiscal year ending in calendar year 2011 that was obtained from filings and submissions to the
government and from corporate annual reports. A subsequent adjustment for economic conditions
through September 30, 2012 has not been made, and as a result the exposure to loss for the
Single-Employer Program as of September 30, 2012 could be substantially different. In addition,
PBGC’s net deficit and long-term viability could be further impacted by losses from plans classified
as reasonably possible (or from other plans not yet identified as potential losses) as a result of
deteriorating economic conditions, the insolvency of a large plan sponsor or other factors. PBGC
has been able to meet its short-term benefit obligations. However, as discussed in Note 1 to the
general-purpose financial statements, management believes that neither program at present has
the resources to fully satisfy PBGC’s long-term obligations to plan participants.

U.S. generally accepted accounting principles require that the information in the Other Data Report
number 14 be presented to supplement the basic general-purpose financial statements. Such
information, although not a part of the basic general-purpose financial statements, is required by
the Federal Accounting Standards Advisory Board who considers it to be an essential part of
financial reporting for placing the basic general-purpose financial statements in an appropriate
operational, economic, or historical context. This information is presented to supplement the basic
special-purpose financial statements in accordance with TFM Chapter 4700. We have applied
certain limited procedures to the required supplementary information in accordance with auditing
standards generally accepted in the United States of America, which consisted of inquiries of
management about the methods of preparing the information, and comparing the information for
consistency with management’s responses to our inquiries, the basic special-purpose financial
statements, and other knowledge we obtained during our audits of the basic special-purpose
financial statements. We do not express an opinion or provide any assurance on the information
because the limited procedures do not provide us with sufficient evidence to express an opinion or
provide any assurance.

The information in the sections entitled “Threshold” in FR Notes Report numbers 2, 3, 4A, 6, 7, 9,
14, 15, 19, 29A and 29B; the information in the Closing Package Line Reclassification Summary
Report – Balance Sheet; and the information in the Closing Package Line Reclassification
Summary Reports – Statement of Net Cost and Statement of Changes in Net Position are
presented for purposes of additional analysis and are not a required part of the special-purpose
financial statements. This information has not been subjected to the auditing procedures applied in
the audits of the special-purpose financial statements and, accordingly, we express no opinion on it.

In accordance with Government Auditing Standards and OMB Bulletin No. 07-04, as amended, we
have also issued a combined report dated November 14, 2012 (see PBGC's Office of Inspector
General's report number AUD-2013-1/FA-12-88-1), which presents our opinion on PBGC's financial
statements; our opinion on management’s assertion about the effectiveness of PBGC’s internal
control over financial reporting; and our consideration of PBGC's compliance with laws, regulations,
and its operations. That report is an integral part of an audit of general-purpose financial statement
reporting performed in accordance with Government Auditing Standards and OMB Bulletin No. 07-
04, as amended, and should be read in conjunction with this report in considering the results of our
audits.

In planning and performing our audits of the special-purpose financial statements, we also
considered PBGC’s internal control over the financial reporting process for the special-purpose
financial statements and compliance with the TFM Chapter 4700. Management is responsible for
establishing and maintaining internal control over financial reporting, including the


                                                  2
Other Data Report, and for complying with laws and regulations, including compliance with the TFM
Chapter 4700 requirements.

Our consideration of the internal control over the financial reporting process for the special-purpose
financial statements would not necessarily disclose all matters in the internal control over the
financial reporting process that might be significant deficiencies. Under standards issued by the
American Institute of Certified Public Accountants, a control deficiency exists when the design or
operation of a control does not allow management or employees, in the normal course of
performing their assigned functions, to prevent or detect misstatements on a timely basis. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less
severe than a material weakness, yet important enough to merit attention by those charged with
governance. A material weakness is a deficiency, or a combination of deficiencies, in internal
control such that there is a reasonable possibility that a material misstatement of the entity’s
special-purpose financial statements will not be prevented or detected and corrected on a timely
basis.

As part of our audit of the general-purpose financial statements of PBGC as of September 30,
2012, we identified deficiencies in internal control over financial reporting (including safeguarding
assets) and compliance with laws and regulations, and its operation that we consider material
weaknesses and other deficiencies that we consider to be a significant deficiency. These matters
are described in further detail in PBGC’s Office of Inspector General’s report number AUD-2013-
2/FA-12-88-2. However, providing an opinion on internal control over the financial reporting process
for the special-purpose financial statements was not an objective of our audits of the special-
purpose financial statements and, accordingly, we do not express such opinion.

As part of our audit of the general-purpose financial statements of PBGC as of September 30,
2012, we identified an instance of noncompliance with selected provisions of laws and regulations.
This matter is described in further detail in PBGC’s Office of Inspector General’s report number
AUD-2013-1/FA-12-88-1. Our tests of compliance with the TFM Chapter 4700 requirements
disclosed no instances of noncompliance that are required to be reported under Government
Auditing Standards and OMB Bulletin No. 07-04, as amended. However, providing an opinion on
compliance with the TFM Chapter 4700 requirements was not an objective of our audits of the
special-purpose financial statements and, accordingly, we do not express such opinion.

This report is intended solely for the information and use of PBGC’s Office of Inspector General,
Board of Directors, management of PBGC, the U.S. Department of the Treasury, the Office of
Management and Budget, the U.S. Government Accountability Office, the U.S. Congress, and the
President in connection with the preparation and audit of the Financial Report of the
U.S. Government and is not intended to be and should not be used by anyone other than these
specified parties.



a
Calverton, Maryland
November 16, 2012




                                                    3
This page intentionally left blank.
           Audit of the Pension Benefit Guaranty
          Corporation’s Fiscal Year 2012 and 2011
           Special-Purpose Financial Statements


           Audit Report AUD-2013-4 / FA-12-88-4




                           Section II

GF001G – Financial Statements Template Report
 with Standard General Ledger (SGL) Accounts




                      Definition of Attributes


A     –   Non Custodial                 S    –   Custodial
ATB   –   Adjusted Trial Balance        T    –   Nonexchange
BSF   –   Budget Subfunction            TP   –   Trading Partner
F     –   Federal                       U    –   Undefined
N     –   Nonfederal                    X    –   Exchange
                                                                                                            11/16/2012 14:28:56
                                            U.S. Department of the Treasury
                                            Financial Management Service
                                       Governmentwide Financial Report System
                                     Financial Statement Template with SGL Accounts
Statement: BALANCE SHEET                             Fiscal Year:                2012       Period:       SEPTEMBER
Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION
I = Inactive

ASSETS
Cash and cash equivalents
SGL    Description                                                 Status F/N TP X/T        S/A       BSF   ATB Code
1010   Fund Balance With Treasury                                         U   U   U          U         U    ALL
1110   Undeposited Collections                                            N   U   U          A         U    ALL
1120   Imprest Funds                                                      N   U   U          U         U    ALL
1190   Other Cash                                                         N   U   U          U         U    ALL
1610   Investments in U.S. Treas. Securities Issued by BPD                 F ALL U           U         U    ALL
Securities lending collateral (Notes 3 and 5)
SGL Description                                                    Status F/N   TP    X/T   S/A       BSF   ATB Code
1690 Other Investments                                                    N     U      U     U         U    ALL
Investments, at market (Notes 3 and 5):
Fixed maturity securities
SGL  Description                                                   Status F/N   TP X/T      S/A       BSF   ATB Code
1610 Investments in U.S. Treas. Securities Issued by BPD                   F    ALL U        U         U    ALL
1611 Discount on U.S. Treasury Securities Issued by BPD                    F    ALL U        U         U    ALL
1612 Premium on U.S. Treasury Securities Issued by BPD                     F    ALL U        U         U    ALL
1613 Amort. of Disc. & Pre. on U.S.Treasury Sec. Issued by BPD             F    ALL U        U         U    ALL
1618 Market Adjustment - Investments                                      N      U  U        U         U    ALL
1620 Investments in Securities Other Than BPD Securities                  N      U  U        U         U    ALL
1621 Discount on Securities Other Than BPD Securities                     N      U  U        U         U    ALL
1622 Premium on Securities Other Than BPD Securities                      N      U  U        U         U    ALL
1630 Invest in U.S. Treas Zero Coupon Bonds Issued by BPD                  F    ALL U        U         U    ALL
1631 Discount on U.S. Treasury Zero Coupon Bonds Issued by                 F    ALL U        U         U    ALL
     BPD
1633 Amort of Disc - U.S. Treas Zero Coupon Bonds Issued by               F     ALL   U      U        U     ALL
     BPD
1690 Other Investments                                                    N     U     U      U        U     ALL
Equity securities
SGL Description                                                    Status F/N   TP    X/T   S/A       BSF   ATB Code
1618 Market Adjustment - Investments                                      N     U      U     U         U    ALL
1690 Other Investments                                                    N     U      U     U         U    ALL
Private equity
SGL Description                                                    Status F/N   TP    X/T   S/A       BSF   ATB Code
1618 Market Adjustment - Investments                                      N     U      U     U         U    ALL
1690 Other Investments                                                    N     U      U     U         U    ALL
Real estate and real estate investment trusts
SGL Description                                                    Status F/N   TP    X/T   S/A       BSF   ATB Code
1618 Market Adjustment - Investments                                      N     U      U     U         U    ALL
1690 Other Investments                                                    N     U      U     U         U    ALL




                                                             -1-
                                                                                                          11/16/2012 14:28:56
                                           U.S. Department of the Treasury
                                           Financial Management Service
                                      Governmentwide Financial Report System
                                    Financial Statement Template with SGL Accounts
Statement: BALANCE SHEET                             Fiscal Year:               2012      Period:       SEPTEMBER
Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION
I = Inactive

Other
SGL Description                                                   Status F/N   TP   X/T   S/A       BSF   ATB Code
1618 Market Adjustment - Investments                                     N     U     U     U         U    ALL
1690 Other Investments                                                   N     U     U     U         U    ALL
Total investments
Calculation
Line Description
 5     Fixed maturity securities
 6     Equity securities
 7     Private equity
 8     Real estate and real estate investment trusts
 9     Other
Receivables, net:
Sponsors of terminated plans
SGL     Description                                               Status F/N   TP   X/T   S/A       BSF   ATB Code
1310    Accounts Receivable                                              N     U     U     A         U    ALL
1319    Allowance for Loss on Accounts Receivable                        N     U     U     A         U    ALL
1340    Interest Receivable - Not Otherwise Classified                   N     U     U     A         U    ALL
Premiums (Note 11)
SGL  Description                                                  Status F/N   TP   X/T   S/A       BSF   ATB Code
1310 Accounts Receivable                                                 N     U     U     A         U    ALL
1319 Allowance for Loss on Accounts Receivable                           N     U     U     A         U    ALL
1340 Interest Receivable - Not Otherwise Classified                      N     U     U     A         U    ALL
1347 Allowance for Loss on Interest Receivable - Not Otrws               N     U     U     A         U    ALL
     Class.
1360 Penalties and Fines Receivable - Not Otherwise Classified           N     U    U      A        U     ALL
1367 Allowance for Loss on Penal. & Fines Rec. - Not Otrws               N     U    U      A        U     ALL
     Class.
Sale of securities
SGL Description                                                   Status F/N   TP   X/T   S/A       BSF   ATB Code
1310 Accounts Receivable                                                 N     U     U     A         U    ALL
Derivative contracts (Note 4)
SGL Description                                                   Status F/N   TP   X/T   S/A       BSF   ATB Code
1310 Accounts Receivable                                                 N     U     U     A         U    ALL
Investment income
SGL     Description                                               Status F/N TP X/T       S/A       BSF   ATB Code
1310    Accounts Receivable                                              N   U   U         A         U    ALL
1342    Interest Receivable - Investments                                N   U   U         A         U    ALL
1342    Interest Receivable - Investments                                 F ALL U          A         U    ALL




                                                            -2-
                                                                                                             11/16/2012 14:28:56
                                           U.S. Department of the Treasury
                                           Financial Management Service
                                      Governmentwide Financial Report System
                                    Financial Statement Template with SGL Accounts
Statement: BALANCE SHEET                             Fiscal Year:                  2012      Period:     SEPTEMBER
Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION
I = Inactive

Other
SGL     Description                                                  Status F/N   TP   X/T   S/A       BSF   ATB Code
1310    Accounts Receivable                                                 N     U     U     A         U    ALL
1319    Allowance for Loss on Accounts Receivable                           N     U     U     A         U    ALL
1340    Interest Receivable - Not Otherwise Classified                      N     U     U     A         U    ALL
1341    Interest Receivable - Loans                                         N     U     U     A         U    ALL
1345    Allowance for Loss on Interest Receivable - Loans                   N     U     U     A         U    ALL
1350    Loans Receivable                                                    N     U     U     U         U    ALL
1359    Allowance for Loss on Loans Receivable                              N     U     U     U         U    ALL
1360    Penalties and Fines Receivable - Not Otherwise Classified           N     U     U     A         U    ALL
1410    Advances and Prepayments                                            N     U     U     U         U    ALL
1990    Other Assets                                                        N     U     U     U         U    ALL
2400    Liab. for Nonfid. Dep. Funds & Undep. Collects.                     N     U     U     U         U    ALL
Total receivables
Calculation
Line Description
 12    Sponsors of terminated plans
 13    Premiums (Note 11)
 14    Sale of securities
 15    Derivative contracts (Note 4)
 16    Investment income
 17    Other
Capitalized assets, net
SGL     Description                                                  Status F/N   TP   X/T   S/A       BSF   ATB Code
1750    Equipment                                                           N     U     U     U         U    ALL
1759    Accumulated Depreciation on Equipment                               N     U     U     U         U    ALL
1820    Leasehold Improvement                                               N     U     U     U         U    ALL
1829    Accumulated Amortization on Leasehold Improvements                  N     U     U     U         U    ALL
1830    Internal-Use Software                                               N     U     U     U         U    ALL
1832    internal-Use Software in Development                                N     U     U     U         U    ALL
1839    Accumulated Amortization on Internal-Use Software                   N     U     U     U         U    ALL
Total assets
Calculation
Line Description
 2     Cash and cash equivalents
 3     Securities lending collateral (Notes 3 and 5)
 10    Total investments
 18    Total receivables
 19    Capitalized assets, net


LIABILITIES
Present value of future benefits, net (Note 6):
Trusteed plans
SGL Description                                                      Status F/N   TP   X/T   S/A       BSF   ATB Code
2690 Other Actuarial Liabilities                                            N     U     U     U         U    ALL

                                                               -3-
                                                                                                                  11/16/2012 14:28:56
                                            U.S. Department of the Treasury
                                            Financial Management Service
                                       Governmentwide Financial Report System
                                     Financial Statement Template with SGL Accounts
Statement: BALANCE SHEET                             Fiscal Year:                       2012      Period:     SEPTEMBER
Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION
I = Inactive

Plans pending termination and trusteeship
SGL Description                                                           Status F/N   TP   X/T   S/A       BSF   ATB Code
2690 Other Actuarial Liabilities                                                 N     U     U     U         U    ALL
Settlements and judgments
SGL Description                                                           Status F/N   TP   X/T   S/A       BSF   ATB Code
2690 Other Actuarial Liabilities                                                 N     U     U     U         U    ALL
Claims for probable terminations
SGL Description                                                           Status F/N   TP   X/T   S/A       BSF   ATB Code
2690 Other Actuarial Liabilities                                                 N     U     U     U         U    ALL
Total present value of future benefits, net
Calculation
Line Description
 24    Trusteed plans
 25    Plans pending termination and trusteeship
 26    Settlements and judgments
 27    Claims for probable terminations
Inactive - Present value of nonrecoverable future financial assistance (Note 7)
Present value of nonrecoverable future financial assistance (Note 7):
Insolvent plans
SGL Description                                                           Status F/N   TP   X/T   S/A       BSF   ATB Code
2920 Contingent Liabilities                                                      N     U     U     U         U    ALL
Probable insolvent plans
SGL Description                                                           Status F/N   TP   X/T   S/A       BSF   ATB Code
2920 Contingent Liabilities                                                      N     U     U     U         U    ALL
Total present value of nonrecoverable future financial assistance
Calculation
Line Description
 31    Insolvent plans
 32    Probable insolvent plans
Payables, net:
Derivative contracts (Note 4)
SGL Description                                                           Status F/N   TP   X/T   S/A       BSF   ATB Code
2990 Other Liabilities Without Related Budgetary Obligations                     N     U     U     U         U    ALL
Due for purchases of securities
SGL Description                                                           Status F/N   TP   X/T   S/A       BSF   ATB Code
2990 Other Liabilities Without Related Budgetary Obligations                     N     U     U     U         U    ALL
Payable upon return of securities loaned
SGL Description                                                           Status F/N   TP   X/T   S/A       BSF   ATB Code
2990 Other Liabilities Without Related Budgetary Obligations                     N     U     U     U         U    ALL

                                                                    -4-
                                                                                                                   11/16/2012 14:28:56
                                            U.S. Department of the Treasury
                                            Financial Management Service
                                       Governmentwide Financial Report System
                                     Financial Statement Template with SGL Accounts
Statement: BALANCE SHEET                             Fiscal Year:                        2012      Period:     SEPTEMBER
Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION
I = Inactive

Securities sold under repurchase agreements
SGL Description                                                            Status F/N   TP   X/T   S/A       BSF   ATB Code
2990 Other Liabilities Without Related Budgetary Obligations                      N     U     U     U         U    ALL
Unearned premiums
SGL Description                                                            Status F/N   TP   X/T   S/A       BSF   ATB Code
2320 Other Deferred Revenue                                                       N     U     U     U         U    ALL
2400 Liab. for Nonfid. Dep. Funds & Undep. Collects.                              N     U     U     U         U    ALL
Inactive - Due for purchases of securities
Inactive - Derivative contracts (Note 4)
Accounts payable and accrued expenses (Note 8)
SGL     Description                                                        Status F/N   TP X/T     S/A       BSF   ATB Code
2110    Accounts Payable                                                           F    ALL U       A         U    ALL
2110    Accounts Payable                                                          N      U  U       A         U    ALL
2120    Disbursements in Transit                                                   F    ALL U       U         U    ALL
2120    Disbursements in Transit                                                  N      U  U       U         U    ALL
2130    Contract Holdbacks                                                        N      U  U       U         U    ALL
2210    Accrued Funded Payroll and Leave                                          N      U  U       U         U    ALL
2213    Employer Contributions and Payroll Taxes Payable                           F    ALL U       U         U    ALL
2215    Other Post-Employment Benefits Due and Payable                             F    ALL U       U         U    ALL
2215    Other Post-Employment Benefits Due and Payable                            N      U  U       U         U    ALL
2220    Unfunded Leave                                                            N      U  U       U         U    ALL
2400    Liab. for Nonfid. Dep. Funds & Undep. Collects.                           N      U  U       U         U    ALL
Total payables
Calculation
Line Description
 35    Derivative contracts (Note 4)
 36    Due for purchases of securities
 37    Payable upon return of securities loaned
 38    Securities sold under repurchase agreements
 39    Unearned premiums
 42    Accounts payable and accrued expenses (Note 8)
Total liabilities
Calculation
Line Description
 28    Total present value of future benefits, net
 33    Total present value of nonrecoverable future financial assistance
 43    Total payables




                                                                -5-
                                                                                                       11/16/2012 14:28:56
                                            U.S. Department of the Treasury
                                            Financial Management Service
                                       Governmentwide Financial Report System
                                     Financial Statement Template with SGL Accounts
Statement: BALANCE SHEET                             Fiscal Year:                 2012     Period:   SEPTEMBER
Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION
I = Inactive

Net position
SGL     Description                                                 Status F/N   TP X/T    S/A   BSF   ATB Code
3310    Cumulative Results of Operations                                   U      U  U      U     U    ALL
5310    Interest Revenue - Other                                           N      U  T      A    ALL   ALL
5310    Interest Revenue - Other                                           N      U  X      A    ALL   ALL
5311    Interest Revenue - Investments                                      F    ALL X      A    ALL   ALL
5311    Interest Revenue - Investments                                     N      U  X      A    ALL   ALL
5320    Penalties and Fines Revenue                                        N      U  T      A    ALL   ALL
5329    Contra Revenue for Administrative Fees                             N      U  T      A    ALL   ALL
5500    Insurance and Guarantee Premium Revenue                            N      U  X      U    ALL   ALL
5765    Nonexpenditure Financing Sources - Transfer-Out - Otr               F    ALL U      U     U    ALL
5780    Imputed Financing Sources                                           F    ALL U      U     U    ALL
5900    Other Revenue                                                       F    ALL X      A    ALL   ALL
5900    Other Revenue                                                      N      U  X      A    ALL   ALL
6100    Operating Expenses/Program Cost                                     F    ALL U      U    ALL   ALL
6100    Operating Expenses/Program Cost                                    N      U  U      U    ALL   ALL
6330    Other Interest Expenses                                            N      U  U      A    ALL   ALL
6400    Benefit Expense                                                     F    ALL U      U    ALL   ALL
6400    Benefit Expense                                                    N      U  U      U    ALL   ALL
6720    Bad Debt Expense                                                   N      U  U      U    ALL   ALL
6730    Imputed Costs                                                       F    ALL U      U    ALL   ALL
6790    Other Expenses Not Requiring Budgetary Resources                   N      U  U      U    ALL   ALL
6850    Empl'yr Contrib. to Emp. Benefit Prog. Not Req. Curr Yr             F    ALL U      U    ALL   ALL
        BA
7110    Gains on Disposition of Assets - Other                             N      U    X    U    ALL   ALL
7111    Gains on Disposition of Investments                                F     ALL   X    U     U    ALL
7111    Gains on Disposition of Investments                                N      U    X    U     U    ALL
7180    Unrealized Gains                                                   F     ALL   X    U     U    ALL
7180    Unrealized Gains                                                   N      U    X    U     U    ALL
7190    Other Gains                                                        N      U    X    U    ALL   ALL
7210    Losses on Disposition of Assets - Other                            N      U    X    U    ALL   ALL
7211    Losses on Disposition of Investments                               F     ALL   X    U     U    ALL
7211    Losses on Disposition of Investments                               N      U    X    U     U    ALL
7280    Unrealized Losses                                                  F     ALL   X    U     U    ALL
7280    Unrealized Losses                                                  N      U    X    U     U    ALL
7290    Other Losses                                                       N      U    X    U    ALL   ALL
7600    Changes in Actuarial Liability                                     N      U    U    U    ALL   ALL
Total liabilities and net position
Calculation
Line Description
 44    Total liabilities
 45    Net position




                                                              -6-
                                                                                                 11/16/2012 14:28:56
                                           U.S. Department of the Treasury
                                           Financial Management Service
                                      Governmentwide Financial Report System
                                    Financial Statement Template with SGL Accounts
Statement: INCOME STATEMENT                          Fiscal Year:            2012    Period:   SEPTEMBER
Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION
I = Inactive

UNDERWRITING:
Income:
Premium, net (Note 11)
Other
Total
Expenses:
Administrative
Other
Total
Other underwriting activity:
Losses from completed and probable terminations (Note 12)
Losses from insolvent and probable plans-financial assistance (Note 7)
Actuarial adjustments (credits) (Note 6)
Total
Underwriting gain (loss)
FINANCIAL:
Investment income (loss) (Note 13):
Fixed
Equity
Private equity
Other
Total
Expenses:
Investment
Actuarial charges (Note 6):
Due to expected interest
Due to change in interest rates
Total
Financial income (loss)
Net loss
Calculation
Line Description
 15    Underwriting gain (loss)
 29    Financial income (loss)
                                                                -7-
                                                                                                            11/16/2012 14:28:56
                                          U.S. Department of the Treasury
                                          Financial Management Service
                                     Governmentwide Financial Report System
                                   Financial Statement Template with SGL Accounts
Statement: INCOME STATEMENT                          Fiscal Year:                2012       Period:     SEPTEMBER
Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION
I = Inactive

Total Costs
SGL    Description                                                 Status F/N   TP X/T      S/A   BSF       ATB Code
5765   Nonexpenditure Financing Sources - Transfer-Out - Otr               F    ALL U        U     U        ALL
6100   Operating Expenses/Program Cost                                     F    ALL U        U    ALL       ALL
6100   Operating Expenses/Program Cost                                    N      U  U        U    ALL       ALL
6330   Other Interest Expenses                                            N      U  U        A    ALL       ALL
6400   Benefit Expense                                                     F    ALL U        U    ALL       ALL
6400   Benefit Expense                                                    N      U  U        U    ALL       ALL
6720   Bad Debt Expense                                                   N      U  U        U    ALL       ALL
6730   Imputed Costs                                                       F    ALL U        U    ALL       ALL
6790   Other Expenses Not Requiring Budgetary Resources                   N      U  U        U    ALL       ALL
6850   Empl'yr Contrib. to Emp. Benefit Prog. Not Req. Curr Yr             F    ALL U        U    ALL       ALL
       BA
7210   Losses on Disposition of Assets - Other                            N      U    X      U    ALL       ALL
7211   Losses on Disposition of Investments                               F     ALL   X      U     U        ALL
7211   Losses on Disposition of Investments                               N      U    X      U     U        ALL
7280   Unrealized Losses                                                  N      U    X      U     U        ALL
7290   Other Losses                                                       N      U    X      U    ALL       ALL
7600   Changes in Actuarial Liability                                     N      U    U      U    ALL       ALL
Total Revenue
SGL    Description                                                 Status F/N   TP X/T      S/A   BSF       ATB Code
5310   Interest Revenue - Other                                           N      U  T        A    ALL       ALL
5310   Interest Revenue - Other                                           N      U  X        A    ALL       ALL
5311   Interest Revenue - Investments                                      F    ALL X        A    ALL       ALL
5311   Interest Revenue - Investments                                     N      U  X        A    ALL       ALL
5320   Penalties and Fines Revenue                                        N      U  T        A    ALL       ALL
5329   Contra Revenue for Administrative Fees                             N      U  T        A    ALL       ALL
5500   Insurance and Guarantee Premium Revenue                            N      U  X        U    ALL       ALL
5780   Imputed Financing Sources                                           F    ALL U        U     U        ALL
5900   Other Revenue                                                       F    ALL X        A    ALL       ALL
5900   Other Revenue                                                      N      U  X        A    ALL       ALL
7110   Gains on Disposition of Assets - Other                             N      U  X        U    ALL       ALL
7111   Gains on Disposition of Investments                                 F    ALL X        U     U        ALL
7111   Gains on Disposition of Investments                                N      U  X        U     U        ALL
7180   Unrealized Gains                                                   N      U  X        U     U        ALL
7190   Other Gains                                                        N      U  X        U    ALL       ALL
Net position, beginning of year
SGL Description                                                    Status F/N   TP    X/T   S/A       BSF   ATB Code
3310 Cumulative Results of Operations                                     U     U      U     U         U    ALL
Net position, end of year
Calculation
Line Description
 31    Total Costs
 32    Total Revenue
 33    Net position, beginning of year




                                                             -8-
    Audit of the Pension Benefit Guaranty
   Corporation’s Fiscal Year 2012 and 2011
    Special-Purpose Financial Statements


    Audit Report AUD-2013-4 / FA-12-88-4




                Section III

Audited Financial Statement (FS) Reports
 including Other Comprehensive Basis
    of Accounting (OCBOA) Reports

    GF002A – Audited FS Report
    GF002B – OCBOA Statement Report
    GF002C – OCBOA Adjustments Report
                                                                                             11/16/2012 14:34:45
                                        U.S.Department of the Treasury
                                         Financial Management Service
                                    Governmentwide Financial Report System

                                            GF002A - Audited FS Report


Statement:    BALANCE SHEET                           Fiscal Year: 2012                Period:   SEPTEMBER
Entity: 1602-PENSION BENEFIT GUARANTY                 Reported in: MILLIONS            Decimal: ZERO
        CORPORATION

Agency Line Description                                      FY 2012-SEPTEMBER              FY 2011-SEPTEMBER

ASSETS
Cash and cash equivalents                                                      3,792                       5,026
Securities lending collateral (Notes 3 and 5)                                  3,425                       4,587
Investments, at market (Notes 3 and 5):
Fixed maturity securities                                                     49,943                      47,977
Equity securities                                                             22,619                      17,997
Private equity                                                                 1,339                       1,459
Real estate and real estate investment trusts                                    511                         536
Other                                                                             77                          22
Total investments                                                             74,489                      67,991
Receivables, net:
Sponsors of terminated plans                                                      41                          31
Premiums (Note 11)                                                             1,087                         562
Sale of securities                                                             1,353                       1,807
Derivative contracts (Note 4)                                                     83                         178
Investment income                                                                464                         481
Other                                                                              4                           3
Total receivables                                                              3,032                       3,062
Capitalized assets, net                                                           42                          33
Total assets                                                                  84,780                      80,699

LIABILITIES
Present value of future benefits, net (Note 6):
Trusteed plans                                                            103,127                         91,719
Plans pending termination and trusteeship                                     418                            346
Settlements and judgments                                                      56                             56
Claims for probable terminations                                            2,035                            833
Total present value of future benefits, net                               105,636                         92,954
Present value of nonrecoverable future
financial assistance (Note 7):
Insolvent plans                                                                1,388                       1,232
Probable insolvent plans                                                       5,622                       3,243
Total present value of nonrecoverable future                                   7,010                       4,475
financial assistance
Payables, net:
Derivative contracts (Note 4)                                                     94                         173
Due for purchases of securities                                                2,557                       4,079
Payable upon return of securities loaned                                       3,425                       4,587
Securities sold under repurchase agreements                                        0                           0
Unearned premiums                                                                358                         397
Accounts payable and accrued expenses (Note 8)                                    79                          70


                                                        - 1 -
                                                                                          11/16/2012 14:34:45
                                         U.S.Department of the Treasury
                                          Financial Management Service
                                     Governmentwide Financial Report System

                                           GF002A - Audited FS Report


Statement:     BALANCE SHEET                         Fiscal Year: 2012              Period:   SEPTEMBER
Entity: 1602-PENSION BENEFIT GUARANTY                Reported in: MILLIONS          Decimal: ZERO
        CORPORATION

Agency Line Description                                     FY 2012-SEPTEMBER            FY 2011-SEPTEMBER

Total payables                                                             6,513                        9,306
Total liabilities                                                        119,159                      106,735
Net position                                                             (34,379)                     (26,036)
Total liabilities and net position                                        84,780                       80,699




                                                       - 2 -
                                                                                           11/16/2012 14:34:45
                                      U.S.Department of the Treasury
                                       Financial Management Service
                                  Governmentwide Financial Report System

                                         GF002A - Audited FS Report


Statement:   INCOME STATEMENT                      Fiscal Year: 2012                 Period:   SEPTEMBER
Entity: 1602-PENSION BENEFIT GUARANTY              Reported in: MILLIONS             Decimal: ZERO
        CORPORATION

Agency Line Description                                   FY 2012-SEPTEMBER               FY 2011-SEPTEMBER

UNDERWRITING:
Income:
Premium, net (Note 11)                                                     2,734                         2,164
Other                                                                         13                            17
Total                                                                      2,747                         2,181
Expenses:
Administrative                                                               380                           367
Other                                                                          0                           (21)
Total                                                                        380                           388
Other underwriting activity:
Losses from completed and probable terminations                            2,006                           201
(Note 12)
Losses from insolvent and probable plans-                                  2,466                         1,461
financial assistance (Note 7)
Actuarial adjustments (credits) (Note 6)                                      223                       (1,709)
Total                                                                       4,695                        3,371
Underwriting gain (loss)                                                   (2,328)                       1,578
FINANCIAL:
Investment income (loss) (Note 13):
Fixed                                                                       4,790                        3,650
Equity                                                                     (4,073)                         276
Private equity                                                                 42                          144
Other                                                                          22                          (76)
Total                                                                       8,883                        3,594
Expenses:
Investment                                                                    83                            71
Actuarial charges (Note 6):
Due to expected interest                                                 3,981                           3,932
Due to change in interest rates                                         10,834                           1,019
Total                                                                   14,898                           5,022
Financial income (loss)                                                 (6,015)                         (1,428)
Net loss                                                                (8,343)                         (3,006)
Total Costs                                                            (20,683)                        (12,932)
Total Revenue                                                           12,340                           9,926
Net position, beginning of year                                        (26,036)                        (23,030)
Net position, end of year                                              (34,379)                        (26,036)




                                                     - 3 -
                                                                                             11/16/2012 14:32:32
                                            U.S.Department of the Treasury
                                             Financial Management Service
                                        Governmentwide Financial Report System

                                            GF002B - OCBOA Statement Report


Statement:   BALANCE SHEET                                     Fiscal Year: 2012            Period: SEPTEMBER
Entity:   1602-PENSION BENEFIT GUARANTY CORPORATION            Reported in: MILLIONS        Decimal: ZERO


Agency Line Description                                           FY 2012-SEPTEMBER           FY 2011-SEPTEMBER

ASSETS
Cash and cash equivalents                                                           3,792                    5,026
Securities lending collateral (Notes 3 and 5)                                       3,425                    4,587
Investments, at market (Notes 3 and 5):
Fixed maturity securities                                                          47,237                   44,951
Equity securities                                                                  22,619                   17,997
Private equity                                                                      1,339                    1,459
Real estate and real estate investment trusts                                         511                      536
Other                                                                                  77                       22
Total investments                                                                  71,783                   64,965
Receivables, net:
Sponsors of terminated plans                                                           41                       31
Premiums (Note 11)                                                                  1,087                      562
Sale of securities                                                                  1,353                    1,807
Derivative contracts (Note 4)                                                          83                      178
Investment income                                                                     464                      481
Other                                                                                   4                        3
Total receivables                                                                   3,032                    3,062
Capitalized assets, net                                                                42                       33
Total assets                                                                       82,074                   77,673

LIABILITIES
Present value of future benefits, net (Note 6):
Trusteed plans                                                                 103,127                      91,719
Plans pending termination and trusteeship                                          418                         346
Settlements and judgments                                                           56                          56
Claims for probable terminations                                                 2,035                         833
Total present value of future benefits, net                                    105,636                      92,954
Present value of nonrecoverable future financial
assistance (Note 7):
Insolvent plans                                                                     1,388                    1,232
Probable insolvent plans                                                            5,622                    3,243
Total present value of nonrecoverable future financial                              7,010                    4,475
assistance
Payables, net:
Derivative contracts (Note 4)                                                          94                      173
Due for purchases of securities                                                     2,557                    4,079
Payable upon return of securities loaned                                            3,425                    4,587
Securities sold under repurchase agreements                                             0                        0
Unearned premiums                                                                     358                      397
Accounts payable and accrued expenses (Note 8)                                         79                       70
Total payables                                                                      6,513                    9,306


                                                          - 1 -
                                                                                        11/16/2012 14:32:32
                                         U.S.Department of the Treasury
                                          Financial Management Service
                                     Governmentwide Financial Report System

                                       GF002B - OCBOA Statement Report


Statement:    BALANCE SHEET                                 Fiscal Year: 2012          Period: SEPTEMBER
Entity:   1602-PENSION BENEFIT GUARANTY CORPORATION        Reported in: MILLIONS       Decimal: ZERO


Agency Line Description                                        FY 2012-SEPTEMBER         FY 2011-SEPTEMBER

Total liabilities                                                           119,159                    106,735
Net position                                                                (37,085)                   (29,062)
Total liabilities and net position                                           82,074                     77,673




                                                       - 2 -
                                                                                                11/16/2012 14:32:32
                                         U.S.Department of the Treasury
                                          Financial Management Service
                                     Governmentwide Financial Report System

                                         GF002B - OCBOA Statement Report


Statement:   INCOME STATEMENT                                   Fiscal Year: 2012              Period: SEPTEMBER
Entity:   1602-PENSION BENEFIT GUARANTY CORPORATION             Reported in: MILLIONS          Decimal: ZERO


Agency Line Description                                             FY 2012-SEPTEMBER            FY 2011-SEPTEMBER

UNDERWRITING:
Income:
Premium, net (Note 11)                                                                2,734                      2,164
Other                                                                                    13                         17
Total                                                                                 2,747                      2,181
Expenses:
Administrative                                                                         380                        367
Other                                                                                    0                        (21)
Total                                                                                  380                        388
Other underwriting activity:
Losses from completed and probable terminations (Note 12)                             2,006                        201
Losses from insolvent and probable plans-financial                                    2,466                      1,560
assistance (Note 7)
Actuarial adjustments (credits) (Note 6)                                                223                     (1,672)
Total                                                                                 4,695                      3,433
Underwriting gain (loss)                                                             (2,328)                     1,640
FINANCIAL:
Investment income (loss) (Note 13):
Fixed                                                                                 5,139                      2,388
Equity                                                                               (4,073)                       276
Private equity                                                                           42                        144
Other                                                                                    22                        (76)
Total                                                                                 9,232                      2,332
Expenses:
Investment                                                                               83                         71
Actuarial charges (Note 6):
Due to expected interest                                                              3,981                      3,880
Due to change in interest rates                                                      10,834                      1,009
Total                                                                                14,898                      4,960
Financial income (loss)                                                              (5,666)                    (2,628)
Net loss                                                                             (7,994)                    (4,268)
Total Costs                                                                         (20,215)                   (12,865)
Total Revenue                                                                        12,221                      8,597
Net position, beginning of year                                                     (29,091)                   (24,823)
Net position, end of year                                                           (37,085)                   (29,091)




                                                            - 3 -
                                                                                                                    11/16/2012 14:32:33
                                                       U.S.Department of the Treasury
                                                        Financial Management Service
                                                   Governmentwide Financial Report System

                                                    GF002C - OCBOA Adjustments Report


Statement: BALANCE SHEET                                                           Fiscal Year:      2012             Period: SEPTEMBER
Entity:       1602-PENSION BENEFIT GUARANTY CORPORATION                            Reported in:      MILLIONS       Decimal: ZERO

    All Amounts Shown as Debits and Credits().

Agency Line            FY 2012-SEPTEMBER FY 2012-SEPTEMBER FY 2012-SEPTEMBER      FY 2011-SEPTEMBER FY 2011-SEPTEMBER FY 2011-SEPTEMBER
Description                   Audit Amt       OCBOA Amt          Difference              Audit Amt       OCBOA Amt          Difference

ASSETS
Cash and cash                       3,792             3,792                  0                      5,026         5,026                    0
equivalents
Securities lending                  3,425             3,425                  0                      4,587         4,587                    0
collateral (Notes 3
and 5)
Investments, at
market (Notes 3
and 5):
Fixed maturity                     49,943            47,237             (2,706)                   47,977        44,951                (3,026)
securities
Equity securities                  22,619            22,619                  0                    17,997        17,997                     0
Private equity                      1,339             1,339                  0                     1,459         1,459                     0
Real estate and real                  511               511                  0                       536           536                     0
estate investment
trusts
Other                                  77                77                  0                        22            22                     0
Total investments                  74,489            71,783             (2,706)                   67,991        64,965                (3,026)
Receivables, net:
Sponsors of                            41                41                  0                         31            31                    0
terminated plans
Premiums (Note 11)                  1,087             1,087                  0                        562           562                    0
Sale of securities                  1,353             1,353                  0                      1,807         1,807                    0
Derivative contracts                   83                83                  0                        178           178                    0
(Note 4)
Investment income                     464               464                  0                        481           481                    0
Other                                   4                 4                  0                          3             3                    0
Total receivables                   3,032             3,032                  0                      3,062         3,062                    0
Capitalized assets,                    42                42                  0                         33            33                    0
net
Total assets                       84,780            82,074             (2,706)                   80,699        77,673                (3,026)

LIABILITIES
Present value of
future benefits, net
(Note 6):
Trusteed plans                   (103,127)         (103,127)                 0                    (91,719)      (91,719)                   0
Plans pending                        (418)             (418)                 0                       (346)         (346)                   0
termination and
trusteeship



                                                                    - 1 -
                                                                                                                     11/16/2012 14:32:33
                                                        U.S.Department of the Treasury
                                                         Financial Management Service
                                                    Governmentwide Financial Report System

                                                     GF002C - OCBOA Adjustments Report


Statement: BALANCE SHEET                                                           Fiscal Year:      2012              Period: SEPTEMBER
Entity:       1602-PENSION BENEFIT GUARANTY CORPORATION                            Reported in:      MILLIONS        Decimal: ZERO

    All Amounts Shown as Debits and Credits().

Agency Line             FY 2012-SEPTEMBER FY 2012-SEPTEMBER FY 2012-SEPTEMBER     FY 2011-SEPTEMBER FY 2011-SEPTEMBER FY 2011-SEPTEMBER
Description                    Audit Amt       OCBOA Amt          Difference             Audit Amt       OCBOA Amt          Difference

Settlements and                        (56)              (56)                0                        (56)           (56)                     0
judgments
Claims for probable                 (2,035)           (2,035)                0                       (833)          (833)                     0
terminations
Total present value               (105,636)         (105,636)                0                    (92,954)       (92,954)                     0
of future benefits,
net
Present value of
nonrecoverable
future financial
assistance (Note
7):
Insolvent plans                     (1,388)           (1,388)                0                     (1,232)        (1,232)                     0
Probable insolvent                  (5,622)           (5,622)                0                     (3,243)        (3,243)                     0
plans
Total present value                 (7,010)           (7,010)                0                     (4,475)        (4,475)                     0
of nonrecoverable
future financial
assistance
Payables, net:
Derivative contracts                   (94)              (94)                0                       (173)          (173)                     0
(Note 4)
Due for purchases of                (2,557)           (2,557)                0                     (4,079)        (4,079)                     0
securities
Payable upon return                 (3,425)           (3,425)                0                     (4,587)        (4,587)                     0
of securities loaned
Securities sold under                    0                 0                 0                          0              0                      0
repurchase
agreements
Unearned premiums                     (358)             (358)                0                       (397)          (397)                     0
Accounts payable                       (79)              (79)                0                        (70)           (70)                     0
and accrued
expenses (Note 8)
Total payables                      (6,513)           (6,513)                 0                 (9,306)           (9,306)                      0
Total liabilities                 (119,159)         (119,159)                 0               (106,735)         (106,735)                      0
Net position                        34,379            37,085              2,706                 26,036            29,062                   3,026
Total liabilities and              (84,780)          (82,074)             2,706                (80,699)          (77,673)                  3,026
net position




                                                                     - 2 -
                                                                                                                    11/16/2012 14:32:33
                                                        U.S.Department of the Treasury
                                                         Financial Management Service
                                                    Governmentwide Financial Report System

                                                     GF002C - OCBOA Adjustments Report


Statement: INCOME STATEMENT                                                         Fiscal Year:     2012            Period: SEPTEMBER
Entity:       1602-PENSION BENEFIT GUARANTY CORPORATION                             Reported in:     MILLIONS       Decimal: ZERO

    All Amounts Shown as Debits and Credits().

Agency Line             FY 2012-SEPTEMBER FY 2012-SEPTEMBER FY 2012-SEPTEMBER      FY 2011-SEPTEMBER FY 2011-SEPTEMBER FY 2011-SEPTEMBER
Description                    Audit Amt       OCBOA Amt          Difference              Audit Amt       OCBOA Amt          Difference

UNDERWRITING:
Income:
Premium, net (Note                  2,734             2,734                    0                   2,164         2,164                      0
11)
Other                                  13                13                    0                      17            17                      0
Total                               2,747             2,747                    0                   2,181         2,181                      0
Expenses:
Administrative                       380                380                    0                     367           367                      0
Other                                  0                  0                    0                      21            21                      0
Total                                380                380                    0                     388           388                      0
Other underwriting
activity:
Losses from                         2,006             2,006                    0                     201           201                      0
completed and
probable
terminations (Note
12)
Losses from                         2,466             2,466                    0                   1,461         1,560                    99
insolvent and
probable plans-
financial assistance
(Note 7)
Actuarial                            223                223                    0                   1,709         1,672                    (37)
adjustments (credits)
(Note 6)
Total                               4,695              4,695                   0                    3,371         3,433                    62
Underwriting gain                  (2,328)            (2,328)                  0                   (1,578)       (1,640)                  (62)
(loss)
FINANCIAL:
Investment income
(loss) (Note 13):
Fixed                               4,790             5,139                  349                   3,650         2,388                (1,262)
Equity                              4,073             4,073                    0                    (276)         (276)                    0
Private equity                         42                42                    0                     144           144                     0
Other                                 (22)              (22)                   0                      76            76                     0
Total                               8,883             9,232                  349                   3,594         2,332                (1,262)
Expenses:
Investment                             83                83                    0                      71            71                      0
Actuarial charges
(Note 6):



                                                                     - 3 -
                                                                                                                   11/16/2012 14:32:33
                                                       U.S.Department of the Treasury
                                                        Financial Management Service
                                                   Governmentwide Financial Report System

                                                    GF002C - OCBOA Adjustments Report


Statement: INCOME STATEMENT                                                        Fiscal Year:     2012            Period: SEPTEMBER
Entity:       1602-PENSION BENEFIT GUARANTY CORPORATION                            Reported in:     MILLIONS       Decimal: ZERO

     All Amounts Shown as Debits and Credits().

Agency Line            FY 2012-SEPTEMBER FY 2012-SEPTEMBER FY 2012-SEPTEMBER      FY 2011-SEPTEMBER FY 2011-SEPTEMBER FY 2011-SEPTEMBER
Description                   Audit Amt       OCBOA Amt          Difference              Audit Amt       OCBOA Amt          Difference

Due to expected                     3,981             3,981                   0                    3,932        3,880                     (52)
interest
Due to change in                   10,834           10,834                    0                    1,019        1,009                     (10)
interest rates
Total                              14,898           14,898                    0                    5,022         4,960                  (62)
Financial income                   (6,015)          (5,666)                 349                   (1,428)       (2,628)              (1,200)
(loss)
Net loss                           (8,343)           (7,994)               349                    (3,006)      (4,268)               (1,262)
Total Costs                        20,683            20,215               (468)                   12,932       12,865                   (67)
Total Revenue                     (12,340)          (12,221)               119                    (9,926)      (8,597)                1,329
Net position,                      26,036            29,091              3,055                    23,030       24,823                 1,793
beginning of year
Net position, end of               34,379           37,085               2,706                    26,036       29,091                    3,055
year




                                                                    - 4 -
 Audit of the Pension Benefit Guaranty
Corporation’s Fiscal Year 2012 and 2011
 Special-Purpose Financial Statements


Audit Report AUD-2013-4 / FA-12-88-4




             Section IV

   GF003F – Closing Package
   Financial Statement Report
                                                                       U.S Department of the Treasury                                        11-16-2012 14:49:00
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: BALANCE SHEET                                            Fiscal Year:       2012                              Period:   SEPTEMBER

Entity:       1602-PENSION BENEFIT GUARANTY                         Reported In:       MILLIONS                 Decimal Point:     ZERO
              CORPORATION

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2012-SEPTEMBER                       2011-SEPTEMBER                    Previously Reported
Assets:
Non-Federal
Cash and Other Monetary Assets                                                 3,525                             4,984                               4,984
Accounts and Taxes Receivable                                                  2,568                             2,495                               2,495
Loans Receivable and mortgage                                                      0                                 0                                   0
backed securities
TARP Direct Loans and Equity                                                       0                                 0                                      0
Investments
Beneficial Interest in Trust               I                                      0                                  0                                   0
Inventory and Related Property                                                    0                                  0                                   0
Property, Plant and Equipment                                                    42                                 33                                  33
Debt and Equity Securities                                                   52,812                             47,359                              47,359
Investment in Government sponsored                                                0                                  0                                   0
enterprises (GSEs)
Derivative Assets                                                                 5                                109                                 109
Other Assets                                                                      0                                  0                                   0
Total Non-Federal Assets                                                     58,952                             54,980                              54,980

Federal
Fund Balance with Treasury                                                        1                                  1                                   1
Federal Investments                                                          22,957                             22,510                              22,510
Accounts Receivable                                                               0                                  0                                   0
Accounts Receivable, capital transfers                                            0                                  0                                   0
Interest Receivable                                                             164                                182                                 182
Loans Receivable                                                                  0                                  0                                   0
Transfers Receivable                                                              0                                  0                                   0




                                                                                              -1-
                                                                       U.S Department of the Treasury                                          11-16-2012 14:49:00
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: BALANCE SHEET                                            Fiscal Year:       2012                                Period:   SEPTEMBER

Entity:       1602-PENSION BENEFIT GUARANTY                         Reported In:       MILLIONS                  Decimal Point:      ZERO
              CORPORATION

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2012-SEPTEMBER                       2011-SEPTEMBER                      Previously Reported
Benefit Program Contributions                                                      0                                   0                                      0
Receivable
Advances to Others and Prepayments                                                0                                    0                                   0
Other Assets (without reciprocals)                                                0                                    0                                   0
Total Federal Assets                                                         23,122                               22,693                              22,693
Total Assets                                                                 82,074                               77,673                              77,673

Liabilities
Non-Federal
Accounts Payable                                                                 (67)                                (58)                                (58)
Federal Debt Securities Held by the                                                0                                   0                                   0
Public
Federal Employee and Veteran                                                       0                                   0                                      0
Benefits Payable
Environmental and Disposal                                                         0                                   0                                      0
Liabilities
Benefits Due and Payable                                                           0                                   0                                      0
Loan Guarantee Liabilities                                                         0                                   0                                      0
Liabilities to Government Sponsored                                                0                                   0                                      0
Enterprises
Insurance and Guarantee Program                                            (105,636)                             (92,954)                            (92,954)
Liabilities
Derivative Liabilities                                                          (21)                                  (6)                                 (6)
Other Liabilities                                                           (13,434)                             (13,716)                            (13,716)
Total Non-Federal Liabilities                                              (119,158)                            (106,734)                           (106,734)




                                                                                              -2-
                                                                       U.S Department of the Treasury                                          11-16-2012 14:49:00
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: BALANCE SHEET                                            Fiscal Year:        2012                               Period:   SEPTEMBER

Entity:       1602-PENSION BENEFIT GUARANTY                         Reported In:        MILLIONS                 Decimal Point:      ZERO
              CORPORATION

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2012-SEPTEMBER                        2011-SEPTEMBER                     Previously Reported
Federal
Accounts Payable                                                                    0                                  0                                   0
Accounts Payable, capital transfers                                                 0                                  0                                   0
Federal Debt                                                                        0                                  0                                   0
Interest Payable                                                                    0                                  0                                   0
Loans Payable                                                                       0                                  0                                   0
Transfers Payable                                                                   0                                  0                                   0
Benefit Program Contributions                                                      (1)                                (1)                                 (1)
Payable
Advances from Others and Deferred                                                   0                                  0                                      0
Credits
Liability to the General Fund for                                                   0                                  0                                      0
custodial and other non-entity assets
Other Liabilities (without reciprocals)                                           0                                    0                                   0
Total Federal Liabilities                                                        (1)                                  (1)                                 (1)
Total Liabilities                                                          (119,159)                            (106,735)                           (106,735)


Net Position
Net Position-Non-Earmarked Funds                                             37,085                               29,062                              29,062
Net Position-Earmarked Funds                                                      0                                    0                                   0
Total Net Position                                                           37,085                               29,062                              29,062
Total Liabilities and Net Position                                          (82,074)                             (77,673)                            (77,673)




                                                                                               -3-
                                                                       U.S Department of the Treasury                                        11-16-2012 14:49:00
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                            2012                             Period:   SEPTEMBER

Entity:       1602-PENSION BENEFIT GUARANTY                         Reported In:        MILLIONS                Decimal Point:     ZERO
              CORPORATION

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2012-SEPTEMBER                        2011-SEPTEMBER                   Previously Reported
Beginning Net Position                                                       29,062                             24,794                              24,794
Non-Federal Prior-Period
Adjustments
Changes in Accounting Principles -                                                  0                                0                                      0
Non Federal
Corrections of Errors - Non Federal                                                 0                                0                                      0
Corrections of Errors - Years                                                       0                                0                                      0
Preceding the Prior Year - Non
Federal
Federal Prior-Period Adjustments
Change in Accounting Principles -                                                  29                               29                                      0
Federal
Corrections of Errors - Federal                                                     0                                0                                      0
Corrections of Errors - Years                                                       0                                0                                      0
Preceding the Prior Year - Federal
Adjusted Beginning Net Position                                              29,091                             24,823                              24,794
Balance

Non-Federal Nonexchange Revenue
Individual Income Tax and Tax                                                       0                                0                                      0
Witholdings
Corporation Income Taxes                                                            0                                0                                      0
Unemployment Taxes                                                                  0                                0                                      0
Excise Taxes                                                                        0                                0                                      0
Estate and Gift Taxes                                                               0                                0                                      0
Custom Duties                                                                       0                                0                                      0




                                                                                               -4-
                                                                       U.S Department of the Treasury                                        11-16-2012 14:49:00
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                           2012                              Period:   SEPTEMBER

Entity:       1602-PENSION BENEFIT GUARANTY                         Reported In:       MILLIONS                 Decimal Point:     ZERO
              CORPORATION

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2012-SEPTEMBER                       2011-SEPTEMBER                    Previously Reported
Other Taxes and Receipts                                                           4                                (4)                                 (4)
Miscellaneous Earned Revenue                                                       0                                 0                                   0
Total Non-Federal Nonexchange                                                      4                                (4)                                 (4)
Revenue

Federal Nonexchange Revenue
Federal Securities Interest Revenue                                                0                                 0                                      0
(nonexchange)
Borrowing and other interest revenue                                               0                                 0                                      0
(nonexchange)
Benefit Program Revenue                                                            0                                 0                                      0
(nonexchange)
Other taxes and receipts                                                           0                                 0                                      0
Total Federal Nonexchange Revenue                                                  0                                 0                                      0

Budgetary Financing Sources:
Appropriations received as adjusted                                                0                                 0                                      0
(rescissions and other adjustments)
Appropriation of unavailable special                                               0                                 0                                      0
or trust fund receipts transfers-in
Appropriation of unavailable special                                               0                                 0                                      0
or trust fund receipts Transfers-out
Nonexpenditure transfers-in of                                                     0                                 0                                      0
unexpended appropriations and
financing sources
Nonexpenditure Transfers-out of                                                    0                                 0                                      0




                                                                                              -5-
                                                                       U.S Department of the Treasury                                        11-16-2012 14:49:00
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                            2012                             Period:   SEPTEMBER

Entity:       1602-PENSION BENEFIT GUARANTY                         Reported In:        MILLIONS                Decimal Point:     ZERO
              CORPORATION

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2012-SEPTEMBER                        2011-SEPTEMBER                   Previously Reported
unexpended appropriations and
financing sources
Expenditure transfers-in of financing                                               0                                0                                      0
sources
Expenditure Transfers-out of                                                        0                                0                                      0
financing sources
Nonexpenditure Transfers-In of                                                      0                                0                                      0
Financing Sources - Capital Transfers
Nonexpenditure Transfers-out of                                                     0                                0                                      0
Financing Sources - Capital Transfers
Collections for Others Transferred to                                               0                                0                                      0
the General Fund
Accrual for Amounts to be Collected                                                 0                                0                                      0
for Others and Transferred to the
General Fund
Other budgetary financing sources                                                   0                                0                                      0
Total Budgetary Financing Sources                                                   0                                0                                      0

Other Financing Sources:
Transfers-in Without Reimbursement                                                  0                                0                                      0
Transfers-out Without                                                               0                                0                                      0
Reimbursement
Imputed Financing Source                                                           (8)                              (5)                                 (5)
Non-Entity Collections Transferred                                                  0                                0                                   0
to the General Fund
Accrual for Non-entity Amounts to                                                   0                                0                                      0




                                                                                               -6-
                                                                       U.S Department of the Treasury                                        11-16-2012 14:49:00
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                            2012                             Period:   SEPTEMBER

Entity:       1602-PENSION BENEFIT GUARANTY                         Reported In:        MILLIONS                Decimal Point:     ZERO
              CORPORATION

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2012-SEPTEMBER                        2011-SEPTEMBER                   Previously Reported
be Collected and Transferred to the
General Fund
Other non-budgetary financing                                                       0                                0                                      0
sources
Total Other Financing Sources                                                      (8)                              (5)                                 (5)


Net Cost                                                                       7,998                             4,277                               4,277

Ending Net Position Balance                                                  37,085                             29,091                              29,062




                                                                                               -7-
                                                                       U.S Department of the Treasury                                        11-16-2012 14:49:00
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF NET COST                                    Fiscal Year:        2012                             Period:   SEPTEMBER

Entity:       1602-PENSION BENEFIT GUARANTY                         Reported In:        MILLIONS                Decimal Point:     ZERO
              CORPORATION

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2012-SEPTEMBER                        2011-SEPTEMBER                   Previously Reported
Gross Cost:
Non-Federal Gross Cost                                                       20,173                             12,797                              12,797
Interest on Debt Held by the Public                                               0                                  0                                   0
Gain/Loss from changes in actuarial                                               0                                  0                                   0
assumptions
Total Non-Federal Gross Cost                                                 20,173                             12,797                              12,797

Federal Gross Cost
Benefit Program Costs                                                              24                               23                                  23
Imputed Costs                                                                       8                                5                                   5
Buy/Sell Costs                                                                      4                                5                                   5
Federal Securities Interest Expense                                                 6                               35                                  35
Borrowing and Other Interest                                                        0                                0                                   0
Expense
Borrowing Losses                                                                  0                                  0                                   0
Other Expenses (without reciprocals)                                              0                                  0                                   0
Total Federal Gross Cost                                                         42                                 68                                  68
Department Total Gross Cost                                                  20,215                             12,865                              12,865

Earned Revenue
Non-Federal Earned Revenue                                                  (10,448)                            (7,414)                             (7,414)

Federal Earned Revenue
Benefit Program Revenue (exchange)                                                 0                                 0                                   0
Buy/Sell Revenue                                                                   0                                 0                                   0
Federal Securities Interest Revenue                                           (1,769)                           (1,174)                             (1,174)




                                                                                               -8-
                                                                       U.S Department of the Treasury                                        11-16-2012 14:49:00
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF NET COST                                    Fiscal Year:       2012                              Period:   SEPTEMBER

Entity:       1602-PENSION BENEFIT GUARANTY                         Reported In:       MILLIONS                 Decimal Point:     ZERO
              CORPORATION

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2012-SEPTEMBER                       2011-SEPTEMBER                    Previously Reported
(exchange)
Borrowing and Other Interest                                                       0                                 0                                      0
Revenue (Exchange)
Borrowings Gains                                                                   0                                 0                                   0
Other Revenue (without reciprocals)                                                0                                 0                                   0
Total Federal Earned Revenue                                                  (1,769)                           (1,174)                             (1,174)

Department Total Earned Revenue                                             (12,217)                            (8,588)                             (8,588)

Net Cost                                                                       7,998                             4,277                               4,277




                                                                                              -9-
 Audit of the Pension Benefit Guaranty
Corporation’s Fiscal Year 2012 and 2011
 Special-Purpose Financial Statements


Audit Report AUD-2013-4 / FA-12-88-4




             Section V

   GF003G – Closing Package
     Line Reclassification
       Summary Report
                                                                 U.S. Department of the Treasury                                     11/16/2012 15:00:26
                                                                   Financial Management Service
                                                              Governmentwide Financial Report System

                                                 GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                      Fiscal Year: 2012                                   Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                        Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB       F/N      2012-SEPTEMBER          2011-SEPTEMBER
                                                                                      Type
 2   Cash and cash equivalents                                                          A      D       B                     3,792                  5,026
                                                                                     Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported      Line Item Changes
Cash and Other Monetary Assets                           N                 3,525                  4,984                      4,984                     0
Fund Balance with Treasury                               F                     1                      1                          1                     0
Federal Investments                                      F                   266                     41                         41                     0
Total:                                                                     3,792                  5,026                      5,026                     0
Line Agency Line Description                                                  Status Account NB       F/N      2012-SEPTEMBER          2011-SEPTEMBER
                                                                                      Type
 3   Securities lending collateral (Notes 3 and 5)                                      A      D       N                     3,425                  4,587
                                                                                     Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported      Line Item Changes
Debt and Equity Securities                               N                 3,425                  4,587                      4,587                     0
Total:                                                                     3,425                  4,587                      4,587                     0

Line Agency Line Description                                                  Status Account NB       F/N      2012-SEPTEMBER          2011-SEPTEMBER
                                                                                      Type
 5   Fixed maturity securities                                                          A      D       B                    47,237                 44,951
                                                                                     Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported      Line Item Changes
Federal Investments                                      F                22,691                 22,469                     22,469                     0
Debt and Equity Securities                               N                24,545                 22,464                     22,464                     0
Derivative Assets                                        N                     1                     18                         18                     0


                                                                               -1-
                                                             U.S. Department of the Treasury                                     11/16/2012 15:00:26
                                                               Financial Management Service
                                                          Governmentwide Financial Report System

                                             GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                  Fiscal Year: 2012                                   Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                    Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                     Account NB       F/N      2012-SEPTEMBER          2011-SEPTEMBER
                                                                                  Type
 5 Fixed maturity securities                                                        A    D        B                    47,237                  44,951
Total:                                                                 47,237                  44,951                  44,951                       0




Line Agency Line Description                                              Status Account NB       F/N      2012-SEPTEMBER          2011-SEPTEMBER
                                                                                  Type
 6   Equity securities                                                              A      D       N                    22,619                 17,997
                                                                                 Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported      Line Item Changes
Debt and Equity Securities                           N                22,619                 17,996                     17,996                     0
Derivative Assets                                    N                     0                      1                          1                     0
Total:                                                                22,619                 17,997                     17,997                     0
Line Agency Line Description                                              Status Account NB       F/N      2012-SEPTEMBER          2011-SEPTEMBER
                                                                                  Type
 7   Private equity                                                                 A      D       N                     1,339                  1,459
                                                                                 Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported      Line Item Changes
Debt and Equity Securities                           N                 1,339                  1,459                      1,459                     0
Total:                                                                 1,339                  1,459                      1,459                     0




                                                                           -2-
                                                                 U.S. Department of the Treasury                                     11/16/2012 15:00:26
                                                                   Financial Management Service
                                                              Governmentwide Financial Report System

                                                 GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                      Fiscal Year: 2012                                   Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                        Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB       F/N      2012-SEPTEMBER          2011-SEPTEMBER
                                                                                      Type
 8   Real estate and real estate investment trusts                                      A      D       N                      511                     536
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported      Line Item Changes
Debt and Equity Securities                               N                  511                    536                        536                      0
Total:                                                                      511                    536                        536                      0

Line Agency Line Description                                                  Status Account NB       F/N      2012-SEPTEMBER          2011-SEPTEMBER
                                                                                      Type
 9   Other                                                                              A      D       N                       77                      22
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported      Line Item Changes
Debt and Equity Securities                               N                   77                     22                         22                      0
Total:                                                                       77                     22                         22                      0

Line Agency Line Description                                                  Status Account NB       F/N      2012-SEPTEMBER          2011-SEPTEMBER
                                                                                      Type
 12 Sponsors of terminated plans                                                        A      D       N                       41                      31
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported      Line Item Changes
Accounts and Taxes Receivable                            N                   41                     31                         31                      0
Total:                                                                       41                     31                         31                      0




                                                                               -3-
                                                             U.S. Department of the Treasury                                     11/16/2012 15:00:26
                                                               Financial Management Service
                                                          Governmentwide Financial Report System

                                             GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                  Fiscal Year: 2012                                   Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                    Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                              Status Account NB       F/N      2012-SEPTEMBER          2011-SEPTEMBER
                                                                                  Type
 13 Premiums (Note 11)                                                              A      D       N                     1,087                    562
                                                                                 Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported      Line Item Changes
Accounts and Taxes Receivable                        N                 1,087                   562                        562                      0
Total:                                                                 1,087                   562                        562                      0

Line Agency Line Description                                              Status Account NB       F/N      2012-SEPTEMBER          2011-SEPTEMBER
                                                                                  Type
 14 Sale of securities                                                              A      D       N                     1,353                  1,807
                                                                                 Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported      Line Item Changes
Accounts and Taxes Receivable                        N                 1,353                  1,807                      1,807                     0
Total:                                                                 1,353                  1,807                      1,807                     0

Line Agency Line Description                                              Status Account NB       F/N      2012-SEPTEMBER          2011-SEPTEMBER
                                                                                  Type
 15 Derivative contracts (Note 4)                                                   A      D       N                       83                     178
                                                                                 Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported      Line Item Changes
Accounts and Taxes Receivable                        N                   79                     88                         88                      0
Derivative Assets                                    N                    4                     90                         90                      0
Total:                                                                   83                    178                        178                      0




                                                                           -4-
                                                             U.S. Department of the Treasury                                     11/16/2012 15:00:26
                                                               Financial Management Service
                                                          Governmentwide Financial Report System

                                             GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                  Fiscal Year: 2012                                   Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                    Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                              Status Account NB       F/N      2012-SEPTEMBER          2011-SEPTEMBER
                                                                                  Type
 16 Investment income                                                               A      D       B                      464                     481
                                                                                 Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported      Line Item Changes
Interest Receivable                                  F                  164                    182                        182                      0
Accounts and Taxes Receivable                        N                    4                      4                           4                     0
Debt and Equity Securities                           N                  296                    295                        295                      0
Total:                                                                  464                    481                        481                      0
Line Agency Line Description                                              Status Account NB       F/N      2012-SEPTEMBER          2011-SEPTEMBER
                                                                                  Type
 17 Other                                                                           A      D       N                        4                          3
                                                                                 Variance:                                  0                          0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported      Line Item Changes
Accounts and Taxes Receivable                        N                   4                      3                            3                     0
Total:                                                                   4                      3                            3                     0

Line Agency Line Description                                              Status Account NB       F/N      2012-SEPTEMBER          2011-SEPTEMBER
                                                                                  Type
 19 Capitalized assets, net                                                         A      D       N                       42                      33
                                                                                 Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported      Line Item Changes
Property, Plant and Equipment                        N                   42                     33                         33                      0
Total:                                                                   42                     33                         33                      0



                                                                           -5-
                                                                U.S. Department of the Treasury                                      11/16/2012 15:00:26
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2012                                    Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                       Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB      F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                      Type
 24 Trusteed plans                                                                      L      C      N                   103,127                  91,719
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported       Line Item Changes
Insurance and Guarantee Program Liabilities             N                103,127                 91,719                    91,719                      0
Total:                                                                  (103,127)               (91,719)                  (91,719)                     0

Line Agency Line Description                                                  Status Account NB      F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                      Type
 25 Plans pending termination and trusteeship                                           L      C      N                       418                     346
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported       Line Item Changes
Insurance and Guarantee Program Liabilities             N                  418                    346                        346                       0
Total:                                                                    (418)                  (346)                      (346)                      0

Line Agency Line Description                                                  Status Account NB      F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                      Type
 26 Settlements and judgments                                                           L      C      N                        56                      56
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported       Line Item Changes
Insurance and Guarantee Program Liabilities             N                   56                     56                         56                       0
Total:                                                                     (56)                   (56)                       (56)                      0




                                                                              -6-
                                                                U.S. Department of the Treasury                                     11/16/2012 15:00:26
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                               GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                      Fiscal Year: 2012                                  Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                        Reported in: MILLIONS                        Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                   Status Account NB      F/N    2012-SEPTEMBER           2011-SEPTEMBER
                                                                                       Type
 27 Claims for probable terminations                                                     L      C     N                    2,035                     833
                                                                                      Variance:                                0                       0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N        2012-SEPTEMBER        2011-SEPTEMBER        Previously Reported       Line Item Changes
Insurance and Guarantee Program Liabilities            N                    2,035                  833                      833                       0
Total:                                                                     (2,035)                (833)                    (833)                      0

Line Agency Line Description                                                   Status Account NB      F/N    2012-SEPTEMBER           2011-SEPTEMBER
                                                                                       Type
 29 Present value of nonrecoverable future financial assistance (Note 7)          I      L      C     N
                                                                                      Variance:                                0                          0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N        2012-SEPTEMBER        2011-SEPTEMBER        Previously Reported       Line Item Changes
Total:                                                                        0                     0                          0                      0


Line Agency Line Description                                                   Status Account NB      F/N    2012-SEPTEMBER           2011-SEPTEMBER
                                                                                       Type
 31 Insolvent plans                                                                      L      C     N                    1,388                   1,232
                                                                                      Variance:                                0                       0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N        2012-SEPTEMBER        2011-SEPTEMBER        Previously Reported       Line Item Changes
Other Liabilities                                      N                    1,388                 1,232                    1,232                      0
Total:                                                                     (1,388)               (1,232)                  (1,232)                     0




                                                                                -7-
                                                             U.S. Department of the Treasury                                      11/16/2012 15:00:26
                                                               Financial Management Service
                                                          Governmentwide Financial Report System

                                             GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                  Fiscal Year: 2012                                    Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                    Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                              Status Account NB       F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                  Type
 32 Probable insolvent plans                                                        L      C       N                     5,622                   3,243
                                                                                 Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported       Line Item Changes
Other Liabilities                                    N                 5,622                  3,243                      3,243                      0
Total:                                                                (5,622)                (3,243)                    (3,243)                     0

Line Agency Line Description                                              Status Account NB       F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                  Type
 35 Derivative contracts (Note 4)                                                   L      C       N                        94                     173
                                                                                 Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported       Line Item Changes
Other Liabilities                                    N                   73                    167                        167                       0
Derivative Liabilities                               N                   21                      6                           6                      0
Total:                                                                  (94)                  (173)                      (173)                      0
Line Agency Line Description                                              Status Account NB       F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                  Type
 36 Due for purchases of securities                                                 L      C       N                     2,557                   4,079
                                                                                 Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported       Line Item Changes
Other Liabilities                                    N                 2,557                  4,079                      4,079                      0
Total:                                                                (2,557)                (4,079)                    (4,079)                     0




                                                                           -8-
                                                               U.S. Department of the Treasury                                      11/16/2012 15:00:26
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System

                                               GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                    Fiscal Year: 2012                                    Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                      Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                Status Account NB       F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                    Type
 37 Payable upon return of securities loaned                                          L      C       N                     3,425                   4,587
                                                                                   Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N     2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported       Line Item Changes
Other Liabilities                                      N                 3,425                  4,587                      4,587                      0
Total:                                                                  (3,425)                (4,587)                    (4,587)                     0

Line Agency Line Description                                                Status Account NB       F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                    Type
 38 Securities sold under repurchase agreements                                       L      C       N                         0                          0
                                                                                   Variance:                                   0                          0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N     2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported       Line Item Changes
Total:                                                                     0                      0                            0                      0


Line Agency Line Description                                                Status Account NB       F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                    Type
 39 Unearned premiums                                                                 L      C       N                       358                     397
                                                                                   Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N     2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported       Line Item Changes
Other Liabilities                                      N                  358                    397                        397                       0
Total:                                                                   (358)                  (397)                      (397)                      0




                                                                             -9-
                                                             U.S. Department of the Treasury                                     11/16/2012 15:00:26
                                                               Financial Management Service
                                                          Governmentwide Financial Report System

                                             GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                  Fiscal Year: 2012                                   Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                    Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                              Status Account NB       F/N      2012-SEPTEMBER          2011-SEPTEMBER
                                                                                  Type
 40 Due for purchases of securities                                          I      L      C       N
                                                                                 Variance:                                  0                          0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported      Line Item Changes
Total:                                                                   0                       0                           0                     0


Line Agency Line Description                                              Status Account NB       F/N      2012-SEPTEMBER          2011-SEPTEMBER
                                                                                  Type
 41 Derivative contracts (Note 4)                                            I      L      C       N
                                                                                 Variance:                                  0                          0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported      Line Item Changes
Total:                                                                   0                       0                           0                     0


Line Agency Line Description                                              Status Account NB       F/N      2012-SEPTEMBER          2011-SEPTEMBER
                                                                                  Type
 42 Accounts payable and accrued expenses (Note 8)                                  L      C       B                       79                      70
                                                                                 Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported      Line Item Changes
Accounts Payable                                     N                   67                      58                        58                      0
Other Liabilities                                    N                   11                      11                        11                      0
Benefit Program Contributions Payable                F                    1                       1                          1                     0
Total:                                                                  (79)                    (70)                      (70)                     0



                                                                           - 10 -
                                                             U.S. Department of the Treasury                                      11/16/2012 15:00:26
                                                               Financial Management Service
                                                          Governmentwide Financial Report System

                                             GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                  Fiscal Year: 2012                                    Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                    Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                               Status Account NB      F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                   Type
 45 Net position                                                                     E      C      B                   (37,085)                (29,062)
                                                                                  Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported       Line Item Changes
Net Position-Non-Earmarked Funds                     B                (37,085)                (29,062)                 (29,062)                     0
Total:                                                                 37,085                  29,062                   29,062                      0




                                                                           - 11 -
                                                               U.S. Department of the Treasury                                     11/16/2012 15:00:26
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System

                                              GF003G-Closing Package Line Reclassification Summary Report

Statement: INCOME STATEMENT                                                 Fiscal Year: 2012                                   Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                      Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB      F/N     2012-SEPTEMBER           2011-SEPTEMBER
                                                                                     Type
 31 Total Costs                                                                       TC      D      B                   20,215                  12,865
                                                                                    Variance:                                 0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N       2012-SEPTEMBER          2011-SEPTEMBER        Previously Reported       Line Item Changes
Imputed Costs                                        F                       8                       5                        5                      0
Buy/Sell Costs                                       F                       4                       5                        5                      0
Benefit Program Costs                                F                      24                      23                       23                      0
Federal Securities Interest Expense                  F                       6                      35                       35                      0
Non-Federal Gross Cost                               N                  20,173                  12,797                   12,797                      0
Total:                                                                  20,215                  12,865                   12,865                      0
Line Agency Line Description                                                 Status Account NB      F/N     2012-SEPTEMBER           2011-SEPTEMBER
                                                                                     Type
 32 Total Revenue                                                                     TR      C      B                   12,221                   8,597
                                                                                    Variance:                                 0                       0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N     2012-SEPTEMBER          2011-SEPTEMBER        Previously Reported       Line Item Changes
Imputed Financing Source                               F                      8                      5                        5                      0
Federal Securities Interest Revenue (exchange)         F                  1,769                  1,174                    1,174                      0
Non-Federal Earned Revenue                             N                 10,448                  7,414                    7,414                      0
Other Taxes and Receipts                               N                     (4)                     4                        4                      0
Total:                                                                  (12,221)                (8,597)                  (8,597)                     0




                                                                             - 12 -
                                                             U.S. Department of the Treasury                                      11/16/2012 15:00:26
                                                               Financial Management Service
                                                          Governmentwide Financial Report System

                                             GF003G-Closing Package Line Reclassification Summary Report

Statement: INCOME STATEMENT                                               Fiscal Year: 2012                                    Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                    Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                               Status Account NB      F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                   Type
 33 Net position, beginning of year                                                 BN      C      B                   (29,091)                (24,823)
                                                                                  Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported       Line Item Changes
Beginning Net Position                               B                (29,062)                (24,794)                 (24,794)                     0
Change in Accounting Principles - Federal            F                    (29)                    (29)                       0                    (29)
Total:                                                                 29,091                  24,823                   24,794                    (29)




                                                                           - 13 -
 Audit of the Pension Benefit Guaranty
Corporation’s Fiscal Year 2012 and 2011
 Special-Purpose Financial Statements


Audit Report AUD-2013-4 / FA-12-88-4




             Section VI

    GF004F – Trading Partner
     Summary Note Report
                                                             U.S.Department of the Treasury                                 11-16-2012 15:03:05
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2012                                Period: SEPTEMBER

Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION            Reported in: MILLIONS                     Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB              2012-SEPTEMBER        2011-SEPTEMBER
 BS              Federal Investments                              A                   D                         22,957                22,510
                                                                                 Variance:                             0                     0

Trading       Name                              Status 2012-SEPTEMBER      2011-SEPTEMBER             Previously Reported    Line item Changes
Partner
 2000 Department of the Treasury                                22,957                       22,510                22,510                    0
                                  Total                         22,957                       22,510                22,510                    0


Agency FS Status CP Line Description                              Account Type        NB              2012-SEPTEMBER        2011-SEPTEMBER
 BS              Interest Receivable                              A                   D                           164                   182
                                                                                 Variance:                             0                     0

Trading       Name                              Status 2012-SEPTEMBER      2011-SEPTEMBER             Previously Reported    Line item Changes
Partner
 2000 Department of the Treasury                                   164                         182                   182                     0
                                  Total                            164                         182                   182                     0




                                                                          -1-
                                                             U.S.Department of the Treasury                              11-16-2012 15:03:05
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2012                             Period: SEPTEMBER

Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION            Reported in: MILLIONS                  Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB           2012-SEPTEMBER        2011-SEPTEMBER
 BS              Benefit Program Contributions Payable            L                   C                         1                     1
                                                                                 Variance:                          0                     0

Trading         Name                            Status 2012-SEPTEMBER      2011-SEPTEMBER          Previously Reported    Line item Changes
Partner
 2400 Office of Personnel Management                                 1                        1                     1                     0
                                  Total                             (1)                      (1)                   (1)                    0



Statement: STATEMENT OF CHANGES IN NET POSITION                   Fiscal Year: 2012                             Period: SEPTEMBER

Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION            Reported in: MILLIONS                  Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB           2012-SEPTEMBER        2011-SEPTEMBER
 IS              Imputed Financing Source                         F                   C                         8                     5
                                                                                 Variance:                          0                     0

Trading         Name                            Status 2012-SEPTEMBER      2011-SEPTEMBER          Previously Reported    Line item Changes
Partner
 2400 Office of Personnel Management                                 8                        5                     5                     0
                                  Total                             (8)                      (5)                   (5)                    0




                                                                          -2-
                                                               U.S.Department of the Treasury                                   11-16-2012 15:03:05
                                                               Financial Management Service
                                                           Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                    Fiscal Year: 2012                                 Period: SEPTEMBER

Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION              Reported in: MILLIONS                      Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                Account Type        NB               2012-SEPTEMBER         2011-SEPTEMBER
 IS              Federal Securities Interest Revenue (exchange)     ER                  C                           1,769                  1,174
                                                                                   Variance:                               0                     0

Trading       Name                              Status 2012-SEPTEMBER        2011-SEPTEMBER              Previously Reported     Line item Changes
Partner
 2000 Department of the Treasury                                  1,769                        1,174                   1,174                     0
                                  Total                           (1,769)                      (1,174)                (1,174)                    0


Agency FS Status CP Line Description                                Account Type        NB               2012-SEPTEMBER         2011-SEPTEMBER
 IS              Benefit Program Costs                              GC                  D                             24                     23
                                                                                   Variance:                               0                     0

Trading         Name                            Status 2012-SEPTEMBER        2011-SEPTEMBER              Previously Reported     Line item Changes
Partner
 2400 Office of Personnel Management                                  17                           17                     17                     0
 9900 Treasury General Fund                                            7                            6                      6                     0
                                  Total                               24                           23                     23                     0




                                                                            -3-
                                                              U.S.Department of the Treasury                             11-16-2012 15:03:05
                                                              Financial Management Service
                                                          Governmentwide Financial Report System

                                                       GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                   Fiscal Year: 2012                            Period: SEPTEMBER

Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION             Reported in: MILLIONS                 Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                               Account Type        NB          2012-SEPTEMBER        2011-SEPTEMBER
 IS              Buy/Sell Costs                                    GC                  D                        4                     5
                                                                                  Variance:                         0                     0

Trading        Name                             Status 2012-SEPTEMBER       2011-SEPTEMBER         Previously Reported    Line item Changes
Partner
 0400 GOVERNMENT PRINTING OFFICE                                     0                         1                    1                     0
 1300 Department of Commerce                                         1                         0                    0                     0
 1400 Department of the Interior                                     1                         1                    1                     0
 1601 Department of Labor                                            1                         1                    1                     0
 1800 United States Postal Service                                   0                         1                    1                     0
 4700 General Services Administration                                1                         1                    1                     0
                                  Total                              4                         5                    5                     0

Agency FS Status CP Line Description                               Account Type        NB          2012-SEPTEMBER        2011-SEPTEMBER
 IS              Federal Securities Interest Expense               GC                  D                        6                     35
                                                                                  Variance:                         0                     0

Trading       Name                              Status 2012-SEPTEMBER       2011-SEPTEMBER         Previously Reported    Line item Changes
Partner
 2000 Department of the Treasury                                     6                        35                   35                     0
                                  Total                              6                        35                   35                     0




                                                                           -4-
                                                             U.S.Department of the Treasury                             11-16-2012 15:03:05
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                  Fiscal Year: 2012                            Period: SEPTEMBER

Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION            Reported in: MILLIONS                 Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB          2012-SEPTEMBER        2011-SEPTEMBER
 IS              Imputed Costs                                    GC                  D                        8                     5
                                                                                 Variance:                         0                     0

Trading         Name                            Status 2012-SEPTEMBER      2011-SEPTEMBER         Previously Reported    Line item Changes
Partner
 2400 Office of Personnel Management                                8                        5                     5                     0
                                  Total                             8                        5                     5                     0




                                                                          -5-
 Audit of the Pension Benefit Guaranty
Corporation’s Fiscal Year 2012 and 2011
 Special-Purpose Financial Statements


Audit Report AUD-2013-4 / FA-12-88-4




             Section VII

    GF006 – Financial Report
       (FR) Notes Report
                                                                                                                                                                                       11/16/2012 14:40:35

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 01            Federal Reserve Earnings, Subsequent Events, and Other Pertinent Information                                 Fiscal Year: 2012               Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:    AR - Note 17

  Status: Complete                            The accompanying notes are an integral part of these financial statements.           I = Inactive Line

Tab: Other Notes Info.

       Section: B             Section Name: Related Parties, External to the Reporting Entity for       No Data Flag: YES         Line Attributes: Dollars
                                            the Financial Report                                                                Rounding Method: Millions                      Decimal: Zero
Line Status Line Description          NB        2012 - SEPTEMBER             2011 - SEPTEMBER                 Previously Rptd    Line Item Changes
 1              Related party        Debit
                receivables
 2              Related party        Credit
                payables
 3              Related party        Credit
                operating revenue
 4              Related party net    Debit
                cost of operations
 5              Related party        Debit
                economic
                dependency
                transactions
 6              Investments in       Debit
                related parties




                                                                                                           -1-
                                                                                                                                                                                                 11/16/2012 14:40:35

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 01          Federal Reserve Earnings, Subsequent Events, and Other Pertinent Information                                    Fiscal Year: 2012                  Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:      AR - Note 17

 Status: Complete                         The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Text Data
Line               Question                                                                                         Answer
1                  Describe any significant events or transactions that occurred after the date of the Balance      1). Management evaluated subsequent events through November 14, 2012, the date
                   Sheet but before the issuance of agency¿s audited financial statements.                          the financial statements were available to be issued. Events or transactions for either
                                                                                                                    the single-employer or multiemployer program, occurring after September 30, 2012
                                                                                                                    and before the financial statements were available to be issued, that provided additional
                                                                                                                    evidence about conditions that existed at September 30, 2012 have been recognized in
                                                                                                                    the financial statements.

                                                                                                                    For the single-employer program, there was one nonrecognized subsequent event.
                                                                                                                    Subsequent to September 30, 2012, business and financial conditions significantly
                                                                                                                    declined for one controlled group that sponsors two single-employer plans (unfunded
                                                                                                                    guaranteed liabilities of $0.063 billion). Had these events occurred on or prior to
                                                                                                                    September 30, 2012, PBGC's financial statements would have reflected an additional
                                                                                                                    loss of $0.063 billion resulting in an FY 2012 single-employer Net loss of $5.939 billion
                                                                                                                    and an FY 2012 single-employer Net position of $(29.205) billion.

                                                                                                                    For the multiemployer program, there was one nonrecognized subsequent event. On
                                                                                                                    November 5, 2012, PBGC received a formal notice of a mass withdrawal termination
                                                                                                                    from a multiemployer plan, resulting in the present value of financial assistance of
                                                                                                                    approximately $0.127 billion as of September 30, 2012. Had this event occurred on or
                                                                                                                    prior to September 30, 2012, PBGC's financial statements would have reflected an
                                                                                                                    additional loss of $0.127 billion, resulting in a FY 2012 multiemployer program net loss
                                                                                                                    of $2.59 billion and a FY 2012 multiemployer program net position of $(5.36) billion.

2                  Describe any departures from U.S. Generally Accepted Accounting Procedures (GAAP).               2). There were no departures from GAAP for the end of fiscal year September 30, 2012.
3                  When applying the general rule of the Statements of Federal Financial Accounting Standards       3). There were no such accruals that need to be noted for the fiscal year, September
                   (SFFAS) No. 7, par.                                                                              30, 2012.
                   48, describe the specific potential accruals that are not made and the practical and inherent
                   limitations affecting the
                   accrual of taxes and duties.
4                  Describe any change in accounting if a collecting entity adopts accounting standards that        4). There were no changes in accounting for the end of fiscal year, September 30,
                   embody a fuller                                                                                  2012.
                   application of accrual accounting concepts that differ from that prescribed by SFFAS No. 7,
                   par. 48.
5                  List all of the agency's components for which balances and activities are not combined into      5). There were no omissions of balances nor activity from PBGC's financial statements.
                   the agency's financial statements, and, therefore, are represented in the GFRS data.             All activity is represented in GFRS.
6                  List all of the agency's components for which balances and activities are combined into the      6). PBGC has two programs - The single-employer and the multiemployer program, in
                   agency's financial                                                                               which both are combined on the agency's financial statements and, therefore,
                   statements, and, therefore, are represented in the GFRS data.                                    represented in the GFRS data.
7                  Describe any additional significant accounting policies specific to the agency not included in   7). There is no additional information to report for the end of fiscal year, September 30,
                   GFRS Module                                                                                      2012.
                   GF006 - FR Notes.
8                  Provide any other relevant information pertaining to the Federal Reserve Earnings.               8). N/A
9                  Describe the nature of the related party relationship and transactions pertaining to the         9). N/A



                                                                                                           -2-
                                                                                                                                                                               11/16/2012 14:40:35

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 01       Federal Reserve Earnings, Subsequent Events, and Other Pertinent Information                               Fiscal Year: 2012               Period: SEPTEMBER
  Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:    AR - Note 17

 Status: Complete                       The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Text Data
Line             Question                                                                                        Answer
                 amount in the ,Other
                 Notes Info, tab, Related party receivables' line.
10               Describe the nature of the related party relationship and transactions pertaining to the        10). N/A
                 amount in the "Other
                 Notes Info " tab," Related party payables" line.
11               Describe the "Other Notes Info" tab, "Related party operating revenue" transactions along       11). N/A
                 with the related party
                 relationship and include transactions with zero or nominal balances, guarantees, and other
                 terms. Also, describe
                 changes in related party terms.
12               Describe the ''Other Notes Info" tab, "Related party net cost of operations" transactions       12). N/A
                 along with the related party relationship and include transactions with zero or nominal
                 balances, guarantees, and other terms. Also, describe changes in related party terms.
13               Describe related party economic dependency (that is, major customers, suppliers,                13). N/A
                 franchisors, franchisees, distributors, general agents, borrowers, and lenders) relationships
                 and transactions included in the "Other Notes Info" tab, "Related party economic
                 dependency transactions" section.
14               Provide details on the investments in related parties.                                          14). N/A
15               Provide details on related party leases.                                                        15). N/A
16               Describe control relationships with entities under common ownership, management control,        16). N/A
                 and conservatorship if the operating results or financial position could be significantly
                 impacted as a result of the relationship. Include control relationships with and without
                 transactions.
17               Provide any other useful information on related parties.                                        17). N/A




                                                                                                         -3-
                                                                                                                                                                                              11/16/2012 14:40:35

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 02           Cash and Other Monetary Assets                                                                                Fiscal Year: 2012                 Period: SEPTEMBER
   Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:        AR - MD&A Investment Activity & Note 3

  Status: Complete                          The accompanying notes are an integral part of these financial statements.             I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                          NB    Account     2012 - SEPTEMBER       2011 - SEPTEMBER
                                                                                  Type
Cash and Other Monetary Assets                                             D        A                     3,525                   4,984
                                                                               Variance:                      0                       0           Rounding Method: Millions              Decimal: Zero
Line Status Line Description             2012 - SEPTEMBER            2011 - SEPTEMBER               Previously Rptd           Line Item Changes
 3           Other cash - not                                    1                          1                            1                             0
             restricted
 4           Other cash - restricted                        3,524                       4,983                       4,983                              0
 7           Foreign currency
             Total                                           3,525                       4,984                        4,984                            0
Threshold

 Line Description                                               Question                                                           Answer
 Line Item Notes - Other cash - restricted (2012 -              Please provide explanations for any amounts that have              The change is directly attributable to PBGC's investment activity and cash
 SEPTEMBER)                                                     changed by 10% or more and or greater than 500,000 between         received from newly trusteed plans.
                                                                the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                       -4-
                                                                                                                                                                                     11/16/2012 14:40:35

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 02            Cash and Other Monetary Assets                                                                           Fiscal Year: 2012             Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                     Agency Notes:    AR - MD&A Investment Activity & Note 3

  Status: Complete                             The accompanying notes are an integral part of these financial statements.      I = Inactive Line

Tab: Other Notes Info.

       Section: C             Section Name: Analysis of Cash Held Outside Treasury                     No Data Flag: YES      Line Attributes: Dollars
                                                                                                                            Rounding Method: Millions                       Decimal: Zero
Line Status Line Description           NB        2012 - SEPTEMBER             2011 - SEPTEMBER
 1              Total Cash Held       Credit
                Outside Treasury
                (reported to Treas
                central account
                thru the statement
                of Transac/ Stat of
                Accountbilit
 2        I     Agency-entered        Credit
                reconciling item
 3        I     Agency-entered        Credit
                reconciling item
 4        I     Agency-entered        Credit
                reconciling item
 5        I     Agency-entered        Credit
                reconciling item
 6        I     Agency-entered        Credit
                reconciling item
 7        I     Total cash reported   Debit
                in Note 2.
 8                                    Credit
 9                                    Credit
10                                    Credit
11                                    Credit
12                                    Credit
13              Total cash reported    N/A
                in Note 2.




                                                                                                          -5-
                                                                                                                                                                                                      11/16/2012 14:40:35

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 02          Cash and Other Monetary Assets                                                                                     Fiscal Year: 2012                   Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                               Agency Notes:       AR - MD&A Investment Activity & Note 3

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                   I = Inactive Line

Tab: Text Data
Line               Question                                                                                            Answer
1                  Describe the nature of the amount in the line item "other cash - not restricted."                   1). Relates to entity cash as defined in FASAB. This cash is derived from a cash
                                                                                                                       lockbox, whereas premiums are paid by sponsors of defined benefit plans.
3                  If the cash is restricted because it is non-entity, state the entity for which the cash is being    3). Restricted cash held by PBGC's trust fund is both for the single-employer and
                   held.                                                                                               multiemployer programs.
4                  Is the reported restricted cash being held in a financial institution? If yes, is it a Treasury     4). Yes. PBGC's restricted cash is held in a U.S. financial instituition but the cash is not
                   designated bank?                                                                                    in a Treasury designated bank.
5                  If the agency has restricted cash, is the restricted cash invested? If yes, is it invested in the   5). PBGC's restricted cash is invested in both federal and non-federal securities, within
                   Bureau of the Public Debt (BPD)security, agency security, and/or non-Federal security?              PBGC's trust fund.
6                  Describe the nature of the amount in the line item "Foreign currency."                              6). N/A
7                  Disclose any restrictions on the use (for example, by law, regulation, or agreement) of the         7). N/A
                   amount in the line item "Foreign Currency."
8                  Disclose the method of exchange rate used on the financial statement date (Treasury                 8). N/A
                   exchange rate or prevailing market rate).
9                  Provide additional details describibg the nature and cause of reconciling items reported in         9). N/A
                   Section C, lines 2 through 6.
10                 Provide any other relevant information pertaining to this note. At a minimum, describe briefly      10). N/A
                   the significant accounting policies pertaining to this note.




                                                                                                               -6-
                                                                                                                                                                                               11/16/2012 14:40:35

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

     Note: 03           Accounts and Taxes Receivable                                                                                 Fiscal Year: 2012                 Period: SEPTEMBER
   Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:        AR - MD&A Undr Writing Activity & APM

  Status: Complete                         The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                         NB    Account     2012 - SEPTEMBER       2011 - SEPTEMBER
                                                                                 Type
Accounts and Taxes Receivable                                             D        A                     2,568                    2,495
                                                                              Variance:                      0                        0           Rounding Method: Millions               Decimal: Zero
Line Status Line Description            2012 - SEPTEMBER            2011 - SEPTEMBER               Previously Rptd            Line Item Changes
 1           Accounts receivable,                           2,855                      3,683                       3,683                               0
             gross
 2           Related interest                                227                          202                           202                            0
             receivable - accounts
             receivable
 3           Penalties, fines, and                              3                          10                            10                            0
             administrative fees
             receivable
 4           Less: allowance for                            -293                      -1,195                      -1,195                               0
             loss on accounts
             receivable
 5           Less: allowance for                            -223                        -199                         -199                              0
             loss on interest
             receivable
 6           Less: allowance for                              -1                           -6                            -6                            0
             loss on penalties,
             fines, and admin. fees
             rec.
             Total                                          2,568                       2,495                        2,495                             0
Threshold

 Line Description                                              Question                                                             Answer
 Line Item Notes - Accounts receivable, gross (2012 -          Please provide explanations for any amounts that have               In FY 2012 PBGC considered the collectability of termination premium
 SEPTEMBER)                                                    changed by 10% or more and or greater than 500,000 between          receivables to plans that are in Chapter 7, 11, and 15 bankruptcy cases. As
                                                               the current fiscal year and prior fiscal year. (Unaudited)          a result of our analysis we reduced the gross receivable and associated
                                                                                                                                   allowance for approximately $886 million. The premium income associated
                                                                                                                                   with these receivables was reserved at 100%. Therefore there is no impact
                                                                                                                                   to the statement of operations in PBGC's financial statement.
 Line Item Notes - Related interest receivable - accounts      Please provide explanations for any amounts that have               This change is mainly attributable to increases in accrued interest on loans
 receivable (2012 - SEPTEMBER)                                 changed by 10% or more and or greater than 500,000 between          receivable for financial assistance provided to multiemployer plans.
                                                               the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                      -7-
                                                                                                                                                                                                11/16/2012 14:40:35

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 03          Accounts and Taxes Receivable                                                                                   Fiscal Year: 2012                  Period: SEPTEMBER
    Entity: 1602      PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:       AR - MD&A Undr Writing Activity & APM

 Status: Complete                        The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Text Data
Line               Question                                                                                         Answer
1                  Describe the method(s) used to calculate the allowances on accounts receivable.                  PBGC will calculate the FY 2012 Premium AR General Reserve using a 5 year rolling
                                                                                                                    average of collection rates for Premium Statement of Accounts (SOA). As of
                                                                                                                    September 30, 2012, the general reserve rate is 12%.

                                                                                                                    PBGC will calculate the FY 2012 Termination Premiums Accounts Receivable Reserve
                                                                                                                    using Termination Premiums for accrual basis plans that arose during a 5 year period
                                                                                                                    greater than 3 years old. As of September 30, 2012, the terrmination premuims reserve
                                                                                                                    rate is 91%.

                                                                                                                    PBGC provides financial assistance to multiemployer defined benefit pension plans in
                                                                                                                    the form of loans. Since these loans are not generally repaid, an allowance is set up to
                                                                                                                    the extent that repayment of these loans is not expected.
3                  Explain any material difference between the balance of accounts receivable and the               3). For the period ended September 30, 2012, there were no material differences
                   amounts reported on the Treasury Report on Receivables.                                          between accounts receivable and the Treasury Report on receivables.
4                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly   4). Under the accrual basis of accounting, receivables represent amounts due from
                   the significant accounting policies pertainnig to this note.                                     others. They are accounted for as assets from the time that the events giving rise to
                                                                                                                    such claims occur until the time they are collected.

                                                                                                                    Receivables shall be reduced by an allowance risk for estimated uncollectible amounts.
                                                                                                                    These estimated uncollectible amounts, and PBGC's policies and procedures for
                                                                                                                    determining the estimates shall be disclosed. Such estimates shall be based on past
                                                                                                                    experience, present market conditions, financial condition of the debtor, and analysis of
                                                                                                                    outstanding balances. Allowances shall also be estimated for uncollectible interest and
                                                                                                                    penalties accrued on delinquent payments of principal and interest.




                                                                                                           -8-
                                                                                                                                                                                               11/16/2012 14:40:35

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

      Note: 04A         Direct Loans Receivable and Mortgage Backed Securities                                                       Fiscal Year: 2012                 Period: SEPTEMBER
   Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:      AR - MD&A Part IV. B and Note 7

  Status: Complete                        The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                          NB    Account      2012 - SEPTEMBER      2011 - SEPTEMBER
                                                                                  Type
Loans Receivable and mortgage backed securities                            D        A                         0                     0
                                                                               Variance:                      0                     0          Rounding Method: Millions                 Decimal: Zero
Line Status Line Description             CY Face Value of loans        CY Long-term cost of       CY Net loans receivable    PY Face Value of loans        PY Long-term cost of          PY Net loans receivable
                                              outstanding                         loans                                           outstanding                         loans
 14
 15
 16
 17
 18
 19          All other loans                                   695                      -695                            0                        599                           -599                                 0
             receivable
             Total                                             695                         -695                         0                         599                           -599                                0
Threshold

 Line Description                                               Question                                                           Answer
 Line Item Notes - All other loans receivable (CY Face Value    Please provide explanations for any amounts that have             This change is attributable to an increase in requests for financial assistance
 of loans outstanding)                                          changed by 10% or more and or greater than 500,000 between        from the multiemployer plan sponsors.
                                                                the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                        -9-
                                                                                                                                                                                                 11/16/2012 14:40:35

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 04A           Direct Loans Receivable and Mortgage Backed Securities                                                          Fiscal Year: 2012                 Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:        AR - MD&A Part IV. B and Note 7

  Status: Complete                             The accompanying notes are an integral part of these financial statements.             I = Inactive Line

Tab: Other Notes Info.

       Section: A                Section Name: Subsidy Expense/(Income)                                                              Line Attributes: Dollars
                                                                                                                                   Rounding Method: Millions                           Decimal: Zero
Line Status Line Description            NB       2012 - SEPTEMBER             2011 - SEPTEMBER                  Previously Rptd     Line Item Changes
14             Multiemployer           Debit                          95                         115                         115                          0
               Financial
               Assistance -
               Revolving
15                                     Debit
16                                     Debit
17                                     Debit
18                                     Debit
19             All other loans         Debit
               receivable
20             Total                 N/A                              95                         115                         115                          0
Threshold
 Line Description                                                  Question                                                           Answer
 Other Notes Info - Multiemployer Financial Assistance -           Please provide explanations for any amounts that have              This is attributable to a decrease in payments to insolvent multiemployer
 Revolving (2012 - SEPTEMBER)                                      changed by 10% or more and or greater than 500,000                 plans which covered guaranteed benefits and reasonable administrative
                                                                   between the current fiscal year and prior fiscal year.             expenses during the fiscal year.
                                                                   (Unaudited)
       Section: B                Section Name: Foreclosed Assets - Balances (SFFAS No. 3, par.           No Data Flag: YES           Line Attributes: Dollars
                                               91)                                                                                 Rounding Method: Millions                           Decimal: Zero
Line Status Line Description            NB       2012 - SEPTEMBER             2011 - SEPTEMBER                  Previously Rptd     Line Item Changes
 1             Balances for            Debit
               property held Pre-
               1992
 2             Balances for            Debit
               property held Post-
               1991




                                                                                                            - 10 -
                                                                                                                                                                                      11/16/2012 14:40:35

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 04A          Direct Loans Receivable and Mortgage Backed Securities                                                     Fiscal Year: 2012              Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:    AR - MD&A Part IV. B and Note 7

  Status: Complete                           The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: C             Section Name: Components of Loans Receivable, Net - Current            No Data Flag: YES         Line Attributes: Dollars
                                            Year                                                                             Rounding Method: Millions                      Decimal: Zero
Line Status Line Description          NB      Federal Direct Student              Electric Loans     Rural Housing Service         Federal Family      Water and Environmental              Farm Loans
                                                             Loans                                                               Education Loan                        Loans
 1        I    Loans receivable,     Debit
               net - beginning of
               the year
 2        I    Loans disbursed       Debit
               (loans made)
 3        I    Loan collections      Debit
               (principal and
               interest
               repayments,
               penalties and fines
               related to loans)
 4        I                          Debit
 5        I                          Debit
 6        I                          Debit
 7        I                          Debit
 8        I    Interest accrued on   Debit
               loans
 9        I    Foreclosed            Debit
               property acquired
10        I    Allowance for loss    Debit
               (loans, interest,
               and foreclosed
               property)
11        I    Allowance for         Debit
               subsidy
12        I                          Debit
13        I                          Debit
14        I                          Debit
15        I                          Debit
16        I    Loans receivable,     Debit
               net - end of the
               year




                                                                                                       - 11 -
                                                                                                                                                                                      11/16/2012 14:40:35

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 04A          Direct Loans Receivable and Mortgage Backed Securities                                                     Fiscal Year: 2012             Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:    AR - MD&A Part IV. B and Note 7

  Status: Complete                           The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: C             Section Name: Components of Loans Receivable, Net - Current            No Data Flag: YES          Line Attributes: Dollars
                                            Year                                                                              Rounding Method: Millions                      Decimal: Zero
Line Status Line Description         NB         Export-Import Bank                U.S. Agency for         Housing and Urban    Telecommunications        GSE Mortgage Backed All other loans receivable
                                                           Loans                     International           Development                    Loans          Securities Purchase
                                                                                  Development                                                                        Program
 1        I    Loans receivable,     Debit
               net - beginning of
               the year
 2        I    Loans disbursed       Debit
               (loans made)
 3        I    Loan collections      Debit
               (principal and
               interest
               repayments,
               penalties and fines
               related to loans)
 4        I                          Debit
 5        I                          Debit
 6        I                          Debit
 7        I                          Debit
 8        I    Interest accrued on   Debit
               loans
 9        I    Foreclosed            Debit
               property acquired
10        I    Allowance for loss    Debit
               (loans, interest,
               and foreclosed
               property)
11        I    Allowance for         Debit
               subsidy
12        I                          Debit
13        I                          Debit
14        I                          Debit
15        I                          Debit
16        I    Loans receivable,     Debit
               net - end of the
               year




                                                                                                       - 12 -
                                                                                                                                                                                      11/16/2012 14:40:35

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 04A          Direct Loans Receivable and Mortgage Backed Securities                                                     Fiscal Year: 2012              Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:    AR - MD&A Part IV. B and Note 7

  Status: Complete                           The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: D            Section Name: Components of Loans Receivable, Net - Prior Year          No Data Flag: YES         Line Attributes: Dollars
                                                                                                                             Rounding Method: Millions                      Decimal: Zero
Line Status Line Description          NB      Federal Direct Student              Electric Loans     Rural Housing Service         Federal Family      Water and Environmental              Farm Loans
                                                             Loans                                                               Education Loan                        Loans
 1        I    Loans receivable,     Debit
               net - beginning of
               the year
 2        I    Loans disbursed       Debit
               (loans made)
 3        I    Loan collections      Debit
               (principal and
               interest
               repayments,
               penaltiesand fines
               related to loans)
 4        I                          Debit
 5        I                          Debit
 6        I                          Debit
 7        I                          Debit
 8        I    Interest accrued on   Debit
               loans
 9        I    Foreclosed            Debit
               property acquired
10        I    Allowance for loss    Debit
               (loans, interest,
               and foreclosed
               property)
11        I    Allowance for         Debit
               subsidy
12        I                          Debit
13        I                          Debit
14        I                          Debit
15        I                          Debit
16        I    Loans receivable,     Debit
               net - end of the
               year




                                                                                                       - 13 -
                                                                                                                                                                                      11/16/2012 14:40:35

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 04A          Direct Loans Receivable and Mortgage Backed Securities                                                     Fiscal Year: 2012             Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:    AR - MD&A Part IV. B and Note 7

  Status: Complete                           The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: D            Section Name: Components of Loans Receivable, Net - Prior Year          No Data Flag: YES          Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                      Decimal: Zero
Line Status Line Description         NB         Export-Import Bank                U.S. Agency for         Housing and Urban    Telecommunications        GSE Mortgage Backed All other loans receivable
                                                           Loans                     International           Development                    Loans          Securities Purchase
                                                                                  Development                                                                        Program
 1        I    Loans receivable,     Debit
               net - beginning of
               the year
 2        I    Loans disbursed       Debit
               (loans made)
 3        I    Loan collections      Debit
               (principal and
               interest
               repayments,
               penaltiesand fines
               related to loans)
 4        I                          Debit
 5        I                          Debit
 6        I                          Debit
 7        I                          Debit
 8        I    Interest accrued on   Debit
               loans
 9        I    Foreclosed            Debit
               property acquired
10        I    Allowance for loss    Debit
               (loans, interest,
               and foreclosed
               property)
11        I    Allowance for         Debit
               subsidy
12        I                          Debit
13        I                          Debit
14        I                          Debit
15        I                          Debit
16        I    Loans receivable,     Debit
               net - end of the
               year




                                                                                                       - 14 -
                                                                                                                                                                                             11/16/2012 14:40:35

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

   Note: 04A        Direct Loans Receivable and Mortgage Backed Securities                                                          Fiscal Year: 2012                 Period: SEPTEMBER
  Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                           Agency Notes:       AR - MD&A Part IV. B and Note 7

 Status: Complete                       The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Text Data
Line             Question                                                                                         Answer
1                Provide a broad description of foreclosed property.                                              1). N/A
2                Provide any other relevant information pertaining to this note. At a minimum, describe briefly   2). PBGC provides financial assistance to multiemployer defined benefit pension plans
                 the significant accounting policies pertaining to this note.                                     in the form of loans. Since these loans are not generally repaid, an allowance is set up
                                                                                                                  to the extent that repayment of these loans is not expected.




                                                                                                        - 15 -
                                                                                                                                                                                 11/16/2012 14:40:35

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

      Note: 04B         Loan Guarantees                                                                                          Fiscal Year: 2012               Period: SEPTEMBER
   Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                     Agency Notes:      N/A

  Status: Complete                        The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                        NB    Account     2012 - SEPTEMBER       2011 - SEPTEMBER
                                                                                Type
Loan Guarantee Liabilities                                               C        L                          0                  0
                                                                             Variance:                       0                  0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description         2012 - SEPTEMBER             2011 - SEPTEMBER                Previously Rptd        Line Item Changes
 13
 14
 15
 16
 17
 18          All other loan
             guarantee liabilities
             Total




                                                                                                    - 16 -
                                                                                                                                                                                      11/16/2012 14:40:35

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 04B         Loan Guarantees                                                                                                  Fiscal Year: 2012          Period: SEPTEMBER
  Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                             Agency Notes:    N/A

  Status: Complete                        The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Other Notes Info.

      Section: A            Section Name: Other Related Information                                     No Data Flag: YES           Line Attributes: Dollars
                                                                                                                                  Rounding Method: Millions                  Decimal: Zero
Line Status Line Description        NB          CY Face Value of           CY Amount Guaranteed         CY Subsidy Expense D     PY Face Value of Loans PY Amount Guaranteed by   PY Subsidy Expense D
                                            Loans Outstanding D             by the Government D                                         Outstanding D        the Government D
13                                  N/A
14                                  N/A
15                                  N/A
16                                  N/A
17                                  N/A
18          All other loans         N/A
            guarantee liabilities
19          Total:                  N/A
Tab: Text Data                        No Data Flag: YES
 Line              Question                                                                                             Answer
 1                 Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                   the significant accounting policies pertaining to this note.




                                                                                                           - 17 -
                                                                                                                                                                                11/16/2012 14:40:35

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

     Note: 05          Inventories and Related Property                                                                         Fiscal Year: 2012               Period: SEPTEMBER
   Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                     Agency Notes:      N/A

  Status: Complete                       The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                       NB    Account     2012 - SEPTEMBER       2011 - SEPTEMBER
                                                                               Type
Inventory and Related Property                                          D        A                          0                  0
                                                                            Variance:                       0                  0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description          2012 - SEPTEMBER           2011 - SEPTEMBER                Previously Rptd        Line Item Changes
 1          Gross Inventory -
            balance beginning of
            year
 2          Prior-period
            adjustment (not
            restated)
 3          Capitalized
            acquisitions from the
            public
 4          Capitalized
            acquisitions from
            Government agencies
 5          Inventory sold or used
 6          Total allowance for
            inventories and related
            property
            Total




                                                                                                   - 18 -
                                                                                                                                                                               11/16/2012 14:40:35

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 05             Inventories and Related Property                                                                             Fiscal Year: 2012      Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:    N/A

  Status: Complete                               The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Other Notes Info.

       Section: A               Section Name: Inventory Yearend Balances by Category Type                No Data Flag: YES         Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions             Decimal: Zero
Line Status Line Description             NB        2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Inventory               Debit
                purchased for sale
 2              Inventory held in       Debit
                reserve for future
                sale to the public
 3              Inventory and           Debit
                operating materials
                and supplies held
                for repair
 4              Inventory - excess,     Debit
                obsolete, and
                unserviceable
 5              Operating materials     Debit
                and supplies held
                for use
 6              Operating materials     Debit
                and supplies held
                in reserve for future
                use
 7              Operating materials     Debit
                and supplies
                excess, obsolete,
                and unserviceable
 8              Stockpile materials     Debit
 9              Stockpile materials     Debit
                held for sale
10              Forfeited property      Debit
11              Other related           Debit
                property
12              Total allowance for     Credit
                inventories and
                related property
13              Total inventories        N/A
                and related
                property, net




                                                                                                           - 19 -
                                                                                                                                                                               11/16/2012 14:40:35

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 05            Inventories and Related Property                                                                          Fiscal Year: 2012         Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:    N/A

  Status: Complete                           The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: B              Section Name: Capitalized Acquitions From Government Agencies         No Data Flag: YES         Line Attributes: Dollars
                                             by Trading Patrner                                                              Rounding Method: Millions                Decimal: Zero
Line Status Line Description          NB       2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              General Services     Debit
                Administration
 2              Department of        Debit
                Defense
 3              Department of        Debit
                Justice
 4              National             Debit
                Aeronautics and
                Space
                Administration
 5              All other            Debit
                departments
 6              Total Capitalized     N/A
                Assets from
                Federal Agencies
       Section: C              Section Name: Other Information - Dollar Value                        No Data Flag: YES         Line Attributes: Dollars
                                                                                                                             Rounding Method: User-Defined            Decimal: User-Defined
Line Status Line Description          NB       2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Seized property      Debit
 2              Forfeited property   Debit
 3              Goods held under     Debit
                price support and
                stabilization
                programs




                                                                                                       - 20 -
                                                                                                                                                                               11/16/2012 14:40:35

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 05            Inventories and Related Property                                                                               Fiscal Year: 2012      Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:    N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.               I = Inactive Line


       Section: D              Section Name: Other Information - Number of Items/Volume                  No Data Flag: YES          Line Attributes: Units


Line Status Line Description          NB      2012 - SEPTEMBER                2011 - SEPTEMBER                   Previously Rptd    Line Item Changes
 1              Seized property      N/A
 2              Forfeited property   N/A
 3              Goods held under     N/A
                price support and
                stabilization
                programs



Tab: Text Data                          No Data Flag: YES
 Line                Question                                                                                              Answer
 1                   Method used to calculate allowance for each category of inventory.
 2                   Significant accounting principles and methods of applying those principles.
 3                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                     the significant accounting policies pertaining to this note.




                                                                                                            - 21 -
                                                                                                                                                                                         11/16/2012 14:40:35

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

     Note: 06          Property, Plant, and Equipment                                                                            Fiscal Year: 2012                 Period: SEPTEMBER
   Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:        AR - Note 2 Depreciation and Amortization

  Status: Complete                       The accompanying notes are an integral part of these financial statements.           I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                       NB    Account     2012 - SEPTEMBER        2011 - SEPTEMBER
                                                                               Type
Property, Plant and Equipment                                           D        A                          42                 33
                                                                            Variance:                        0                  0             Rounding Method: Millions             Decimal: Zero
Line Status Line Description                     CY PP&E            CY Accum. Depr.                CY Net PP& E                     PY PP&E             PY Accum. Depr.                   PY Net PP&E
 1          PP&E - balance                                 110                          77                             33                       97                           65                          32
            beginning of year
 2          Prior-period
            adjustments (not
            restated)
 3          Capitalized                                     20                                                         20                       13                                                       13
            acquisitions from the
            public
 4          Capitalized
            acquisitions from
            Government agencies
 5          Deletions from the
            Balance Sheet
 6          Revaluations
 7          Stewardship
            reclassifications
 8          Depreciation/amortizati                                                     11                            -11                                                    12                         -12
            on
            Total                                           130                          88                            42                       110                          77                          33




                                                                                                   - 22 -
                                                                                                                                                                                                  11/16/2012 14:40:35

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 06              Property, Plant, and Equipment                                                                                Fiscal Year: 2012                 Period: SEPTEMBER
     Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:        AR - Note 2 Depreciation and Amortization

  Status: Complete                              The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Other Notes Info.

       Section: A                Section Name: Cost of PP&E for each category                                                        Line Attributes: Dollars
                                                                                                                                   Rounding Method: Millions                            Decimal: Zero
Line Status Line Description             NB       2012 - SEPTEMBER             2011 - SEPTEMBER                  Previously Rptd    Line Item Changes
 1              Buildings,              Debit
                structures, and
                facilities (including
                improvement to
                land)
 2              Furniture, fixtures,    Debit                          23                          20                         20                          0
                and equipmen
                (including
                aircraf,ships,
                vessels, small
                boats, and
                vehicles)
 3              Construction in         Debit
                progress
 4              Land and Land           Debit
                Rights
 5              Internal use            Debit                         107                          90                         90                          0
                software
 6              Assets under            Debit
                capital lease
 7              Leasehold               Debit
                improvements
 8              Other property,         Debit
                plant and
                equipment
 9              Total property,         N/A                           130                         110                        110                          0
                plant and
                equipment
Threshold
 Line Description                                                   Question                                                          Answer
 Other Notes Info - Furniture, fixtures, and equipmen               Please provide explanations for any amounts that have             This change is attributable to an increase in the purchase of capitalizable
 (including aircraf,ships, vessels, small boats, and vehicles)      changed by 10% or more and or greater than 500,000                equipment during the fiscal year.
 (2012 - SEPTEMBER)                                                 between the current fiscal year and prior fiscal year.
                                                                    (Unaudited)
 Other Notes Info - Internal use software (2012 -                   Please provide explanations for any amounts that have             This change is attributable to an increase in the development of internal use
 SEPTEMBER)                                                         changed by 10% or more and or greater than 500,000                software placed into production during the fiscal year.
                                                                    between the current fiscal year and prior fiscal year.
                                                                    (Unaudited)



                                                                                                             - 23 -
                                                                                                                                                                                                  11/16/2012 14:40:35

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 06             Property, Plant, and Equipment                                                                                  Fiscal Year: 2012                 Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:        AR - Note 2 Depreciation and Amortization

  Status: Complete                               The accompanying notes are an integral part of these financial statements.            I = Inactive Line


       Section: B               Section Name: Accumulated Depreciation/Amortization                                                   Line Attributes: Dollars
                                                                                                                                    Rounding Method: Millions                           Decimal: Zero
Line Status Line Description             NB        2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd       Line Item Changes
 1              Buildings,              Credit
                structures, and
                facilities (including
                improvements to
                land)
 2              Furniture, fixtures,    Credit                          18                         16                          16                          0
                and equipment
                (including aircraft,
                ships, vessels,
                small boats, and
                vehicles)
 3              Internal use            Credit                          70                         61                          61                          0
                software
 4              Assets under            Credit
                capital lease
 5              Leasehold               Credit
                improvements
 6              Other property,         Credit
                plant, and
                equipment
 7              Total accumulated        N/A                           -88                        -77                         -77                          0
                depreciation/amorti
                zation
       Section: C               Section Name: Intragovernmental Capitalized acquisition amounts          No Data Flag: YES            Line Attributes: Dollars
                                                                                                                                    Rounding Method: Millions                           Decimal: Zero
Line Status Line Description             NB        2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd       Line Item Changes
 1              General Services        Debit
                Administration
 2              Department of           Debit
                Defense
 3              Department of the       Debit
                Interior
 4              Department of           Debit
                Justice
 5              National                Debit
                Aeronautics and
                Space
                Administration



                                                                                                           - 24 -
                                                                                                                                                                                                    11/16/2012 14:40:35

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 06            Property, Plant, and Equipment                                                                                    Fiscal Year: 2012                 Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                             Agency Notes:       AR - Note 2 Depreciation and Amortization

  Status: Complete                             The accompanying notes are an integral part of these financial statements.               I = Inactive Line


       Section: C              Section Name: Intragovernmental Capitalized acquisition amounts          No Data Flag: YES             Line Attributes: Dollars
                                                                                                                                    Rounding Method: Millions                             Decimal: Zero
Line Status Line Description           NB        2012 - SEPTEMBER             2011 - SEPTEMBER                 Previously Rptd         Line Item Changes
 6              All other             Debit
                departments
 7              Total capitalized      N/A
                assets from
                Federal agencies




       Section: D              Section Name: Gain/Loss on Sale/Disposition                              No Data Flag: YES             Line Attributes: Dollars
                                                                                                                                    Rounding Method: User-Defined                         Decimal: User-Defined
Line Status Line Description           NB        2012 - SEPTEMBER             2011 - SEPTEMBER                 Previously Rptd         Line Item Changes
 1              Gain/loss on          Credit
                sale/disposition of
                property, plant and
                equipment




Tab: Text Data
 Line                Question                                                                                            Answer
 1                   Provide the physical quantity information by category for multiuse heritage assets that are         1). N/A
                     included in the "Line Item Notes" tab of this note (SFFAS No. 29, par 25).
 2                   Provide any other relevant information pertaining to this note and any material changes from        2). PBGC calculates depreciation on the straight-line basis over estimated useful lives
                     the prior years' depreciation methods and capitalization thresholds. In addition, describe          of 5 years for equipment and 10 years for furniture and fixtures. PBGC calculates
                     briefly the significant accounting policies pertaining to this note.                                amortization for capitalized software, which includes certain costs incurred for
                                                                                                                         purchasing and developing software for internal use, on the straight-line basis over
                                                                                                                         estimated useful lives not to exceed 5 years, commencing on the date that the
                                                                                                                         Corporation determines that the internal-use software is implemented. Routine
                                                                                                                         maintenance and leasehold improvements (the amounts of which are not material) are
                                                                                                                         charged to operations as incurred. Capitalization of software cost occurs during the
                                                                                                                         development stage and costs incurred during the preliminary project and post-
                                                                                                                         implementation stages are expensed as incurred.




                                                                                                           - 25 -
                                                                                                                                                                                             11/16/2012 14:40:35

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                   Fiscal Year: 2012                 Period: SEPTEMBER
   Entity: 1602           PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:        AR - MD&A Section VII & Note 3

  Status: Complete                          The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                          NB    Account     2012 - SEPTEMBER       2011 - SEPTEMBER
                                                                                  Type
Debt and Equity Securities                                                 D        A                    52,812                   47,359
                                                                               Variance:                      0                        0           Rounding Method: Millions             Decimal: Zero
Line Status Line Description              2012 - SEPTEMBER           2011 - SEPTEMBER               Previously Rptd            Line Item Changes
 1              Fixed/Debt Securities                        9,123                      5,142                       5,142                               0
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): Non-U.S.
                Government Securities
 2              Fixed/Debt Securities                         442                            5                             5                            0
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): Commercial
                Securities
 3              Fixed/Debt Securities                        3,508                      5,151                       5,151                               0
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): Mortgage/asset
                backed Securities
 4              Fixed/Debt Securities                      10,872                      11,690                      11,690                               0
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9):Corporate and other
                bonds
 5              All other Fixed                               600                          476                           476                            0
                Income/Debt Securities
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9) All:Other fixed/debt
                securities
 6              Equity Securities                            2,327                      1,654                       1,654                               0
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): Common Stocks
 7              Equity Securities                          19,532                      15,301                      15,301                               0
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): Unit Trusts
 8              Equity Securities                            2,099                      2,500                       2,500                               0
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): All Other Equity



                                                                                                      - 26 -
                                                                                                                                                                                             11/16/2012 14:40:35

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                 Fiscal Year: 2012                 Period: SEPTEMBER
   Entity: 1602           PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:        AR - MD&A Section VII & Note 3

  Status: Complete                          The accompanying notes are an integral part of these financial statements.            I = Inactive Line


Line Status Line Description             2012 - SEPTEMBER            2011 - SEPTEMBER               Previously Rptd          Line Item Changes
             Securities
 9           Other                                           4,309                      5,440                       5,440                             0
             Total                                          52,812                     47,359                      47,359                             0
Threshold

 Line Description                                               Question                                                           Answer
 Line Item Notes - Fixed/Debt Securities (FASB ASC 320-10-      Please provide explanations for any amounts that have             The Board adopted a new investment policy in May 2011. The investment
 50-1 and 320-10-50-9): Commercial Securities (2012 -           changed by 10% or more and or greater than 500,000 between        policy objective is to maximize total return within a prudent risk framework
 SEPTEMBER)                                                     the current fiscal year and prior fiscal year. (Unaudited)        that incorporates PBGC's fixed obligations and asset composition of
                                                                                                                                  potential trusteed plans. The investment policy establishes a 30 percent
                                                                                                                                  target asset allocation for equities and other non-fixed income assets, and a
                                                                                                                                  70 percent asset allocation for fixed income (prior to this change, the asset
                                                                                                                                  allocation was 26.5% for equities and 73.5%for fixed income per the
                                                                                                                                  interim/temporary investment policy for asset allocation that was established
                                                                                                                                  in 2009). Other changes are due to the increase in the purchase of
                                                                                                                                  commercial paper and the related market fluctuations during the fiscal year.
 Line Item Notes - Fixed/Debt Securities (FASB ASC 320-10-      Please provide explanations for any amounts that have             The Board adopted a new investment policy in May 2011. The investment
 50-1 and 320-10-50-9): Mortgage/asset backed Securities        changed by 10% or more and or greater than 500,000 between        policy objective is to maximize total return within a prudent risk framework
 (2012 - SEPTEMBER)                                             the current fiscal year and prior fiscal year. (Unaudited)        that incorporates PBGC's fixed obligations and asset composition of
                                                                                                                                  potential trusteed plans. The investment policy establishes a 30 percent
                                                                                                                                  target asset allocation for equities and other non-fixed income assets, and a
                                                                                                                                  70 percent asset allocation for fixed income (prior to this change, the asset
                                                                                                                                  allocation was 26.5% for equities and 73.5%for fixed income per the
                                                                                                                                  interim/temporary investment policy for asset allocation that was established
                                                                                                                                  in 2009). Other changes are due to the decrease in the purchase of
                                                                                                                                  mortgage backed securities and the related market fluctuations during the
                                                                                                                                  fiscal year.
 Line Item Notes - All other Fixed Income/Debt Securities       Please provide explanations for any amounts that have             The Board adopted a new investment policy in May 2011. The investment
 (FASB ASC 320-10-50-1 and 320-10-50-9) All:Other               changed by 10% or more and or greater than 500,000 between        policy objective is to maximize total return within a prudent risk framework
 fixed/debt securities (2012 - SEPTEMBER)                       the current fiscal year and prior fiscal year. (Unaudited)        that incorporates PBGC's fixed obligations and asset composition of
                                                                                                                                  potential trusteed plans. The investment policy establishes a 30 percent
                                                                                                                                  target asset allocation for equities and other non-fixed income assets, and a
                                                                                                                                  70 percent asset allocation for fixed income (prior to this change, the asset
                                                                                                                                  allocation was 26.5% for equities and 73.5%for fixed income per the
                                                                                                                                  interim/temporary investment policy for asset allocation that was established
                                                                                                                                  in 2009). Other changes are due to the increase in the purchase of pooled
                                                                                                                                  fund fixed investments and the related market fluctuations during the fiscal
                                                                                                                                  year.




                                                                                                      - 27 -
                                                                                                                                                                                    11/16/2012 14:40:35

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                                   GF006 - FR Notes Report

   Note: 07           Debt and Equity Securities                                                                            Fiscal Year: 2012                 Period: SEPTEMBER
  Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                  Agency Notes:      AR - MD&A Section VII & Note 3

 Status: Complete                       The accompanying notes are an integral part of these financial statements.       I = Inactive Line



Threshold

Line Description                                            Question                                                      Answer
Line Item Notes - Equity Securities (FASB ASC 320-10-50-    Please provide explanations for any amounts that have        The Board adopted a new investment policy in May 2011. The investment
1 and 320-10-50-9): Common Stocks (2012 -                   changed by 10% or more and or greater than 500,000 between   policy objective is to maximize total return within a prudent risk framework
SEPTEMBER)                                                  the current fiscal year and prior fiscal year. (Unaudited)   that incorporates PBGC's fixed obligations and asset composition of
                                                                                                                         potential trusteed plans. The investment policy establishes a 30 percent
                                                                                                                         target asset allocation for equities and other non-fixed income assets, and a
                                                                                                                         70 percent asset allocation for fixed income (prior to this change, the asset
                                                                                                                         allocation was 26.5% for equities and 73.5%for fixed income per the
                                                                                                                         interim/temporary investment policy for asset allocation that was established
                                                                                                                         in 2009). Other changes are due to the increase in the purchase of common
                                                                                                                         stock and the related market fluctuations during the fiscal year.
Line Item Notes - Equity Securities (FASB ASC 320-10-50-    Please provide explanations for any amounts that have        The Board adopted a new investment policy in May 2011. The investment
1 and 320-10-50-9): Unit Trusts (2012 - SEPTEMBER)          changed by 10% or more and or greater than 500,000 between   policy objective is to maximize total return within a prudent risk framework
                                                            the current fiscal year and prior fiscal year. (Unaudited)   that incorporates PBGC's fixed obligations and asset composition of
                                                                                                                         potential trusteed plans. The investment policy establishes a 30 percent
                                                                                                                         target asset allocation for equities and other non-fixed income assets, and a
                                                                                                                         70 percent asset allocation for fixed income (prior to this change, the asset
                                                                                                                         allocation was 26.5% for equities and 73.5%for fixed income per the
                                                                                                                         interim/temporary investment policy for asset allocation that was established
                                                                                                                         in 2009). Other changes are due to the increase in the purchase of pooled
                                                                                                                         fund equity investments and the related market fluctuations during the fiscal
                                                                                                                         year.
Line Item Notes - Equity Securities (FASB ASC 320-10-50-    Please provide explanations for any amounts that have        The Board adopted a new investment policy in May 2011. The investment
1 and 320-10-50-9): All Other Equity Securities (2012 -     changed by 10% or more and or greater than 500,000 between   policy objective is to maximize total return within a prudent risk framework
SEPTEMBER)                                                  the current fiscal year and prior fiscal year. (Unaudited)   that incorporates PBGC's fixed obligations and asset composition of
                                                                                                                         potential trusteed plans. The investment policy establishes a 30 percent
                                                                                                                         target asset allocation for equities and other non-fixed income assets, and a
                                                                                                                         70 percent asset allocation for fixed income (prior to this change, the asset
                                                                                                                         allocation was 26.5% for equities and 73.5%for fixed income per the
                                                                                                                         interim/temporary investment policy for asset allocation that was established
                                                                                                                         in 2009). Other changes are due to the decrease primarily in the purchases
                                                                                                                         of private equity and foreign equity investments and the related market
                                                                                                                         fluctuations during the fiscal year.




                                                                                                  - 28 -
                                                                                                                                                                                       11/16/2012 14:40:35

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                Fiscal Year: 2012             Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:    AR - MD&A Section VII & Note 3

  Status: Complete                            The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Other Notes Info.

       Section: A               Section Name: Investment Category - Held-to-Maturity Securities       No Data Flag: YES         Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                      Decimal: Zero
Line Status Line Description            NB       CY Basis (Costs) D              CY Unamortized           CY Net Investment     PY Basis (Costs) D             PY Unamortized         PY Net Investment
                                                                             Premium/Discount D                                                            Premium/Discount D
 1              Fixed/Debt              N/A
                Securities: Non-
                U.S. Government
                securities
 2              Fixed/Debt              N/A
                Securities: Non-
                U.S. Commercial
                securities
 3              Fixed/Debt              N/A
                Securities:
                Mortgage/asset
                backed securities
 4              Fixed/Debt              N/A
                Securities:
                Corporate and
                other bonds
 5              Fixed/Debt              N/A
                Securities: All other
                fixed income/debt
                securiteis
 6              Equity Securities:      N/A
                Common stocks
 7              Equity Securities:      N/A
                Unit trusts
 8              Equity Securities:      N/A
                All Other equity
                securities
 9              Other                   N/A
10              Total Held-to-          N/A
                Maturity Securities




                                                                                                        - 29 -
                                                                                                                                                                                      11/16/2012 14:40:35

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                Fiscal Year: 2012             Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:    AR - MD&A Section VII & Note 3

  Status: Complete                            The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: B               Section Name: Investment Category - Available-for-Sale Securities     No Data Flag: YES         Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                      Decimal: Zero
Line Status Line Description            NB       CY Basis (Costs) D       CY Unrealized Gain/Loss           CY Market Value     PY Basis (Costs) D      PY Unrealized Gain/Loss       PY Market Value
                                                                                               D                                                                             D
 1              Fixed/Debt              N/A
                Securities: Non-US
                Government
                securities
 2              Fixed/Debt              N/A
                Securities:
                Commercial
                securities
 3              Fixed/Debt              N/A
                Securities:
                Mortgage/asset
                backed securities
 4              Fixed/Debt              N/A
                Securities:
                Corporate and
                other bonds
 5              Fixed/Debt              N/A
                Securities: All other
                fixed income/debt
                secruties
 6              Equity Securities:      N/A
                Common stocks
 7              Equity Securities:      N/A
                Unit trusts
 8              Equity Securities:      N/A
                All other equity
                securities
 9              Other                   N/A
10              Total Available-        N/A
                for-Sale Securities




                                                                                                        - 30 -
                                                                                                                                                                                                 11/16/2012 14:40:35

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                     Fiscal Year: 2012                   Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                           Agency Notes:          AR - MD&A Section VII & Note 3

  Status: Complete                            The accompanying notes are an integral part of these financial statements.              I = Inactive Line


       Section: C               Section Name: Investment Category - Trading Securities                                               Line Attributes: Dollars
                                                                                                                                   Rounding Method: Millions                            Decimal: Zero
Line Status Line Description            NB       CY Basis (Costs) D       CY Unrealized Gain/Loss           CY Market Value          PY Basis (Costs) D           PY Unrealized Gain/Loss        PY Market Value
                                                                                               D                                                                                       D
 1              Fixed/Debt              N/A                       8,440                        683                         9,123                     5,089                             53                     5,142
                Securities: Non-US
                Government
                securities
 2              Fixed/Debt              N/A                         442                                                     442                             5                                                      5
                Securities:
                Commercial
                securities
 3              Fixed/Debt              N/A                       3,349                        159                         3,508                     5,088                             63                     5,151
                Securities:
                Mortgage/asset
                backed securities
 4              Fixed/Debt              N/A                       9,601                      1,271                     10,872                       10,936                            754                    11,690
                Securities:
                Corporate and
                other bonds
 5              Fixed/Debt              N/A                         640                        -40                          600                           459                          17                       476
                Securities: All other
                fixed income/debt
                securities
 6              Equity Securities:      N/A                       1,956                        371                         2,327                     1,651                              3                     1,654
                Common stocks
 7              Equity Securities:      N/A                      13,934                      5,598                     19,532                       11,753                          3,548                    15,301
                Unit trusts
 8              Equity Securities:      N/A                       2,063                         36                         2,099                     2,546                            -46                     2,500
                All other equity
                securities
 9              Other                   N/A                       4,250                         59                         4,309                     5,352                             88                     5,440
10              Total Trading           N/A                      44,675                      8,137                     52,812                       42,879                          4,480                    47,359
                Securities




                                                                                                        - 31 -
                                                                                                                                                                                       11/16/2012 14:40:35

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                 Fiscal Year: 2012             Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:    AR - MD&A Section VII & Note 3

  Status: Complete                             The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: D              Section Name: Other Information                                                                   Line Attributes: Dollars
                                                                                                                               Rounding Method: Millions                      Decimal: Zero
Line Status Line Description           NB        2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd      Line Item Change
 1              Proceeds from         Debit
                sales of available-
                for-sale securities
                (FASB ASC 320-
                10-50-9)
 2              Gross realized        Debit
                gains (included in
                earnings) from
                sales of available-
                for-sale securities
                (FASB ASC 320-
                10-50-9)
 3              Gross realized        Credit
                losses (included in
                earnings) from
                sales of available-
                for-sale securities
                (FASB ASC 320-
                10-50-9)
 4              Gross gains           Debit
                included in
                earnings from s
                from transfers of
                securities from
                available-for-sale
                into trading
 5              Gross losses          Credit
                included in
                earnings from s
                from transfers of
                securities from
                available-for-sale
                into trading
 6              Net unrealized        Debit
                holding gain on
                available-for-sale
                securities included
                in accumulated
                other
                comprehensive
                income



                                                                                                         - 32 -
                                                                                                                                                                                              11/16/2012 14:40:35

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                        Fiscal Year: 2012             Period: SEPTEMBER
     Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                             Agency Notes:    AR - MD&A Section VII & Note 3

  Status: Complete                               The accompanying notes are an integral part of these financial statements.              I = Inactive Line


       Section: D               Section Name: Other Information                                                                         Line Attributes: Dollars
                                                                                                                                      Rounding Method: Millions                      Decimal: Zero
Line Status Line Description             NB        2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd           Line Item Change
 7              Net unrealized          Credit
                holding loss on
                available-for-sale
                securities included
                in accumulated
                other
                comprehensive
                income
 8              Amount of               Debit
                gains/losses
                reclassified out of
                accumulated other
                comprehensive
                income into
                earnings for the
                period
 9              Portion of trading      Debit                        3,780                      3,467                         3,467
                gains/losses that
                relates to trading
                securities still held
                at the reporting
                date
10              Net carrying            Debit
                amount of
                sold/transferred
                held-to-maturity
                securities (FASB
                ASC 320-10-50-
                10)
11              Net gain/loss in        Debit
                accum. other
                comp. income for
                any derivative that
                hedged the
                forecasted
                acquisition of HTM
                security




                                                                                                           - 33 -
                                                                                                                                                                                                  11/16/2012 14:40:35

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 07          Debt and Equity Securities                                                                                       Fiscal Year: 2012                   Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                             Agency Notes:       AR - MD&A Section VII & Note 3

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Text Data
Line               Question                                                                                          Answer
1                  Provide a description of the amounts reported on the "Line Item Notes" tab for lines 5, 8 and     1). The majority of the amount in line 5 consists of $408 million in pooled funds-fixed
                   9.                                                                                                income and $114 million in bank loans.
                                                                                                                     The majority of the amount in line 8 consists of $1,339 million in private equity and $670
                                                                                                                     million in foreign investments-equity.
                                                                                                                     The majority of the amount in line 9 consists of $3,425 million in security lending
                                                                                                                     collateral and $502 million in pooled funds-real estate.
2                  Provide a description of the amounts reported on the "Other Notes Infor" tab for lines 5, 8       1). The majority of the amount in line 5 consists of $450 million (cost) in pooled funds-
                   and 9 in Sections A through C.                                                                    fixed income and $112 million (cost) in bank loans.
                                                                                                                     The majority of the amount in line 8 consists of $1,398 million (cost) in private equity
                                                                                                                     and $575 million (cost) in foreign investments-equity.
                                                                                                                     The majority of the amount in line 9 consists of $3,425 million (cost) in security lending
                                                                                                                     collateral and $435 million (cost) in pooled funds-real estate.
3                  Provide the basis on which the cost of a security sold or the amount reclassified out of          3). N/A
                   accumulated other comprehensive income into earnings was determined (FASB ASC 320-
                   10-50-9).
4                  Provide the circumstances leading to the decision to sell or transfer the security for held-to-   4). N/A
                   maturity securities (FASB ASC 320-10-50-10).
5                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly    5). In accordance with FASB Accounting Standards Codifications Sections 815, 820,
                   the significant accounting policies pertaining to this note.                                      and 960, assets, whether equity or debt securities, real estate, or other investments, are
                                                                                                                     presented at their fair value at the financial statement date. The fair value of an
                                                                                                                     investment is the amount that PBGC could reasonably expect to receive for it in a
                                                                                                                     current sale between a willing buyer and a willing seller that is other than in a forced or
                                                                                                                     liquidated sale.




                                                                                                           - 34 -
                                                                                                                                                                                              11/16/2012 14:40:35

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 08            Other Assets                                                                                                         Fiscal Year: 2012               Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                                 Agency Notes:      N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                     I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                               NB    Account      2012 - SEPTEMBER          2011 - SEPTEMBER
                                                                                       Type
Other Assets                                                                   D         A                              0                    0
                                                                                    Variance:                           0                    0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description             2012 - SEPTEMBER               2011 - SEPTEMBER                   Previously Rptd            Line Item Changes
 1             Advances and
               prepayments
 4             Regulatory Assets
 5             Other assets
               Total

Tab: Text Data                          No Data Flag: YES
 Line                Question                                                                                                Answer
 1                   Provide a description of advances and prepayments on the "Line Item Notes" tab for line 1.
 2                   Provide a description and related amounts for balances that exceed $1 billion in the line titled
                     "Other Assets" on the "Line Item Notes" tab.
 3                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                     the significant accounting policies pertaining to this note.




                                                                                                              - 35 -
                                                                                                                                                                                            11/16/2012 14:40:35

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 09          Accounts Payable                                                                                             Fiscal Year: 2012                  Period: SEPTEMBER
   Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:        AR - Note 8

  Status: Complete                        The accompanying notes are an integral part of these financial statements.             I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                        NB    Account     2012 - SEPTEMBER        2011 - SEPTEMBER
                                                                                Type
Accounts Payable                                                         C        L                          67                   58
                                                                             Variance:                        0                    0            Rounding Method: Millions              Decimal: Zero
Line Status Line Description         2012 - SEPTEMBER             2011 - SEPTEMBER                Previously Rptd           Line Item Changes
 1          Accounts Payable                                 67                          58                            58                            0
            Total                                            67                          58                            58                            0
Threshold

 Line Description                                             Question                                                           Answer
 Line Item Notes - Accounts Payable (2012 - SEPTEMBER)        Please provide explanations for any amounts that have              The change is primarily due to a $4 million increase in accounts payable
                                                              changed by 10% or more and or greater than 500,000 between         (i.e., year-over-year decrease in vendor payments), a $3 million increase in
                                                              the current fiscal year and prior fiscal year. (Unaudited)         accounts payable-non benefit payments, and a $1 million increase in
                                                                                                                                 accrued expenses.




                                                                                                    - 36 -
                                                                                                                                                                                                        11/16/2012 14:40:35

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 09            Accounts Payable                                                                                                    Fiscal Year: 2012                  Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                                Agency Notes:       AR - Note 8

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                   I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Interest                                                      No Data Flag: YES             Line Attributes: Dollars
                                                                                                                                      Rounding Method: Millions                              Decimal: Zero
Line Status Line Description          NB        2012 - SEPTEMBER             2011 - SEPTEMBER C                 Previously Rptd C     Line Item Changes D
                                                               C
 1              Interest accrued      N/A
                and owed to others




Tab: Text Data
 Line                Question                                                                                             Answer
 1                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly       1). The liability to be recorded shall reflect the amount of the invoice received but not
                     the significant accounting policies pertaining to this note.                                         paid. An accrued expense shall be recorded when goods or services have been
                                                                                                                          received and an account payable has not been established.




                                                                                                             - 37 -
                                                                                                                                                                                               11/16/2012 14:40:35

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 10B          Treasury securities held by the Government trust, revolving, and special funds                                     Fiscal Year: 2012                 Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                               Agency Notes:       AR - Note 3

  Status: Complete                         The accompanying notes are an integral part of these financial statements.                   I = Inactive Line

Tab: Other Notes Info.

       Section: A            Section Name: Investments in Federal Debt securities                                                      Line Attributes: Dollars
                                                                                                                                     Rounding Method: Millions                        Decimal: Zero
Line Status Line Description         NB        CY Par value of the                 CY Unamortized CY Unamortized premium               CY Net Investment              PY Par Value of the PY Unamortized discount
                                                   investment D                       Discount C                       D                                                  investment D                         C
17             Pension Benefit      N/A                        21,703                           256                          1,510                    22,957                     21,703                       900
               Guaranty
               Corporation Fund
23                                  N/A
24                                  N/A
25                                  N/A
26             All other programs   N/A
               and funds
27             Total                N/A                        21,703                          -256                          1,510                    22,957                     21,703                     -900

Line Status Line Description         NB            PY Unamortized             PY Net Investment
                                                      premium D
17             Pension Benefit       N/A                         1,707                       22,510
               Guaranty
               Corporation Fund
23                                   N/A
24                                   N/A
25                                   N/A
26             All other programs    N/A
               and funds
27             Total                 N/A                         1,707                       22,510
       Section: B            Section Name: Fiduciary Funds - Tresury Securities Held by Deposit          No Data Flag: YES             Line Attributes: Dollars
                                           Funds (or Held by Non-Federal Custodians) with                                            Rounding Method: Millions                        Decimal: Zero
                                           Fiduciary Activity
Line Status Line Description         NB        CY Par value of the       CY Unamortized discount CY Unamortized premium                CY Net Investment             PY Par value of the PY Unamortized discount
                                                   investment D                               C                       D                                                  investment D                         C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A



                                                                                                           - 38 -
                                                                                                                                                                                  11/16/2012 14:40:35

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 10B         Treasury securities held by the Government trust, revolving, and special funds                             Fiscal Year: 2012              Period: SEPTEMBER
     Entity: 1602      PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:    AR - Note 3

  Status: Complete                        The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: B           Section Name: Fiduciary Funds - Tresury Securities Held by Deposit          No Data Flag: YES     Line Attributes: Dollars
                                          Funds (or Held by Non-Federal Custodians) with                                    Rounding Method: Millions                     Decimal: Zero
                                          Fiduciary Activity
Line Status Line Description        NB        CY Par value of the       CY Unamortized discount CY Unamortized premium        CY Net Investment          PY Par value of the PY Unamortized discount
                                                  investment D                               C                       D                                       investment D                         C
 8                                 N/A
 9                                 N/A
10                                 N/A
11                                 N/A
12                                 N/A
13                                 N/A
14                                 N/A
15                                 N/A
16             Total               N/A

Line Status Line Description        NB            PY Unamortized             PY Net Investment
                                                     premium D
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11                                  N/A
12                                  N/A
13                                  N/A
14                                  N/A
15                                  N/A
16             Total                N/A




                                                                                                          - 39 -
                                                                                                                                                                                  11/16/2012 14:40:35

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 10B         Treasury securities held by the Government trust, revolving, and special funds                             Fiscal Year: 2012              Period: SEPTEMBER
     Entity: 1602      PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:    AR - Note 3

  Status: Complete                        The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: C           Section Name: Fiducuiary Funds-Treasury Securities Held by All              No Data Flag: YES     Line Attributes: Dollars
                                          Other Agency Funds with Fiduciary Activity                                        Rounding Method: Millions                     Decimal: Zero
Line Status Line Description        NB        CY Par value of the       CY Unamortized discount CY Unamortized premium        CY Net Investment          PY Par value of the PY Unamortized discount
                                                  investment D                               C                       D                                       investment D                         C
 1                                 N/A
 2                                 N/A
 3                                 N/A
 4                                 N/A
 5                                 N/A
 6                                 N/A
 7                                 N/A
 8                                 N/A
 9                                 N/A
10                                 N/A
11                                 N/A
12                                 N/A
13                                 N/A
14                                 N/A
15                                 N/A
16             Total               N/A




                                                                                                          - 40 -
                                                                                                                                                                                                         11/16/2012 14:40:35

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

   Note: 10B           Treasury securities held by the Government trust, revolving, and special funds                                       Fiscal Year: 2012                    Period: SEPTEMBER
  Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                                Agency Notes:        AR - Note 3

  Status: Complete                         The accompanying notes are an integral part of these financial statements.                    I = Inactive Line


    Section: C               Section Name: Fiducuiary Funds-Treasury Securities Held by All              No Data Flag: YES             Line Attributes: Dollars
                                           Other Agency Funds with Fiduciary Activity                                                Rounding Method: Millions                                Decimal: Zero
Line Status Line Description         NB            PY Unamortized              PY Net Investment
                                                      premium C
 1                                   N/A
 2                                   N/A
 3                                   N/A
 4                                   N/A
 5                                   N/A
 6                                   N/A
 7                                   N/A
 8                                   N/A
 9                                   N/A
10                                   N/A
11                                   N/A
12                                   N/A
13                                   N/A
14                                   N/A
15                                   N/A
16          Total                    N/A
Tab: Text Data
 Line               Question                                                                                             Answer
 1                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly       1). Debt Securities shall be recorded at face value. A premium or discount shall be
                    the significant accounting policies pertaining to this note.                                         recorded equal to the difference between face value and the cost basis.

                                                                                                                         Discounts and premiums on debt securities held in the Revolving Fund shall be
                                                                                                                         accreted or amortized by the effective interest method to arrive at a constant rate of
                                                                                                                         interest for the security. The straight-line method shall be acceptable only if it results in
                                                                                                                         an insignificant difference from use of the interest method. The premium/discount shall
                                                                                                                         be amortized/accreted over the term of the security which will typically be through to
                                                                                                                         maturity date, or call date, whichever is more appropriate.

                                                                                                                         Discounts and premiums on debt securities held in the Trust Fund are not accreted or
                                                                                                                         amortized. These securities and all other securities are marked to market.




                                                                                                            - 41 -
                                                                                                                                                                               11/16/2012 14:40:35

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

     Note: 11          Federal Employee and Veteran Benefits Payable                                                           Fiscal Year: 2012               Period: SEPTEMBER
   Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                    Agency Notes:      N/A

  Status: Complete                      The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                       NB    Account    2012 - SEPTEMBER       2011 - SEPTEMBER
                                                                               Type
Federal Employee and Veteran Benefits Payable                          C         L                         0                  0
                                                                            Variance:                      0                  0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description         2012 - SEPTEMBER            2011 - SEPTEMBER               Previously Rptd        Line Item Changes
 1          Pension and accrued
            benefits
 2          Post-retirement health
            and accrued benefits
 3          Veteran's
            compensation and
            burial benefits
 4          Life Insurance and
            accrued benefits
 5          FECA Benefits
 6          Liability for other
            retirement and
            postemployment
            benefits
            Total




                                                                                                  - 42 -
                                                                                                                                                                               11/16/2012 14:40:35

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 11             Federal Employee and Veteran Benefits Payable                                                                Fiscal Year: 2012      Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:    N/A

  Status: Complete                               The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Pension and Accrued Benefits Liability-To be                No Data Flag: YES         Line Attributes: Dollars
                                             completed for the amount entered for pension and                                    Rounding Method: Millions             Decimal: Zero
                                             accrued benefits in the "Line Item Notes" tab
Line Status Line Description             NB        2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Pension and             Credit
                accrued benefits
                liability- beginning
                of period
 2              Prior-period            Credit
                adjustments(not
                restated)
 3              Prior (and past)        Credit
                service costs from
                plan amendments
                (or the initiation of
                a new plan) during
                the period
 4              Normal Costs            Credit
                (SFFAS No. 5, par.
                72)
 5              Interest on pension     Credit
                liability during the
                period
 6              Prior (and past)        Credit
                service cost (from
                the initiation of a
                new plan)
 7              Actuarial               Credit
                (gains)/losses (from
                experience)
                (SFFAS No. 33,
                par. 22)
 8              Actuarial               Credit
                (gains)/losses (from
                assumption
                changes) (SFFAS
                No. 33, par. 22)
 9              Other                   Credit
10              Total pension            N/A
                expense (SFFAS
                No. 5, par.72)
11              Less Benefits Paid      Debit



                                                                                                           - 43 -
                                                                                                                                                                               11/16/2012 14:40:35

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 11             Federal Employee and Veteran Benefits Payable                                                                Fiscal Year: 2012      Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:    N/A

  Status: Complete                               The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: A               Section Name: Pension and Accrued Benefits Liability-To be               No Data Flag: YES         Line Attributes: Dollars
                                              completed for the amount entered for pension and                                   Rounding Method: Millions             Decimal: Zero
                                              accrued benefits in the "Line Item Notes" tab
Line Status Line Description             NB        2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd    Line Item Changes
12              Pension and              N/A
                Accrued Benefits
                Liability-end of
                period




       Section: B               Section Name: Pension Liability Long-Term Significant Assumptions        No Data Flag: YES         Line Attributes: Percent
                                              Used in 2012 and 2011 Valuation
Line Status Line Description             NB        2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Rate of Interest         N/A
                (except OPM)
 2              Rate of inflation        N/A
                (except OPM)
 3              Projected salary         N/A
                increases (except
                OPM)



       Section: C               Section Name: Postretirement Health and Accrued Benefits                 No Data Flag: YES         Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions             Decimal: Zero
Line Status Line Description             NB        2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Postretirement          Credit
                health and accrued
                benefits liability-
                beginning of period
                (SFFAS No. 5,
                par.88)
 2              Prior-period            Credit
                adjustments (not
                restated)
 3              Prior (and past)        Credit
                service costs from
                plan amendments
                (or the initiation of



                                                                                                           - 44 -
                                                                                                                                                                               11/16/2012 14:40:35

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 11              Federal Employee and Veteran Benefits Payable                                                               Fiscal Year: 2012      Period: SEPTEMBER
     Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                        Agency Notes:    N/A

  Status: Complete                               The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: C                Section Name: Postretirement Health and Accrued Benefits                No Data Flag: YES         Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions             Decimal: Zero
Line Status Line Description             NB        2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd    Line Item Changes
                a new plan) during
                the period
 4              Normal costs            Credit
 5              Interest on liability   Credit
 6        I     Change in medical       Credit
                cost trend rate
                assumption
                (gains)/losses
 7              Actuarial               Credit
                (gains)/losses (from
                experience)
 8              Actuarial               Credit
                (gains)/losses (from
                assumption
                changes)
 9              Other                   Credit
10              Total                    N/A
                postretirement
                health benefits
                expense
11              Less claims paid        Debit
12              Postretirement           N/A
                health and accrued
                benefits liability-
                end of period
       Section: D                Section Name: Postretirement Health Liability Significant               No Data Flag: YES         Line Attributes: Percent
                                               Assumptions Used in Determining the 2012 and 2011
                                               Valuation
Line Status Line Description             NB        2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Rate of Interest         N/A
 2              Ultimate rate of         N/A
                health care cost
                trend
 3              Single equivalent        N/A
                rate of health care
                cost trend




                                                                                                           - 45 -
                                                                                                                                                                                11/16/2012 14:40:35

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 11            Federal Employee and Veteran Benefits Payable                                                             Fiscal Year: 2012          Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:     N/A

  Status: Complete                            The accompanying notes are an integral part of these financial statements.        I = Inactive Line


       Section: F             Section Name: Other                                                     No Data Flag: YES         Line Attributes: Dollars
                                                                                                                              Rounding Method: User-Defined            Decimal: User-Defined
Line Status Line Description           NB       2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Non-marketable        Debit
                Treasury securities
                held by Thrift
                Savings Plan (TSP)
                Fund
 2              Total assets of       Debit
                pension (SFFAS
                No.5, par. 68)
 3              Market value of       Debit
                investments in
                market-based and
                marketable
                securities included
                in line 2
 4              Total assets of       Debit
                other retirement
                benefit plans
                (SFFAS No. 5, par.
                85)
 5              Market value of       Debit
                investments in
                market-based and
                marketable
                securities included
                in line 4 (SFFAS
                no. 5, par.85)
       Section: K             Section Name: Workers' Compensation Benefits (to be completed by        No Data Flag: YES         Line Attributes: Percent
                                            DOL)
Line Status Line Description           NB                     COLA                          CPIM
 4              2015                  N/A
 5        I     2016+                 N/A
 6              2016                  N/A
 7              2017+                 N/A




                                                                                                        - 46 -
                                                                                                                                                                                11/16/2012 14:40:35

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 11             Federal Employee and Veteran Benefits Payable                                                                 Fiscal Year: 2012      Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:    N/A

  Status: Complete                               The accompanying notes are an integral part of these financial statements.          I = Inactive Line


       Section: N              Section Name: Veteran's Compensation and Burial Benefits (to be           No Data Flag: YES          Line Attributes: Dollars
                                             completed by the Department of Veterans Affairs)                                     Rounding Method: Millions             Decimal: Zero
Line Status Line Description             NB          CY Compensation                      CY Burial                    CY Total     PY Compensation             PY Burial               PY Total
 1              Veterans                Credit
                compensation and
                burial benefits
                liability - beginning
                of period
 2              Prior-period            Credit
                adjustments (not
                restated)
 3              Interest on the         Credit
                liability
 4              Prior (and past)        Credit
                service costs from
                program
                amendments (or
                the initiation of a
                new program)
                during the period
 5              Actuarial               Credit
                (gains)/losses (from
                experience)
 6              Actuarial               Credit
                (gains)/losses (from
                assumption
                changes)
 7              Other                   Credit
 8              Total current year       N/A
                expenses
 9              Less benefits paid      Debit
10              Veterans                 N/A
                compensation and
                burial benefits
                liability - end of
                period




                                                                                                           - 47 -
                                                                                                                                                                              11/16/2012 14:40:35

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 11              Federal Employee and Veteran Benefits Payable                                                              Fiscal Year: 2012      Period: SEPTEMBER
     Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:    N/A

  Status: Complete                              The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: O                Section Name: Civilian Life Insurance and Accrued Benefits (to be      No Data Flag: YES         Line Attributes: Dollars
                                               completed only by OPM)                                                           Rounding Method: Millions             Decimal: Zero
Line Status Line Description            NB        2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Actuarial accrued      Credit
                life insurance
                benefits liability-
                beginning of period
 2              Prior-period           Credit
                adjustments (not
                restated)
 3              New entrant            Credit
                expense
 4              Interest on life       Credit
                insurance liability
                during the period
 5              Actuarial              Credit
                (gains)/losses (from
                experience)
                (SFFAS No. 33,
                par. 22)
 6              Actuarial              Credit
                (gains)/losses (from
                assumption
                changes) (SFFAS
                No. 33, par. 22)
 7              Other                  Credit
 8              Total life insurance    N/A
                expense
 9              Less costs paid        Debit
10              Actuarial accrued       N/A
                life insurance
                benefits liability -
                end of period




                                                                                                          - 48 -
                                                                                                                                                                       11/16/2012 14:40:35

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 11             Federal Employee and Veteran Benefits Payable                                                         Fiscal Year: 2012      Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                  Agency Notes:    N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.       I = Inactive Line


       Section: P              Section Name: Civilian Actuarial Life Insurance Liability (to be     No Data Flag: YES       Line Attributes: Percent
                                             completed only by OPM)
Line Status Line Description          NB       2012 - SEPTEMBER                2011 - SEPTEMBER           Previously Rptd   Line Item Changes
 1              Rate of interest      N/A
 2              Rate of increases     N/A
                in salary




                                                                                                      - 49 -
                                                                                                                                                                         11/16/2012 14:40:35

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 11          Federal Employee and Veteran Benefits Payable                                                              Fiscal Year: 2012      Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:    N/A

 Status: Complete                         The accompanying notes are an integral part of these financial statements.           I = Inactive Line

Tab: Text Data                        No Data Flag: YES
Line               Question                                                                                           Answer
1                  Provide the following information as it relates to the future policy benefits for noncancelable
                   and renewable life insurance (other than whole life) (SFFAS No. 5, par. 110, table 9): a
                   description of each component of the liability for future policy benefits, an explanation of its
                   projected use, and any other potential uses.
2                  For pension plans that differ from the Civil Service Retirement System (CSRS), the Federal
                   Employee Retirement System (FERS), and the Military Retirement System (MRS), describe
                   how and why the assumptions differ from one of those plans (SFFAS No. 5, par. 67).
3                  Provide the long-term projection of the significant economic assumptions used in
                   determining pension liability and
                   the related expense (example of assumptions: actuarial, economic, interest rate, and trend).
4                  Provide a description of the changes in the significant assumptions used in determining
                   pension liability and the
                   related expense (SFFAS No. 33, par.19).
5                  Provide the long-term projection of the significant economic assumptions used in
                   determining the postretirement
                   health benefits liability and the related expense (example of assumptions: actuarial,
                   economic, interest rate, and
                   trend).
6                  Provide a description of the changes in the significant assumptions used in determining the
                   postretirement health
                   benefits liability and the related expense (SFFAS No. 33, par. 19).
10                 Provide the source(s) of the information entered for Line Item Notes tab lines 4, 5, and 6.
11                 Provide the source(s) for the components of pension expense entered in Section A.
12                 Provide the source(s) for the interest rate for pension expense entered in Section B.
13                 Provide the source(s) for the components of postretirement expense entered in Section C.
14                 Provide the source(s) for the interest rate for pension expense entered in Section D.
17                 Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                   the significant
                   accounting policies pertaining to this note.




                                                                                                             - 50 -
                                                                                                                                                                                  11/16/2012 14:40:35

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

      Note: 12          Environmental and Disposal Liabilities                                                                    Fiscal Year: 2012               Period: SEPTEMBER
   Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:      N/A

  Status: Complete                         The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                         NB    Account     2012 - SEPTEMBER       2011 - SEPTEMBER
                                                                                 Type
Environmental and Disposal Liabilities                                    C        L                          0                  0
                                                                              Variance:                       0                  0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description             2012 - SEPTEMBER          2011 - SEPTEMBER                Previously Rptd        Line Item Changes
  9
 10
 11
 12
 13
 14          Other Environmental
             and Disposal Liabilities
             Total




                                                                                                     - 51 -
                                                                                                                                                                                      11/16/2012 14:40:35

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 12            Environmental and Disposal Liabilities                                                                          Fiscal Year: 2012          Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:    N/A

  Status: Complete                           The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Other Related Information                                   No Data Flag: YES            Line Attributes: Dollars
                                                                                                                                    Rounding Method: User-Defined            Decimal: User-Defined
Line Status Line Description          NB       2012 - SEPTEMBER               2011 - SEPTEMBER                   Previously Rptd     Line Item Changes
 1              Unrecognized         Debit
                portion of
                estimated total
                cleanup costs
                associated with
                general property,
                plant, and
                equipment


Tab: Text Data                          No Data Flag: YES
 Line                Question                                                                                              Answer
 1                   List the applicable laws and regulations covering cleanup requirements
 2                   Provide a description of the type of environmental and disposal liabilties identified.
 3                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                     the significant accounting policies pertaining to this note.




                                                                                                            - 52 -
                                                                                                                                                                                          11/16/2012 14:40:35

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 13          Benefits Due and Payable                                                                                           Fiscal Year: 2012               Period: SEPTEMBER
   Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                               Agency Notes:      N/A

  Status: Complete                       The accompanying notes are an integral part of these financial statements.                    I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                           NB    Account     2012 - SEPTEMBER          2011 - SEPTEMBER
                                                                                   Type
Benefits Due and Payable                                                   C         L                             0                     0
                                                                                Variance:                          0                     0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description          2012 - SEPTEMBER              2011 - SEPTEMBER                   Previously Rptd            Line Item Changes
 9          Other Entitlement
            BenefitsDue and
            Payable
            Total

Tab: Text Data                       No Data Flag: YES
 Line             Question                                                                                               Answer
 1                Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                  the significant accounting policies pertaining to this note.




                                                                                                         - 53 -
                                                                                                                                                                                               11/16/2012 14:40:35

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 14            Insurance and Guarantee Program Liabilities                                                                 Fiscal Year: 2012                  Period: SEPTEMBER
   Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                        Agency Notes:        AR - Note 2 and Note 6

  Status: Complete                         The accompanying notes are an integral part of these financial statements.             I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                            NB    Account    2012 - SEPTEMBER      2011 - SEPTEMBER
                                                                                    Type
Insurance and Guarantee Program Liabilities                                 C         L                 105,636                 92,954
                                                                                 Variance:                    0                      0           Rounding Method: Millions                Decimal: Zero
Line Status Line Description            2012 - SEPTEMBER               2011 - SEPTEMBER             Previously Rptd          Line Item Changes
 1              Single employer                           105,635                       92,953                    92,953                              0
 2              Multiemployer                                   1                            1                         1                              0
 7              Other Insurance
                Programs
 8
 9
            Total                                          105,636                      92,954                     92,954                             0
Threshold

 Line Description                                               Question                                                           Answer
 Line Item Notes - Single employer (2012 - SEPTEMBER)           Please provide explanations for any amounts that have             PBGC's select interest factor decreased to 3.28% (for the first 25 years after
                                                                changed by 10% or more and or greater than 500,000 between        the valuation date) at September 30, 2012, from 4.31% (for the first 20
                                                                the current fiscal year and prior fiscal year. (Unaudited)        years) at September 30, 2011. The ultimate factor decreased to 2.97% at
                                                                                                                                  September 30, 2012 (after the first 25 years) from 4.26% at September 30,
                                                                                                                                  2011 (after the first 20 years). This decrease in interest factors resulted in
                                                                                                                                  an increase in the net loss of the single-employer program and an increase
                                                                                                                                  in the overall liability of the program.

                                                                                                                                  In FY 2012 the primary drivers of the net loss of $5.876 billion included the
                                                                                                                                  following: $3.927 billion actuarial charge due to expected interest; a charge
                                                                                                                                  for actuarial adjustments of $0.229 billion; a charge of $10.718 billion due to
                                                                                                                                  a reduction in interest factors (which has the effect of increasing benefit
                                                                                                                                  liabilities and actuarial charges); $0.360 billion in administrative and other
                                                                                                                                  expenses; and a charge due to completed and probable terminations of
                                                                                                                                  $2.006 billion. These amounts were partially offset by investment income of
                                                                                                                                  $8.792 billion and net premium income of $2.642 billion.




                                                                                                      - 54 -
                                                                                                                                                                                         11/16/2012 14:40:35

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 14            Insurance and Guarantee Program Liabilities                                                                 Fiscal Year: 2012               Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:      AR - Note 2 and Note 6

  Status: Complete                             The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Other Related Information                                                           Line Attributes: Dollars
                                                                                                                               Rounding Method: Millions                         Decimal: Zero
Line Status Line Description           NB        2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Total liabilities (as Credit                     119,159                    106,735                                           106,735
                reported on
                Balance
                Sheet/Statement of
                Financial
                Condition) PBGC




       Section: B              Section Name: Net Position/Equity                                                                 Line Attributes: Dollars
                                                                                                                               Rounding Method: Millions                         Decimal: Zero
Line Status Line Description           NB        2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              PBGC                 Credit                      -34,379                    -26,036                                           -26,036




                                                                                                         - 55 -
                                                                                                                                                                                                 11/16/2012 14:40:35

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 14          Insurance and Guarantee Program Liabilities                                                                      Fiscal Year: 2012                  Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:       AR - Note 2 and Note 6

 Status: Complete                         The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Text Data
Line               Question                                                                                         Answer
1                  Provide a description for the type of insurance or guarantee programs identified in the "Line    1). PBGC operates two separate insurance programs for defined benefit plans.
                   Item Notes" tab.                                                                                 PBGC's single-employer program guarantees payment of basic pension benefits when
                                                                                                                    underfunded plans terminate. The insured event in the single-employer program is
                                                                                                                    plan termination. By contrast, in the multiemployer program, the insured event is plan
                                                                                                                    insolvency. PBGC's multiemployer program financially assists insolvent covered plans
                                                                                                                    to pay benefits at the statutorily guaranteed level. By law, the two programs are funded
                                                                                                                    and administered separately and their financial conditions, results of operations, and
                                                                                                                    cash flows are reported separately.
2                  Provide the name, description, and the related amounts of the insurance or guarantee             2). N/A
                   programs entered on the line titled, "Other insurance programs" in the "Line Item Notes" tab.
3                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly   3). The values of the PVFB are particularly sensitive to changes in underlying estimates
                   the significant                                                                                  and assumptions.
                   accounting policies pertaining to this note.                                                     (1) Trusteed Plans-represents the present value of future benefit payments less the
                                                                                                                    present value of expected recoveries (for which a settlement agreement has not been
                                                                                                                    reached with sponsors and members of their controlled group) for plans that have
                                                                                                                    terminated and been trusteed by PBGC prior to fiscal year-end. Assets are shown
                                                                                                                    separately from liabilities for trusteed plans.
                                                                                                                    (2) Pending Termination and Trusteeship-represents the present value of future benefit
                                                                                                                    payments less the plans' net assets (at fair value) anticipated to be received and the
                                                                                                                    present value of expected recoveries (for which a settlement agreement has not been
                                                                                                                    reached with sponsors and members of their controlled group) for plans for which
                                                                                                                    termination action has been initiated and/or completed prior to fiscal year-end. Unlike
                                                                                                                    trusteed plans, the liability for plans pending termination and trusteeship is shown net of
                                                                                                                    plan assets.
                                                                                                                    (3) Settlements and Judgments-represents estimated liabilities related to settled
                                                                                                                    litigation.
                                                                                                                    (4) Net Claims for Probable Terminations-In accordance with the FASB Accounting
                                                                                                                    Standards Codification Section 450, Contingencies, PBGC recognizes net claims for
                                                                                                                    probable terminations which represent PBGC's best estimate of the losses, net of plan
                                                                                                                    assets, and the present value of expected recoveries (from sponsors and members of
                                                                                                                    their controlled group) for plans that are likely to terminate in the future. The PBGC
                                                                                                                    threshold for recognition of net claims for probable termination is $50 million or more of
                                                                                                                    underfunding. These estimated losses are based on conditions that existed as of
                                                                                                                    PBGC's fiscal year-end. Management believes it is likely that one or more events
                                                                                                                    subsequent to PBGC's fiscal year-end will occur, confirming the loss.




                                                                                                           - 56 -
                                                                                                                                                                                               11/16/2012 14:40:35

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

      Note: 15             Other Liabilities                                                                                                Fiscal Year: 2012                  Period: SEPTEMBER
   Entity: 1602            PENSION BENEFIT GUARANTY CORPORATION                                                                             Agency Notes:        AR - Notes 3, 4 and 7

  Status: Complete                               The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                               NB    Account     2012 - SEPTEMBER       2011 - SEPTEMBER
                                                                                       Type
Other Liabilities                                                               C        L                    13,434                   13,716
                                                                                    Variance:                      0                        0           Rounding Method: Millions          Decimal: Zero
Line Status Line Description                   2012 - SEPTEMBER           2011 - SEPTEMBER               Previously Rptd            Line Item Changes
 1               Deferred revenue                                  358                          397                           397                            0
 2               Accrued wages and                                   3                            3                             3                            0
                 benefits
 4               Other debt
 6               Legal and other
                 contingencies
 7               Grant payments due to
                 State and local
                 governments and
                 others
 8               Other employee and
                 actuarial liabilities
 10              D.C. pension liability
 11              Custodial liabilities
 12              Accrued annual leave                                 9                           8                             8                            0
 14              Advances and
                 prepayments
 15              Farm and other
                 subsidies
 16              Deposit funds
 17              Bonneville Power
                 Administration Non-
                 Federal power projects
                 and capital lease
                 liabilities and disposal
                 liabilities
 18
 19
 20
 21           Other Liabilities                                 13,064                      13,308                      13,308                               0
              Total                                             13,434                      13,716                      13,716                               0




                                                                                                           - 57 -
                                                                                                                                                                                              11/16/2012 14:40:35

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

   Note: 15           Other Liabilities                                                                                               Fiscal Year: 2012                 Period: SEPTEMBER
  Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:      AR - Notes 3, 4 and 7

 Status: Complete                         The accompanying notes are an integral part of these financial statements.               I = Inactive Line



Threshold

Line Description                                              Question                                                             Answer
Line Item Notes - Deferred revenue (2012 - SEPTEMBER)         Please provide explanations for any amounts that have                This change is primarily due to a decrease in unearned premiums.
                                                              changed by 10% or more and or greater than 500,000 between
                                                              the current fiscal year and prior fiscal year. (Unaudited)
Line Item Notes - Accrued annual leave (2012 -                Please provide explanations for any amounts that have                The change is due to an increase in recorded accrued annual leave benefits
SEPTEMBER)                                                    changed by 10% or more and or greater than $500,000                  of employees.
                                                              between the current fiscal year and prior fiscal year. (unaudited)
Line Item Notes - Other Liabilities (2012 - SEPTEMBER)        Please enter a description for any amounts over $50 million.         The total year over year decrease in Other Liabilities of $244 million is
                                                                                                                                   attributable to the following: $1,522 million decrease in Due from purchase
                                                                                                                                   of securities, $1,162 million decrease in Payable upon return of securities
                                                                                                                                   loaned, $95 million decrease in Derivative contracts (Collateral Deposits),
                                                                                                                                   offset by a $2,535 million increase in Present value of nonrecoverable future
                                                                                                                                   financial assistance.




                                                                                                         - 58 -
                                                                                                                                                                                                  11/16/2012 14:40:35

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

    Note: 15           Other Liabilities                                                                                                Fiscal Year: 2012                  Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                             Agency Notes:       AR - Notes 3, 4 and 7

 Status: Complete                          The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Text Data
Line               Question                                                                                           Answer
1                  Provide more details on the liabilities reported on the "Line Item Notes" tab for each line 1      1). Line 1 - Deferred revenue is attributable to unearned premium revenue for both the
                   through 21 by including a description of the significant related amounts and providing the         single-employer and multiemployer programs - which can be located in the balance
                   page number of the agency's financial report where the amount is identified.                       sheet under Unearned premiums.
                                                                                                                      Line 21 - Other liabilities consists of Present value of nonrecoverable future financial
                                                                                                                      assistance, Derivative contracts, Due for purchase of securities, and Payable upon
                                                                                                                      return of securities loaned - all of which can be found on the balance sheet.
2                  Provide a description and related amounts for balances that exceed $50 million on the Line         2). Items that consist of $50 million or more reported in Other liabilities are: Present
                   Item Notes tab, line 21, "Other liabilities," and provide the page number of the agency's          value of nonrecoverable future financial assistance ($7,010 million); Payable upon
                   financial report where the amount is identified.                                                   return of securities loaned ($3,425 million); Due for purchases of securities ($2,557
                                                                                                                      million); and Derivative contracts ($72 million) - all of which can be located on the
                                                                                                                      balance sheet.
3                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly     3). Payable upon return of securities loaned represents the liability created under
                   the significant                                                                                    securities lending where PBGC maintains effective control over the securities and will
                   accounting policies pertaining to this note.                                                       remain as a liability until the transaction is completed and the securities are returned.

                                                                                                                      Due for purchase of securities represents the liability position for open trades (not
                                                                                                                      settled), and are presented at fair value in accordance with general investment policies.

                                                                                                                      Present value of nonrecoverable future financial assistance represents the estimated
                                                                                                                      nonrecoverable payments to be provided by PBGC in the future to multiemployer plans
                                                                                                                      that will not be able to meet their benefit obligations. The present value of
                                                                                                                      nonrecoverable future financial assistance is based on the difference between the
                                                                                                                      present value of future guaranteed benefits and expenses and the market value of plan
                                                                                                                      assets, including the present value of future amounts expected to be paid by
                                                                                                                      employers, for those plans that are expected to require future assistance.

                                                                                                                      Derivatives are accounted for at fair market value in accordance with the FASB
                                                                                                                      Accounting Standards Codification Section 815. Derivatives are marked to market with
                                                                                                                      changes in value reported as a component of financial income on the Statements of
                                                                                                                      Operations and Changes in Net Position. PBGC presents all derivatives at fair value on
                                                                                                                      the Statements of Financial Condition.

                                                                                                                      PBGC, through its investment managers, invested in investment products that used
                                                                                                                      various U.S. and non-U.S. derivative instruments including but not limited to: S&P 500
                                                                                                                      index futures, options, money market futures, government bond futures, interest rate,
                                                                                                                      credit default and total return swaps and swaption contracts, stock warrants and rights,
                                                                                                                      debt option contracts, and foreign currency forward and option contracts.




                                                                                                             - 59 -
                                                                                                                                                                                 11/16/2012 14:40:35

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 17           Prior-Period Adjustments                                                                             Fiscal Year: 2012             Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                 Agency Notes:    Statements of Operations & Changes in Net Position

  Status: Complete                        The accompanying notes are an integral part of these financial statements.      I = Inactive Line

Tab: Other Notes Info.

       Section: A            Section Name: Non-Federal Prior-Period Adjustments - Restated        No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions                       Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A
       Section: B            Section Name: Federal Prior-Period Adjustments - Restated            No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions                       Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A




                                                                                                    - 60 -
                                                                                                                                                                                 11/16/2012 14:40:35

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 17           Prior-Period Adjustments                                                                             Fiscal Year: 2012             Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                 Agency Notes:    Statements of Operations & Changes in Net Position

  Status: Complete                        The accompanying notes are an integral part of these financial statements.      I = Inactive Line


       Section: C            Section Name: Non-Federal Correction of Errors- Years Preceding      No Data Flag: YES      Line Attributes: Dollars
                                           2011                                                                        Rounding Method: Millions                       Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A
       Section: D            Section Name: Federal Correction of Errors - Years Preceding 2011    No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions                       Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A




                                                                                                    - 61 -
                                                                                                                                                                                 11/16/2012 14:40:35

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 17           Prior-Period Adjustments                                                                             Fiscal Year: 2012             Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                 Agency Notes:    Statements of Operations & Changes in Net Position

  Status: Complete                        The accompanying notes are an integral part of these financial statements.      I = Inactive Line


       Section: E            Section Name: Non-Federal Immaterial Errors                          No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions                       Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A
       Section: F            Section Name: Federal Immaterial Errors                              No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions                       Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A




                                                                                                    - 62 -
                                                                                                                                                                                 11/16/2012 14:40:35

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 17           Prior-Period Adjustments                                                                             Fiscal Year: 2012             Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                 Agency Notes:    Statements of Operations & Changes in Net Position

  Status: Complete                        The accompanying notes are an integral part of these financial statements.      I = Inactive Line


       Section: G            Section Name: Closing Package Adjustments                                                   Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions                       Decimal: Zero
Line Status Line Description        NB                Amount C
 1              Statements of       N/A                         -99
                Operations and
                Changes in Net
                Position
 2              Statements of       N/A                          37
                Operations and
                Changes in Net
                Position
 3              Statements of       N/A                          52
                Operations and
                Changes in Net
                Position
 4              Statements of       N/A                          10
                Operations and
                Changes in Net
                Position
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A                           0




                                                                                                    - 63 -
                                                                                                                                                                                                    11/16/2012 14:40:35

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 17          Prior-Period Adjustments                                                                                         Fiscal Year: 2012                    Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:        Statements of Operations & Changes in Net Position

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Text Data
Line               Question                                                                                         Answer
1                  Describe the restatements to the prior year that resulted from correcting errors that occurred   1). N/A
                   in the prior year (data reported in Sections A and B).
2                  Describe any errors that occurred in years preceding the prior year that adjusted the prior-     2). N/A
                   year beginning net position (data reported in Sections C and D).
3                  Describe any immaterial errors that occurred in the prior period(s) that were corrected          3). N/A
                   against the current-year operations (data reported in Sections E and F).
4                  Describe any adjustments of the previous year (2011) reclassification in this year's (2012)      4). To ensure consistency and comparability of the information presented in PBGC's FY
                   Closing Package prior-year (2011) reporting (data reported in Section G), excluding              2011 and FY 2012 financial statements and consistent with the presentation for the
                   amounts reported as restatements in Section A and B.                                             single-employer program, beginning FY 2012, losses from financial assistance in the
                                                                                                                    multiemployer program have been reclassified to actuarial charges, credits, and
                                                                                                                    adjustments. This provides improved transparency for those plans receiving and/or
                                                                                                                    about to begin receiving financial assistance from the multiemployer program. In our
                                                                                                                    FY 2011 Statements of Operations and Changes in Net Position, losses from financial
                                                                                                                    assistance decreased $99 million and actuarial adjustments increased $37 million,
                                                                                                                    resulting in a reclassification to the underwriting gain of $62 million. Furthermore, in the
                                                                                                                    financial portion of the Statements of Operations and Changes in Net Position, due to
                                                                                                                    passage of time increased by $52 million and due to change in interest rates increased
                                                                                                                    by $10 million, resulting in a reclassification to the financial loss of $62 million. All such
                                                                                                                    changes were reclassified within the FY 2011 Statements of Operations and Changes
                                                                                                                    in Net Position, and have no impact on FY 2011 net position. Likewise, such FY 2012
                                                                                                                    Statements of Operations and Changes in Net Position reclassifications have no impact
                                                                                                                    on FY 2012 net position.
5                  Describe the adjustments to the current-year or prior-year beginning net position that           5). There is no other relevant information pertaining to this note.
                   resulted from changes in accounting principles as reported on the Reclassified Statement of
                   Changes in Net Position, line 2.1 and/or line 3.1.
6                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly   6). N/A
                   the significant accounting policies pertaining to this note.




                                                                                                           - 64 -
                                                                                                                                                                                           11/16/2012 14:40:35

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 18            Contingencies (SFFAS Nos. 5 and 12)                                                                          Fiscal Year: 2012                  Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:        AR - Notes 2, 9 & 16

  Status: Complete                            The accompanying notes are an integral part of these financial statements.           I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Insurance Contingencies (Reasonably Possible Only)                                    Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                         Decimal: Zero
Line Status Line Description          NB        2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd      Line Item Changes
 1              PBGC Defined         Credit                     294,963                    227,117                    227,117                          0
                Pension Plan
                (Single-employer)
 2              PBGC Defined         Credit                      26,809                     23,097                     23,097                          0
                Pension Plan
                (Multi-employer)
 4                                   Credit
 5                                   Credit
 6                                   Credit
 7                                   Credit
 8                                   Credit
 9              Other insurance      Credit
                contingencies
10              Total                 N/A                     -321,772                   -250,214                   -250,214                           0
       Section: B             Section Name: Insurance in force (Sum of Policy Face Value and          No Data Flag: YES           Line Attributes: Dollars
                                            Dividends Paid)                                                                     Rounding Method: User-Defined                     Decimal: User-Defined
Line Status Line Description          NB        2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd      Line Item Changes
 3                                   Credit
 4                                   Credit
 5                                   Credit
 6                                   Credit
 7                                   Credit
 8              Other insurance in   Credit
                force
 9              Total                 N/A




                                                                                                        - 65 -
                                                                                                                                                                                        11/16/2012 14:40:35

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 18              Contingencies (SFFAS Nos. 5 and 12)                                                                        Fiscal Year: 2012               Period: SEPTEMBER
     Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:     AR - Notes 2, 9 & 16

  Status: Complete                            The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: C              Section Name: Civil Litigation, Claims and Assessments                                             Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                      Decimal: Zero
Line Status Line Description          NB        CYAccrued/Estimated      CY Estimated Range(Low           CY Estimated Range CY Claim amount(Unable           PYAccrued/Estimated PY Estimated Range(Low
                                                          amount                          end)                   (High end)      to determine loss)          amount rued/Estimated                 end)
                                                                                                                                                                         amount
 1              Probable             Credit
 2              Reasonably           Credit                                                     68                                                                                                      68
                Possible
Line Status Line Description           NB        PY Estimated Range        PY Claim amunt (unable
                                                         (High end)                to determine)
 1              Probable             Credit
 2              Reasonably           Credit
                Possible
       Section: D              Section Name: Environmental Litigation, Claims, and Assessments        No Data Flag: YES           Line Attributes: Dollars
                                                                                                                                Rounding Method: User-Defined                  Decimal: User-Defined
Line Status Line Description          NB        CYAccrued/Estimated           CY Estimated Range          CY Estimated Range   CY Claim amunt(unable         PY Accrued/Estimated     PY Estimated Range
                                                          amount                      (Low end)                  (High end)            to determine)                    amount                (Low end)
 1              Probable             Credit
 2              Reasonably           Credit
                Possible
Line Status Line Description           NB        PY Estimated Range      PY Claim amount (unable
                                                      (High Range)                 to determine)
 1              Probable             Credit
 2              Reasonably           Credit
                Possible
       Section: E              Section Name: Other Contingencies                                      No Data Flag: YES           Line Attributes: Dollars
                                                                                                                                Rounding Method: User-Defined                  Decimal: User-Defined
Line Status Line Description          NB               CY Probable        CY Reasonably Possible                 PY Probable   PY Reasonably Possible

 3                                   Credit
 4                                   Credit
 5                                   Credit




                                                                                                        - 66 -
                                                                                                                                                                                                    11/16/2012 14:40:35

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

    Note: 18          Contingencies (SFFAS Nos. 5 and 12)                                                                               Fiscal Year: 2012                   Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                             Agency Notes:        AR - Notes 2, 9 & 16

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Text Data
Line               Question                                                                                          Answer
1                  Describe the risk insurance programs that are in force.                                           1). Title IV of ERISA requires PBGC to provide mandatory insurance for defined benefit
                                                                                                                     pension plans. PBGC operates 2 programs: one for the single-employer (SE) and the
                                                                                                                     other for the multiemployer (ME) defined benefit pension plans. When an SE plan
                                                                                                                     terminates and does not have enough assets to pay Title IV benefits to the participants,
                                                                                                                     PBGC trustees the plan and pays benefits (up to the guaranteed limit) to the
                                                                                                                     participants. PBGC does not trustee ME plans but provides financial assistance to the
                                                                                                                     plan when it becomes insolvent (there are not enough assets to pay guaranteed level of
                                                                                                                     benefits to participants). Insurance contingencies are the estimated aggregate
                                                                                                                     underfunded vested benefits exposure to PBGC whose SE plans are classified as
                                                                                                                     reasonably possible of termination. This amount as of September 30, 2012 was
                                                                                                                     $294,963 million.

                                                                                                                     Additionally, PBGC estimates that, as of September 30, 2012, it is reasonably possible
                                                                                                                     that multiemployer plans may require future financial assistance in the amount of $27
                                                                                                                     billion. The comparable estimates of the multiemployer program's reasonable possible
                                                                                                                     exposure for FY 2011 and FY 2010 were $23 billion and $20 billion, respectively. The
                                                                                                                     increase in FY 2012 is primarily due to two large plans in the reasonably possible
                                                                                                                     inventory. The sponsor of one plan, now with net liability of $20 billion, is in the
                                                                                                                     transportation, communication, and utilities industry category; the other, now with net
                                                                                                                     liability of $6 billion, is in the agriculture, mining, and construction industry category.
2                  Provide the nature of the isurance contingencies.                                                 2). N/A
3                  Provide the nature of the litigation contingencies, including the range of loss for probable      3). N/A
                   liabilities.
4                  Provide the nature of the litigation contingencies including the range of loss for reasonably     4). A union representing participants of a plan has filed litigation in federal court against
                   possible contingencies.                                                                           PBGC. They are challenging a PBGC Appeals Board decision denying participant
                                                                                                                     shutdown benefits. An estimate of potential loss is $68 million.
5                  Provide the total claim amount for cases assessed as "unable to determine" if significant.        5). N/A
                   Also, provide a statement on whether this materiality affects the financial statements.
6                  Describe the other claims that may derive from treaties or international agreements.              6). N/A
7                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly    7). In order for a plan sponsor to be specifically classified as reasonably possible, it
                   the significant accounting policies pertaining to this note.                                      must have $5 million or more of underfunding as well as meet additional criteria.
                                                                                                                     Criteria used for classifying a company as reasonably possible include, but are not
                                                                                                                     limited to, one of the following conditions: the plan sponsor is in Chapter 11
                                                                                                                     reorganization; funding waiver pending or outstanding with the Internal Revenue
                                                                                                                     Service; sponsor missed minimum funding contribution; sponsor has an S&P senior
                                                                                                                     unsecured credit rating or an issuer credit rating less two notches of BB+ or below, or a
                                                                                                                     Moody's senior unsecured credit rating or a corporate family rating less one notch of
                                                                                                                     Ba1 or below; or sponsor has no bond rating but the Dun & Bradstreet Financial Stress
                                                                                                                     Score is below the threshold considered to be investment grade.

                                                                                                                     The Corporation calculated the future financial assistance liability for each
                                                                                                                     multiemployer plan identified as probable, or reasonably possible as the present value
                                                                                                                     of guaranteed future benefit and expense payments net of any future contributions or
                                                                                                                     withdrawal liability payments as of the later of September 30, 2012, or the projected (or


                                                                                                            - 67 -
                                                                                                                                                                                         11/16/2012 14:40:35

                                                                            U.S. Department of the Treasury
                                                                             Financial Management Service
                                                                        Governmentwide Financial Report System
                                                                                GF006 - FR Notes Report

   Note: 18         Contingencies (SFFAS Nos. 5 and 12)                                                                         Fiscal Year: 2012                 Period: SEPTEMBER
  Entity: 1602      PENSION BENEFIT GUARANTY CORPORATION                                                                        Agency Notes:       AR - Notes 2, 9 & 16

 Status: Complete                    The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Text Data
Line             Question                                                                                     Answer
                                                                                                              actual, if known) date of plan insolvency, discounted back to September 30, 2012. The
                                                                                                              Corporation's identification of plans that are likely to require such assistance and
                                                                                                              estimation of related amounts required consideration of many complex factors, such as
                                                                                                              an estimate of future cash flows, future mortality rates, and age of participants not in
                                                                                                              pay status. These factors are affected by future events, including actions by plans and
                                                                                                              their sponsors, most of which are beyond the Corporation's control.




                                                                                               - 68 -
                                                                                                                                                                                                 11/16/2012 14:40:35

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 19              Commitments                                                                                                   Fiscal Year: 2012                     Period: SEPTEMBER
     Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:          AR - Note 10

  Status: Complete                              The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Other Notes Info.

       Section: A               Section Name: Capital leases-Asset                                        No Data Flag: YES          Line Attributes: Dollars
                                                                                                                                   Rounding Method: User-Defined                        Decimal: User-Defined
Line Status Line Description            NB                CY Federal               CY Non-Federal                     PY Federal       PY Non-Federal
 1              Building               Debit
 2              Land                   Debit
 3              Equipment              Debit
 4              Software license       Debit
 5              Other                  Debit
 6              Accumulated            Credit
                depreciation/amorti
                zation
 7              Net assets under        N/A
                capital leases
       Section: B               Section Name: Capital leases - Liability                                  No Data Flag: YES          Line Attributes: Dollars
                                                                                                                                   Rounding Method: User-Defined                        Decimal: User-Defined
Line Status Line Description            NB                 CY Federal              CY Non-Federal                     PY Federal       PY Non-Federal
 1              Future minimum         Credit
                lease programs
 2              Imputed interest       Debit
 3              Executory costs        Debit
                including any profit
 4              Total capital lease     N/A
                liability


       Section: C               Section Name: Commitments: Operating leases and undelivered                                          Line Attributes: Dollars
                                              orders                                                                               Rounding Method: Millions                            Decimal: Zero
Line Status Line Description            NB                CY Federal               CY Non-Federal                     PY Federal      PY Non-Federal
 1              Operating leases       Credit                                                     131                                                     128
 2            Undelivered orders Credit                                 17                        159                         22                          160
Threshold
 Line Description                                                   Question                                                          Answer
 Other Notes Info - Undelivered orders (CY Federal)                 Please provide explanations for any amounts that have             PBGC has experienced an increase in contractual services from FY 2011 to
                                                                    changed by 10% or more and or greater than $500,000               FY 2012.
                                                                    between the current fiscal year and prior fiscal year.
                                                                    (unaudited)



                                                                                                             - 69 -
                                                                                                                                                                                                       11/16/2012 14:40:35

                                                                                          U.S. Department of the Treasury
                                                                                           Financial Management Service
                                                                                      Governmentwide Financial Report System
                                                                                              GF006 - FR Notes Report

     Note: 19              Commitments                                                                                                          Fiscal Year: 2012                 Period: SEPTEMBER
     Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                                 Agency Notes:      AR - Note 10

  Status: Complete                              The accompanying notes are an integral part of these financial statements.                   I = Inactive Line


       Section: D                Section Name: Other Commitments                                             No Data Flag: YES             Line Attributes: Dollars
                                                                                                                                         Rounding Method: User-Defined                       Decimal: User-Defined
Line Status Line Description            NB                CY Federal                 CY Non-Federal                      PY Federal          PY Non-Federal
 9                                     Credit
10                                     Credit
11                                     Credit
12                                     Credit
13                                     Credit
14              Total                   N/A


Tab: Text Data
 Line                   Question                                                                                              Answer
 1                      Describe the lessee's leasing arrangements including the basis on which contingent rental             1). PBGC leases its office facility under a commitment that began on January 1, 2005,
                        payments are determined, the existence and terms of renewal or purchase options,                      and expires December 10, 2018. This lease provides for periodic rate increases based
                        escalation clauses and restrictions imposed by lease agreements.                                      on increases in operating costs and real estate taxes over a base amount. In addition,
                                                                                                                              PBGC is leasing space for field benefit administrators. These leases began in 1996
                                                                                                                              and expire in 2017.
 2                      Explain any amounts listed in Section D in detail and reference the note, and/or location, in         2). N/A
                        the agency¿s Performance and Accountability Report (PAR).
 3                      Provide any other relevant information pertaining to this note. At a minimum, describe briefly        3). Commitments represent an obligation to make future payments in exchange for the
                        the significant accounting policies pertaining to this note.                                          receipt of an asset or benefit. Operating leases having initial remaining non-
                                                                                                                              cancellable lease terms in excess of one year shall be disclosed in the financial
                                                                                                                              statements or the related footnotes.




                                                                                                                - 70 -
                                                                                                                                                                                       11/16/2012 14:40:35

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                              Fiscal Year: 2012            Period: SEPTEMBER
  Entity: 1602           PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:    N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.             I = Inactive Line

Tab: Other Notes Info.

      Section: A              Section Name: Assets - Current Year                                   No Data Flag: YES             Line Attributes: Dollars
                                                                                                                                Rounding Method: User-Defined                 Decimal: User-Defined
Line Status Line Description          NB           Cash and other             Fund balance with           Inv in U. S. Treas.   Interest Receivable D Other Federal assets (with      Other Federal assets
                                                monetary assets D                  Treasury D       Sec.(net of prem. & disc)                              earmarked funds) D        (with non-earmarked
                                                                                                                           D                                                                    funds) D
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A

Line Status Line Description          NB         Other non-Federal                 Total assets
                                                         assets D
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A




                                                                                                       - 71 -
                                                                                                                                                                                        11/16/2012 14:40:35

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                               Fiscal Year: 2012            Period: SEPTEMBER
  Entity: 1602           PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:    N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.              I = Inactive Line


      Section: B              Section Name: Assets - Prior Year                                     No Data Flag: YES              Line Attributes: Dollars
                                                                                                                                 Rounding Method: User-Defined                 Decimal: User-Defined
Line Status Line Description          NB           Cash and other             Fund balance with       Inv. in U.S. Treas. Sec.   Interest Receivable D Other Federal assets (with      Other Federal assets
                                                monetary assets D                  Treasury D       (net of prem. & disc.) D                                earmarked funds) D        (with non-earmarked
                                                                                                                                                                                                 funds) D
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A

Line Status Line Description          NB         Other non-Federal                 Total assets
                                                         assets D
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A




                                                                                                      - 72 -
                                                                                                                                                                                                11/16/2012 14:40:35

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                                Fiscal Year: 2012             Period: SEPTEMBER
  Entity: 1602           PENSION BENEFIT GUARANTY CORPORATION                                                                           Agency Notes:       N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.               I = Inactive Line


      Section: C              Section Name: Liabilities and Net Position - Current Year              No Data Flag: YES               Line Attributes: Dollars
                                                                                                                                   Rounding Method: User-Defined                       Decimal: User-Defined
Line Status Line Description          NB           Benefits due and       Other Federal liabilities Other Fed. liabilities (with      Other non-Federal            Total liabilities        Ending net position C
                                                        payable C         (with earmarked funds) non-earmarked funds) C                     liabilities C
                                                                                                  C
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A

Line Status Line Description          NB     Total liabilities and net
                                                            position
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A




                                                                                                         - 73 -
                                                                                                                                                                                                 11/16/2012 14:40:35

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                                 Fiscal Year: 2012             Period: SEPTEMBER
  Entity: 1602           PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:       N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                I = Inactive Line


      Section: D              Section Name: Liabilities and Net Position - Prior Year                 No Data Flag: YES               Line Attributes: Dollars
                                                                                                                                    Rounding Method: User-Defined                       Decimal: User-Defined
Line Status Line Description          NB           Benefits due and        Other Federal liabilities Other Fed. liabilities (with      Other non-Federal            Total liabilities        Ending net position C
                                                        payable C          (with earmarked funds) non-earmarked funds) C                     liabilities C
                                                                                                   C
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A

Line Status Line Description          NB     Total liabilities and net
                                                            position
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A




                                                                                                          - 74 -
                                                                                                                                                                                      11/16/2012 14:40:35

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                             Fiscal Year: 2012             Period: SEPTEMBER
  Entity: 1602           PENSION BENEFIT GUARANTY CORPORATION                                                                        Agency Notes:      N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.            I = Inactive Line


      Section: E              Section Name: Revenue, Financing, Expenses, and Other - Current       No Data Flag: YES            Line Attributes: Dollars
                                            Year                                                                               Rounding Method: User-Defined                Decimal: User-Defined
Line Status Line Description          NB              Net position,     Prior-period adjustment    Investment revenue from    Individual income taxes Unemployment and excise    Other taxes and receipts
                                             beginning of period C                            C      Treasury Securities C    and payroll tax withhold               taxes C                           C
                                                                                                                                                    C
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A

Line Status Line Description          NB        Royalties and other           All other financing Program net cost - public        Program net cost -     Non-program expenses       Net position, end of
                                                special revenue C                    sources C                            D     Intragovernmental D                          D                   period
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A




                                                                                                      - 75 -
                                                                                                                                                                                      11/16/2012 14:40:35

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                             Fiscal Year: 2012             Period: SEPTEMBER
  Entity: 1602           PENSION BENEFIT GUARANTY CORPORATION                                                                        Agency Notes:      N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.            I = Inactive Line


      Section: F              Section Name: Revenue, Financing, Expenses, and Other - Prior         No Data Flag: YES            Line Attributes: Dollars
                                            Year                                                                               Rounding Method: User-Defined                Decimal: User-Defined
Line Status Line Description          NB              Net position,     Prior-period adjustment    Investment revenue from    Individual income taxes Unemployment and excise    Other taxes and receipts
                                             beginning of period C                            C      Treasury Securities C    and payroll tax withhold               taxes C                           C
                                                                                                                                                    C
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A

Line Status Line Description          NB        Royalties and other           All other financing Program net cost - public        Program net cost -     Non-program expenses       Net position, end of
                                                special revenue C                    sources C                            D     Intragovernmental D                          D                   period
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A




                                                                                                      - 76 -
                                                                                                                                                                                 11/16/2012 14:40:35

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                                  Fiscal Year: 2012      Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                             Agency Notes:    N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                 I = Inactive Line


       Section: G             Section Name: Number of Agency Earmarked Funds                               No Data Flag: YES          Line Attributes: Units


Line Status Line Description          NB       2012 - SEPTEMBER                2011 - SEPTEMBER                    Previously Rptd    Line Item Changes
 1              Total number of       N/A
                earmarked funds




Tab: Text Data                          No Data Flag: YES
 Line                Question                                                                                                Answer
 1                   Provide a general description of the individual earmarked funds reported in the Other Notes
                     Info tab (SFFAS No. 27, par. 33). Also describe how the entity accounts for and reports the
                     fund (SFFAS No. 27, par. 23.1).
 2                   State the legal authority for the administrative entity of each fund to use the revenues and
                     other financing sources based on SFFAS No. 27, par. 23.1
 3                   Explain any change in legislation during or subsequent to the reporting period and before the
                     issuance of the financial statements that significantly change the purpose of the fund or that
                     redirect a material portion of the accumulated balance (SFFAS No. 27, par. 23.3).
 4                   Provide the sources of revenue and other financing for amounts reported in columns 3
                     through 8 of Sections E and F in the Other Notes Info tab (SFFAS No. 27, par. 23.2).
 5                   Provide any other relevant information pertaining to this note, including explanation for prior-
                     period adjustments, if any. At a minimum, describe briefly the significant accounting policies
                     pertaining to this note.




                                                                                                              - 77 -
                                                                                                                                                                             11/16/2012 14:40:35

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 25            Stewardship Land                                                                                             Fiscal Year: 2012      Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:    N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.             I = Inactive Line


       Section: A             Section Name: Stewardship Land (SFFAS No. 29, par. 40d)                   No Data Flag: YES         Line Attributes: Units


Line Status Line Description         NB       2012 - SEPTEMBER               2011 - SEPTEMBER                  Previously Rptd    Line Item Changes
 1              Public Land          N/A
 2              National Forest      N/A
                System
 3              National Wildlife    N/A
                Refuge System
 4              National Park        N/A
                System
 5              Withdrawn public     N/A
                land
 6              Mission Land         N/A
 7              Water, power,and     N/A
                recreation
 8              Geographic           N/A
                management areas
 9              National fish        N/A
                hatcheries
10              Conservation areas   N/A
11          National marine          N/A
            monuments
12          All other                N/A
Tab: Text Data                         No Data Flag: YES
 Line                Question                                                                                            Answer
 1                   Describe the predominant uses of the stewardship land (SFFAS 29, par. 40c).
 2                   Provide the condition of the stewardship land (SFFAS 29, par. 41).
 3                   Provide a brief statement explainng how the stewardship land relates to the mission of the
                     agency (SFFAS No. 29, par. 40a).
 4                   Provide a brief description of the agency's stewardship policies for stewardsip land (SFFAS
                     No. 29, par. 40b).
 5                   Provide any other information relevant information pertaining to this note. At a minimum,
                     describe briefly the significant accounting policies pertaining to this note.




                                                                                                           - 78 -
                                                                                                                                                                             11/16/2012 14:40:35

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 26          Heritage Assets                                                                                               Fiscal Year: 2012       Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:     N/A

  Status: Complete                         The accompanying notes are an integral part of these financial statements.             I = Inactive Line


       Section: A            Section Name: Collection Type Heritage Assets (SFFAS No. 29, par.           No Data Flag: YES        Line Attributes: Units
                                           25d)
Line Status Line Description         NB        Physical units at the       Physical units at the end
                                              end of the fiscal year        of the fiscal year 2011
                                                             2012
 1                                   N/A
 2                                   N/A
 3                                   N/A
 4                                   N/A
 5                                   N/A


       Section: B            Section Name: Non-Collection Type Heritage Assets (SFFAS No.                No Data Flag: YES        Line Attributes: Units
                                           29, par. 25d)
Line Status Line Description         NB        Physical units at the       Physical units at the end
                                              end of the fiscal year        of the fiscal year 2011
                                                             2012
 1                                   N/A
 2                                   N/A
 3                                   N/A
 4                                   N/A
 5                                   N/A

Tab: Text Data                         No Data Flag: YES
 Line               Question                                                                                             Answer
 1                  Provide a brief statement explaining how heritage assets relate to the mission of the agency
                    (SFFAS No. 29, par. 25a).
 2                  Provide a brief description of the agency's stewardship policies for each major category of
                    the heritage assets (SFFAS No. 29, par. 25b).
 3                  Provide a brief description of the condition of each category of the heritage assets (SFFAS
                    29, par. 26).
 4                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                    the significant accounting policies pertaining to this note.




                                                                                                            - 79 -
                                                                                                                                                                                            11/16/2012 14:40:35

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 27        Fiduciary Activities                                                                                                Fiscal Year: 2012               Period: SEPTEMBER
     Entity: 1602    PENSION BENEFIT GUARANTY CORPORATION                                                                                Agency Notes:        N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Other Notes Info.

       Section: A         Section Name: Schedule of Fiduciary Net Assets - Deposit Funds -          No Data Flag: YES               Line Attributes: Dollars
                                        Current Year                                                                              Rounding Method: Millions                         Decimal: Zero
Line Status Line Description       NB        Inv. in Fed. debt secs-          Fid. FBWT (USSGL         Interest Receivable on    Invest. in non-Fed. debt      Cash & cash equivalents         Other assets D
                                              net of unam. prems &         account 1010 only) D       Fed. debt securities D      secs.(& relaed int. rec.)                          D
                                                           discs. D                                                                                      D
 8                                N/A
 9                                N/A
10                                N/A
11                                N/A
12                                N/A

Line Status Line Description       NB        Liability due & payable          Other liabilities C   Total fiduciary net assets
                                                 to beneficiaries C
 8                                N/A
 9                                N/A
10                                N/A
11                                N/A
12                                N/A
       Section: B         Section Name: Schedule of Fiduciary Net Assets - Deposit Funds -          No Data Flag: YES               Line Attributes: Dollars
                                        Prior Year                                                                                Rounding Method: Millions                         Decimal: Zero
Line Status Line Description       NB        Inv. in Fed. debt secs-          Fid. FBWT (USSGL         Interest Receivable on    Invest. in non-Fed. debt      Cash & cash equivalents         Other assets D
                                              net of unam. prems &         account 1010 only) D       Fed. debt securities D      secs.(& relaed int. rec.)                          D
                                                           discs. D                                                                                      D
 8                                N/A
 9                                N/A
10                                N/A
11                                N/A
12                                N/A

Line Status Line Description       NB        Liability due & payable          Other liabilities C   Total fiduciary net assets
                                                 to beneficiaries C
 8                                N/A
 9                                N/A
10                                N/A
11                                N/A
12                                N/A



                                                                                                       - 80 -
                                                                                                                                                                                            11/16/2012 14:40:35

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 27        Fiduciary Activities                                                                                                Fiscal Year: 2012               Period: SEPTEMBER
     Entity: 1602    PENSION BENEFIT GUARANTY CORPORATION                                                                                Agency Notes:        N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                I = Inactive Line


       Section: C         Section Name: Schedule of Fiduciary Net Assets - All Other Agency         No Data Flag: YES               Line Attributes: Dollars
                                        Funds- Current Year                                                                       Rounding Method: Millions                         Decimal: Zero
Line Status Line Description       NB        Inv. in Fed. debt secs-          Fid. FBWT (USSGL         Interest Receivable on    Invest. in non-Fed. debt      Cash & cash equivalents         Other assets D
                                              net of unam. prems &         account 1010 only) D       Fed. debt securities D      secs.(& relaed int. rec.)                          D
                                                           discs. D                                                                                      D
 3                                N/A
 4                                N/A
 5                                N/A
 6                                N/A
 7                                N/A

Line Status Line Description       NB        Liability due & payable          Other liabilities C   Total fiduciary net assets
                                                 to beneficiaries C
 3                                N/A
 4                                N/A
 5                                N/A
 6                                N/A
 7                                N/A
       Section: D         Section Name: Schedule of Fiduciary Net Assets - All Other Agency         No Data Flag: YES               Line Attributes: Dollars
                                        Funds - Prior Year                                                                        Rounding Method: Millions                         Decimal: Zero
Line Status Line Description       NB        Inv. in Fed. debt secs-          Fid. FBWT (USSGL         Interest Receivable on    Invest. in non-Fed. debt      Cash & cash equivalents         Other assets D
                                              net of unam. prems &         account 1010 only) D       Fed. debt securities D      secs.(& relaed int. rec.)                          D
                                                           discs. D                                                                                      D
 3                                N/A
 4                                N/A
 5                                N/A
 6                                N/A
 7                                N/A

Line Status Line Description       NB        Liability due & payable          Other liabilities C   Total fiduciary net assets
                                                 to beneficiaries C
 3                                N/A
 4                                N/A
 5                                N/A
 6                                N/A
 7                                N/A




                                                                                                       - 81 -
                                                                                                                                                                                11/16/2012 14:40:35

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

      Note: 27          Fiduciary Activities                                                                                            Fiscal Year: 2012       Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:     N/A

  Status: Complete                             The accompanying notes are an integral part of these financial statements.            I = Inactive Line


       Section: E            Section Name: Number of Agency Fiduciary Activities                            No Data Flag: YES        Line Attributes: Units


Line Status Line Description          NB           CY Total number of             PY Total number of
                                                   fiduciary funds- all    fiduciary funds- all funds
                                                               funds
 1                                   N/A
 2                                   N/A
 3                                   N/A
 4                                   N/A



Tab: Text Data                          No Data Flag: YES
 Line               Question                                                                                                Answer
 1                  Describe the fiduciary relationship, for example, the applicable legal authority, the objectives
                    of the fiduciary activity, and a general description of the beneficial owners or class of owners
                    of each fiduciary fund (SFFAS No. 31, par. 18(a)).
 2                  Provide information on any significant changes in fiduciary net assets from the prior period
                    (SFFAS No. 31, par. 18(c)).
 3                  Provide the TAS for all funds with fiduciary activities.
 4                  For any cash included in the Schedules of Fiduciary Net Assets, indicate if the cash is
                    represented by balances on deposit with either the U.S. Treasury or with a commercial
                    banking institution (SSFAS No. 31, par. 12).
 5                  Provide a description of any cash equivalents included in the Schedules of Fiduciary Net
                    Assets.
 6                  If separate audited financial statements are issued for an individual fiduciary activity with a
                    fiscal yearend other than September 30, indicate the fiduciary activity's fiscal year (SFFAS
                    No. 31, par. 18(e)).
 7                  If separate audited financial statements are issued for an individual fiduciary activity, disclose
                    the basis of accounting used and the auditor's opinion on the current or most recent financial
                    statements. If the auditor's opinion was not unqualified, disclose the reason(s) stated by the
                    auditors and refer the reader to the audit opinion for further information (SFFAS No. 31, par.
                    22(a)).
 8                  If separate audited financial statements are issued for an individual fiduciary activity, provide
                    information on how the reader can obtain a copy of the financial statements and the audit
                    opinion thereon (SFFAS No. 31, par. 22(b)).
 9                  If more than one agency is responsible for administering a fiduciary activity, and the separate
                    portions of the activity can be clearly identified with another responsible agency, identify the
                    other agency(ies) involved in managing the activity (SFFAS No.31.par.19).
 10                 Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                    the significant accounting policies pertaining to this note.




                                                                                                               - 82 -
                                                                                                                                                                                    11/16/2012 14:40:35

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

     Note: 28A         Financial and Housing Market Stabilization - Investment in Government Sponsored Enterprises (GSE)           Fiscal Year: 2012             Period: SEPTEMBER
   Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                        Agency Notes:    N/A

  Status: Complete                       The accompanying notes are an integral part of these financial statements.             I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                         NB    Account    2012 - SEPTEMBER         2011 - SEPTEMBER
                                                                                 Type
Investment in Government sponsored enterprises (GSEs)                    D         A                           0                   0
                                                                              Variance:                        0                   0         Rounding Method: Millions         Decimal: Zero
Line Status Line Description        CY Gross investment as of      CY Cumulative valuation         CY September 30 fair PY Gross investment as of   PY Cumulative valuation PY September 30 fair value
                                           September 30                   (gain/loss)                       value              September 30                (gain/loss)
 1          Fannie Mae senior
            preferred stock
 2          Freddie Mac senior
            preferred stock
 3          Fannie Mae warrants
            common stock
 4          Freddie Mac warrants
            common stock
 5
 6
 7
 8          Total GSE investment
            Total




                                                                                                      - 83 -
                                                                                                                                                                            11/16/2012 14:40:35

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 28A          Financial and Housing Market Stabilization - Investment in Government Sponsored Enterprises (GSE)           Fiscal Year: 2012      Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                        Agency Notes:    N/A

  Status: Complete                            The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Other Related Information                                 No Data Flag: YES         Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions             Decimal: Zero
Line Status Line Description          NB        2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd    Line Item Changes
 1             Revenue               Credit
               recognized from
               acquisition of
               preferred stocks
               and warrants and
               valuation
               (gain)/loss on GSE
               preferred stocks
 2             Revenue               Credit
               recognized from
               dividends and
               periodic
               commitment fees
 3        I    The dollar amount     Debit
               of liquidation
               preference value
               per share of senior
               preferred stock
 4        I    Amount of agency      Debit
               MBS purchase for
               Fannie Mae and
               Freddie Mac
 5        I    Amount of agency      Debit
               debt purchased for
               Fannie Mae and
               Freddie Mac
       Section: B             Section Name: Other Related Information (in Percentages)                No Data Flag: YES         Line Attributes: Percent


Line Status Line Description          NB        2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd    Line Item Changes
 1             Nominal cost           N/A
               percentage of
               common stock on a
               fully diluted basis
 2             Rate of dividends      N/A




                                                                                                        - 84 -
                                                                                                                                                                               11/16/2012 14:40:35

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 28A           Financial and Housing Market Stabilization - Investment in Government Sponsored Enterprises (GSE)              Fiscal Year: 2012      Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                           Agency Notes:    N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.               I = Inactive Line


       Section: C             Section Name: Other Related Information in Units                            No Data Flag: YES         Line Attributes: Units


Line Status Line Description          NB      2012 - SEPTEMBER                 2011 - SEPTEMBER                  Previously Rptd    Line Item Changes
 1             Number of non-         N/A
               voting senior
               preferred stock -
               shares




Tab: Text Data                          No Data Flag: YES
 Line                Question                                                                                              Answer
 1                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                     the significant
                     accounting policies pertaining to this note.




                                                                                                             - 85 -
                                                                                                                                                                                       11/16/2012 14:40:35

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 28B           Financial and housing Market Stabilization - Liabilities to Government Sponsored Enterprises (GSE)            Fiscal Year: 2012               Period: SEPTEMBER
   Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:      N/A

  Status: Complete                         The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                            NB    Account      2012 - SEPTEMBER        2011 - SEPTEMBER
                                                                                    Type
Liabilities to Government Sponsored Enterprises                              C        L                            0                  0
                                                                                 Variance:                         0                  0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description            2012 - SEPTEMBER              2011 - SEPTEMBER                  Previously Rptd        Line Item Changes
 1           GSE accrued liability
 2           GSE contingent
             liability
 3      I    Private entities entered
             liability
 4
 5
 6
 7           All other liabilities
             Total




                                                                                                          - 86 -
                                                                                                                                                                                 11/16/2012 14:40:35

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 28B         Financial and housing Market Stabilization - Liabilities to Government Sponsored Enterprises (GSE)                Fiscal Year: 2012      Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                             Agency Notes:    N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Other Notes Info.

       Section: A            Section Name: Other Related Information                                     No Data Flag: YES           Line Attributes: Dollars
                                                                                                                                   Rounding Method: Millions             Decimal: Zero
Line Status Line Description         NB       2012 - SEPTEMBER                2011 - SEPTEMBER                  Previously Rptd     Line Item Changes
 1             Actual payment       Debit
               made to the GSE




Tab: Text Data                         No Data Flag: YES
 Line               Question                                                                                              Answer
 1                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                    the significant accounting policies pertaining to this note.




                                                                                                            - 87 -
                                                                                                                                                                                               11/16/2012 14:40:35

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 29A           Derivative Assets                                                                                              Fiscal Year: 2012                Period: SEPTEMBER
   Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                           Agency Notes:        Note 3

  Status: Complete                           The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                           NB    Account     2012 - SEPTEMBER       2011 - SEPTEMBER
                                                                                   Type
Derivative Assets                                                           D        A                          5                    109
                                                                                Variance:                       0                      0            Rounding Method: Millions             Decimal: Zero
Line Status Line Description             2012 - SEPTEMBER            2011 - SEPTEMBER                Previously Rptd            Line Item Changes
 1            Interest rate contracts                           12                          -15                           -15                            0
 2            Foreign exchange                                 -27                           27                            27                            0
              contracts
 3            Equity contracts
 4            Commodity contracts
 5            Credit contracts                                  14                            6                             6                            0
 6            All other contracts                                6                           91                            91                            0
              Total                                              5                          109                           109                            0
Threshold

 Line Description                                                Question                                                             Answer
 Line Item Notes - Interest rate contracts (2012 -               Please provide explanations for any amounts that have               The change is attributable to PBGC's investment activity and market
 SEPTEMBER)                                                      changed by 10% or more and or greater than 500,000 between          fluctuations.
                                                                 the current fiscal yearand prior fiscal year (Unaudited)
 Line Item Notes - Credit contracts (2012 - SEPTEMBER)           Please provide explanations for any amounts that have               The change is attributable to PBGC's investment activity and market
                                                                 changed by 10% or more and or greater than 500,000 between          fluctuations.
                                                                 the current fiscal yearand prior fiscal year (Unaudited)

 Line Item Notes - All other contracts (2012 - SEPTEMBER)        Please provide explanations for any amounts that have               The change is attributable to PBGC's investment activity and market
                                                                 changed by 10% or more and or greater than 500,000 between          fluctuations.
                                                                 the current fiscal yearand prior fiscal year (Unaudited)




                                                                                                       - 88 -
                                                                                                                                                                                             11/16/2012 14:40:35

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 29A           Derivative Assets                                                                                            Fiscal Year: 2012               Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:        Note 3

  Status: Complete                           The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Hedge Derivative Assets                                   No Data Flag: YES           Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                          Decimal: Zero
Line Status Line Description          NB           CY Cost Basis D       CY Fair Value Adjustment       CY Fair Market Value        PY Cost Basis D        PY Fair Value Adjustment      PY Fair Market Value
                                                                                               D                                                                                 D
 1             Interest rate          N/A
               contracts
 2             Foreign exchange       N/A
               contracts
 3             Equity contracts       N/A
 4             Commodity              N/A
               contracts
 5             Credit contracts       N/A
 6             All other contracts    N/A
 7             Total hedge            N/A
               derivative contracts
       Section: B             Section Name: Non-Hedge Derivative Assets                                                           Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                          Decimal: Zero
Line Status Line Description          NB           CY Cost Basis D       CY Fair Value Adjustment       CY Fair Market Value        PY Cost Basis D        PY Fair Value Adjustment      PY Fair Market Value
                                                                                               D                                                                                 D
 1             Interest rate          N/A                            0                          12                         12                          0                        -15                         -15
               contracts
 2             Foreign exchange       N/A                            0                         -27                        -27                          0                         27                          27
               contracts
 3             Equity contracts       N/A
 4             Commodity              N/A
               contracts
 5             Credit contracts       N/A                            0                          14                         14                          0                          6                             6
 6             All other contracts    N/A                            0                           6                          6                          0                         91                          91
 7             Total non-hedge        N/A                            0                           5                          5                          0                        109                         109
               derivative contracts
Threshold
 Line Description                                                Question                                                          Answer
 Other Notes Info - Interest rate contracts (CY Fair Value       Please provide explanations for any amounts that have             The change is attributable to PBGC's investment activity and market
 Adjustment)                                                     changed by 10% or more and or greater than 500,000                fluctuations.
                                                                 between the current fiscal yearand prior fiscal year
                                                                 (Unaudited)




                                                                                                         - 89 -
                                                                                                                                                                                            11/16/2012 14:40:35

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 29A           Derivative Assets                                                                                           Fiscal Year: 2012               Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                        Agency Notes:     Note 3

  Status: Complete                           The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: B             Section Name: Non-Hedge Derivative Assets                                                          Line Attributes: Dollars
                                                                                                                               Rounding Method: Millions                          Decimal: Zero
Threshold
 Line Description                                                Question                                                         Answer
 Other Notes Info - Interest rate contracts (CY Fair Market      Please provide explanations for any amounts that have            The change is attributable to PBGC's investment activity and market
 Value)                                                          changed by 10% or more and or greater than 500,000               fluctuations.
                                                                 between the current fiscal yearand prior fiscal year
                                                                 (Unaudited)

 Other Notes Info - Credit contracts (CY Fair Value              Please provide explanations for any amounts that have            The change is attributable to PBGC's investment activity and market
 Adjustment)                                                     changed by 10% or more and or greater than 500,000               fluctuations.
                                                                 between the current fiscal yearand prior fiscal year
                                                                 (Unaudited)

 Other Notes Info - Credit contracts (CY Fair Market Value)      Please provide explanations for any amounts that have            The change is attributable to PBGC's investment activity and market
                                                                 changed by 10% or more and or greater than 500,000               fluctuations.
                                                                 between the current fiscal yearand prior fiscal year
                                                                 (Unaudited)

 Other Notes Info - All other contracts (CY Fair Value           Please provide explanations for any amounts that have            The change is attributable to PBGC's investment activity and market
 Adjustment)                                                     changed by 10% or more and or greater than 500,000               fluctuations.
                                                                 between the current fiscal yearand prior fiscal year
                                                                 (Unaudited)

 Other Notes Info - All other contracts (CY Fair Market Value)   Please provide explanations for any amounts that have            The change is attributable to PBGC's investment activity and market
                                                                 changed by 10% or more and or greater than 500,000               fluctuations.
                                                                 between the current fiscal yearand prior fiscal year
                                                                 (Unaudited)

       Section: C             Section Name: Gain/Loss on Derivative Assets Designated as              No Data Flag: YES          Line Attributes: Dollars
                                            Hedging Instruments                                                                Rounding Method: Millions                          Decimal: Zero
Line Status Line Description          NB       2012 - SEPTEMBER             2011 - SEPTEMBER                 Previously Rptd    Line Item Changes
 1             Interest rate         Debit
               contracts
 2             Foreign exchange      Debit
               contracts
 3             Equity contracts      Debit
 4             Commodity             Debit
               contracts
 5             Credit contracts      Debit
 6             All other contracts   Debit



                                                                                                         - 90 -
                                                                                                                                                                                      11/16/2012 14:40:35

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 29A           Derivative Assets                                                                                             Fiscal Year: 2012             Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:        Note 3

  Status: Complete                            The accompanying notes are an integral part of these financial statements.            I = Inactive Line


       Section: C             Section Name: Gain/Loss on Derivative Assets Designated as              No Data Flag: YES            Line Attributes: Dollars
                                            Hedging Instruments                                                                  Rounding Method: Millions                    Decimal: Zero
Line Status Line Description           NB       2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd       Line Item Changes
 7             Total reclassified     N/A
               derivative gain/loss




       Section: D             Section Name: Gain/Loss on Derivative Assets Not Designated as                                       Line Attributes: Dollars
                                            Hedging Instruments                                                                  Rounding Method: Millions                    Decimal: Zero
Line Status Line Description           NB       2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd       Line Item Changes
 1             Interest rate          Debit                          14
               contracts
 2             Foreign exchange       Debit                           0                         41                          41                          0
               contracts
 3             Equity contracts       Debit
 4             Commodity              Debit
               contracts
 5             Credit contracts       Debit                          38                        -12                         -12                          0
 6             All other contracts    Debit                           9                         35                          35                          0
 7             Total recognized       N/A                            61                         64                          64                          0
               derivative gain/loss




                                                                                                        - 91 -
                                                                                                                                                                                                     11/16/2012 14:40:35

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 29A         Derivative Assets                                                                                                  Fiscal Year: 2012                   Period: SEPTEMBER
    Entity: 1602      PENSION BENEFIT GUARANTY CORPORATION                                                                               Agency Notes:        Note 3

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                  I = Inactive Line

Tab: Text Data
Line               Question                                                                                           Answer
1                  Provide disclosures for the objectives for holding or issuing derivatives, the context needed      1). The use of derivatives by PBGC investment managers is restricted in-so-far as
                   to                                                                                                 portfolios cannot utilize derivatives to create leverage in the portfolios for which they are
                   understand these objectives, as well as strategies for achieving these objectives (FASB ASC        responsible. That is, the portfolios shall not utilize derivatives to leverage the portfolio
                   815-                                                                                               beyond the maximum risk level associated with a fully invested portfolio of physical
                   10-50-1A).                                                                                         securities.

                                                                                                                      Derivative instruments are used (1) to mitigate risk (e.g., adjust duration or currency
                                                                                                                      exposures), (2) to enhance investment returns, and/or (3) as liquid and cost-efficient
                                                                                                                      substitutes for positions in physical securities.
2                  Provide disclosures for the volume of derivative activity (FASB ASC 815-10-50-1B).                 2). The volume of derivative activity is a function of PBGC's Investment Managers
                                                                                                                      investment strategies. Notional amounts for derivative assets are as follows: Futures
                                                                                                                      $1,323 million; Interest rate swaps $1,904 million; Credit default swaps $2,180 million;
                                                                                                                      Options contracts $146 million; and Forwards - foreign exchange $4,650 million.
3                  Provide disclosures on the location of fair value amounts of derivate instruments (both            3). Futures in a Derivative Asset position is disclosed in Derivative contracts
                   assets and                                                                                         (receivable) on PBGC's Balance Sheet. Both futures and options contracts in a
                   liabilities, respectively) on the Balance Sheet (FASB ASC 815-10-50-4A).                           Derivative Liability position are disclosed in Derivative contracts (payable) on PBGC's
                                                                                                                      balance sheet. Interest rate swaps, options contracts, and forwards-foreign exchange
                                                                                                                      are disclosed on PBGC's Income Statement under Investments-fixed.
4                  Provide disclosures on the location of gains or losses recognized into earnings (FASB ASC          4). The gains and losses for futures, interest rate swaps, credit default swaps, options
                   815-                                                                                               purchased (long), options written (short), and forwards-foreign exchange are all
                   10-50-4A)                                                                                          reported in Investment income-fixed.
5                  Provide of the effective portion of gains and losses, by contract type, on derivative              5). PBGC does not currently choose to adopt hedge accounting (i.e., PBGC derivatives
                   instruments classified as either cashflow or net investment hedges that are being reclassified     are "non-designated"), so we have no hedge accounting requirements and would
                   into earnings during the current period (FASB ASC 815-                                             recognize gain or loss in earnings in the period of change.
                   10-50-4C).
6                  Provide the effective portion of gains and losses, by contract type, on derivative instruments     6). PBGC does not currently choose to adopt hedge accounting (i.e., PBGC derivatives
                   classified as either cashflow or net investment hedges that are recognized in other                are "non-designated"), so we have no hedge accounting requirements and would
                   comprehensive                                                                                      recognize gain or loss in earnings in the period of change.
                   income during the current period (FASB ASC 815-10-50-4C).
7                  Provide the portion of gains and losses, by contract type, on derivative instruments classified    7). PBGC does not currently choose to adopt hedge accounting (i.e., PBGC derivatives
                   as                                                                                                 are "non-designated"), so we have no hedge accounting requirements and would
                   either cashflow or net investment hedges that represent the amount of the hedges                   recognize gain or loss in earnings in the period of change.
                   ineffectiveness
                   or the amount, if any, excluded from the assessment of the hedge effectiveness (FASB ASC
                   815-
                   10-50-4C).
8                  Provide a description of the nature of trading activities for no-hedge designated derivative       8). These derivative instruments are not designated as accounting hedges consistent
                   instruments and related risks, including how the entity manages those risks. Explain the use       with FASB Accounting Standards Codification Section 815, Derivatives and Hedging,
                   of                                                                                                 which requires an active designation as a prerequisite for any hedge accounting.
                   any alternative disclosures for trading activities, if applicable (FASB ASC 815-10-50-4F).         PBGC utilizes a no hedging designation which results in the gain or loss on a derivative
                                                                                                                      instrument to be recognized currently in earnings. Derivatives are accounted for at fair
                                                                                                                      market value in accordance with the FASB Accounting Standards Codification Section
                                                                                                                      815, Derivatives and Hedging. Derivatives are marked to market with changes in value
                                                                                                                      reported as a component of financial income on the Statements of Operations and


                                                                                                             - 92 -
                                                                                                                                                                                                   11/16/2012 14:40:35

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 29A        Derivative Assets                                                                                                 Fiscal Year: 2012                  Period: SEPTEMBER
    Entity: 1602      PENSION BENEFIT GUARANTY CORPORATION                                                                               Agency Notes:      Note 3

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Text Data
Line               Question                                                                                           Answer
                                                                                                                      Changes in Net Position. PBGC presents all derivatives at fair value on the Statements
                                                                                                                      of Financial Condition.
9                  Provide a description on the existence and nature of credit-risk related contingent features       9). PBGC does not have any credit-risk related features. The counterparties to
                   and                                                                                                PBGC's non-exchange-traded derivative contracts are major financial institutions
                   the circumstances in which the features could be triggered in derivative instruments that are      subject to ISDA (International Swaps and Derivatives Association, Inc.) master
                   in a                                                                                               agreements. PBGC monitors its counterparty risk and exchanges collateral under most
                   net liability position at the end of the reporting period. Include disclosures related to posted   contracts to further support performance by its counterparties.
                   collateral, as well as additional collateral required and fair value of assets needed to settle
                   the
                   instrument immediately if the credit-risk contingent features were triggered (FASB ASC
                   815-10-
                   50-4H).
10                 Provide disclosures of the entity's accounting policy to offset or not offset derivative asset     10). The counterparties to PBGC's non-exchange-traded derivative contracts are
                   and                                                                                                major financial institutions subject to ISDA (International Swaps and Derivatives
                   liability positions on the Balance Sheet under a master netting agreement. Describe the            Association, Inc.) master agreements. PBGC monitors its counterparty risk and
                   accounting                                                                                         exchanges collateral under most contracts to further support performance by its
                   policy to offset cash collateral positions arising from derivative instrument(s) under a master    counterparties.
                   netting agreement against net derivative positions (FASB ASC 815-10-50-7).
11                 Disclose amounts recognized for the right to reclaim cash collateral or the obligation to return   11). PBGC receives cash and non-cash collateral for loaned securities under the
                   cash collateral under master netting arrangements (FASB ASC 815-10-50-8).                          securities lending program. The cash collateral amounts are recorded as assets and
                                                                                                                      are offset with a corresponding liability. Transferors of financial assets in exchange for
                                                                                                                      cash collateral cannot be distinguished from borrowing cash. Therefore, all cash
                                                                                                                      collateral is recorded as an asset by the party receiving it (PBGC as the secured party),
                                                                                                                      with a corresponding liability for the obligation to return it to the payer (obligor-
                                                                                                                      custodian bank).

                                                                                                                      The non-cash collateral is not recorded as an asset or a liability since PBGC does not
                                                                                                                      have the right by contract or custom to sell or repledge the collateral.
12                 Provide any other relevant information pertaining to this note. At a minimum, describe briefly     12). PBGC's derivative financial instruments are recorded at fair value and are included
                   the significant accounting policies pertaining to this note.                                       on the Statements of Financial Condition as investments and derivative contracts.
                                                                                                                      Derivative contracts include futures contracts in a receivable position, futures contracts
                                                                                                                      in a payable position, interest rate swaps, options purchased (long), options written
                                                                                                                      (short), and foreign exchange forward contracts.




                                                                                                            - 93 -
                                                                                                                                                                                              11/16/2012 14:40:35

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 29B           Derivative Liabilities                                                                                        Fiscal Year: 2012                Period: SEPTEMBER
   Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:        Note 3

  Status: Complete                            The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                            NB    Account     2012 - SEPTEMBER        2011 - SEPTEMBER
                                                                                    Type
Derivative Liabilities                                                       C        L                          21                   6
                                                                                 Variance:                        0                   0            Rounding Method: Millions             Decimal: Zero
Line Status Line Description              2012 - SEPTEMBER            2011 - SEPTEMBER                Previously Rptd          Line Item Changes
 1            Interest rate contracts
 2            Foreign exchange
              contracts
 3            Equity contracts
 4            Commodity contracts
 5            Credit contracts
 6            All other contracts                                21                           6                            6                            0
              Total                                              21                           6                            6                            0
Threshold

 Line Description                                                 Question                                                           Answer
 Line Item Notes - All other contracts (2012 - SEPTEMBER)         Please provide explanations for any amounts that have             The change is attributable to PBGC's investment activity and market
                                                                  changed by 10% or more and or greater than 500,000 between        fluctuations.
                                                                  the current fiscal yearand prior fiscal year (Unaudited)




                                                                                                        - 94 -
                                                                                                                                                                                              11/16/2012 14:40:35

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 29B           Derivative Liabilities                                                                                        Fiscal Year: 2012               Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:        Note 3

  Status: Complete                            The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Hedge Derivative Liabilities                               No Data Flag: YES           Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                          Decimal: Zero
Line Status Line Description           NB           CY Cost Basis C       CY Fair Value Adjustment       CY Fair Market Value        PY Cost Basis C        PY Fair Value Adjustment              PY Fair Value
                                                                                                C                                                                                 C
 1             Interest rate           N/A
               contracts
 2             Foreign exchange        N/A
               contracts
 3             Equity contracts        N/A
 4             Commodity               N/A
               contracts
 5             Credit contracts        N/A
 6             All other contracts     N/A
 7             Total hedge             N/A
               derivative amounts
       Section: B             Section Name: Non-Hedge Derivative Liabilities                                                       Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                          Decimal: Zero
Line Status Line Description           NB           CY Cost Basis C       CY Fair Value Adjustment       CY Fair Market Value        PY Cost Basis C        PY Fair Value Adjustment      PY Fair Market Value
                                                                                                C                                                                                 C
 1             Interest rate           N/A
               contracts
 2             Foreign exchange        N/A
               contracts
 3             Equity contracts        N/A
 4             Commodity               N/A
               contracts
 5             Credit contracts        N/A
 6             All other contracts     N/A                            0                          21                        -21                          0                          6                          -6
 7             Total non-hedge         N/A                            0                         -21                        -21                          0                         -6                          -6
               derivative amounts
Threshold
 Line Description                                                 Question                                                          Answer
 Other Notes Info - All other contracts (CY Fair Value            Please provide explanations for any amounts that have             The change is attributable to PBGC's investment activity and market
 Adjustment)                                                      changed by 10% or more and or greater than 500,000                fluctuations.
                                                                  between the current fiscal yearand prior fiscal year
                                                                  (Unaudited)




                                                                                                          - 95 -
                                                                                                                                                                                                11/16/2012 14:40:35

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 29B           Derivative Liabilities                                                                                          Fiscal Year: 2012               Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:        Note 3

  Status: Complete                             The accompanying notes are an integral part of these financial statements.             I = Inactive Line


       Section: C             Section Name: Gain/Loss on Derivative Liabilities Designated as           No Data Flag: YES            Line Attributes: Dollars
                                            Hedging Instruments                                                                    Rounding Method: Millions                          Decimal: Zero
Line Status Line Description           NB         2012 - SEPTEMBER            2011 - SEPTEMBER                 Previously Rptd      Line Item Changes
 1             Interest rate          Credit
               contracts
 2             Foreign exchange       Credit
               contracts
 3             Equity contracts       Credit
 4             Commodity              Credit
               contracts
 5             Credit contracts       Credit
 6             All Other contracts    Credit
 7             Total reclassified      N/A
               derivative gain/loss
       Section: D             Section Name: Gain/Loss on Derivative Liabilities Not Designated as                                    Line Attributes: Dollars
                                            Hedging Instruments                                                                    Rounding Method: Millions                          Decimal: Zero
Line Status Line Description           NB         2012 - SEPTEMBER            2011 - SEPTEMBER                 Previously Rptd      Line Item Changes
 1             Interest rate          Credit
               contracts
 2             Foreign exchange       Credit
               contracts
 3             Equity contracts       Credit
 4             Commodity              Credit
               contracts
 5             Credit contracts       Credit
 6             All other contracts    Credit                          73                         179                         179                          0
 7             Total recognized        N/A                           -73                       -179                         -179                          0
               derivative gain/loss
Threshold
 Line Description                                                  Question                                                           Answer
 Other Notes Info - All other contracts (2012 - SEPTEMBER)         Please provide explanations for any amounts that have              The change is attributable to PBGC's investment activity and market
                                                                   changed by 10% or more and or greater than 500,000                 fluctuations.
                                                                   between the current fiscal yearand prior fiscal year
                                                                   (Unaudited)




                                                                                                           - 96 -
                                                                                                                                                                                                     11/16/2012 14:40:35

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 29B         Derivative Liabilities                                                                                             Fiscal Year: 2012                   Period: SEPTEMBER
    Entity: 1602      PENSION BENEFIT GUARANTY CORPORATION                                                                               Agency Notes:        Note 3

 Status: Complete                          The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Text Data
Line               Question                                                                                           Answer
1                  Provide disclosures for the objectives for holding or issuing derivatives, the context needed      1). The use of derivatives by PBGC investment managers is restricted in-so-far as
                   to                                                                                                 portfolios cannot utilize derivatives to create leverage in the portfolios for which they are
                   understand these objectives, as well as strategies for achieving these objectives (FASB ASC        responsible. That is, the portfolios shall not utilize derivatives to leverage the portfolio
                   815-                                                                                               beyond the maximum risk level associated with a fully invested portfolio of physical
                   10-50-1A).                                                                                         securities.
                                                                                                                      Derivative instruments are used (1) to mitigate risk (e.g., adjust duration or currency
                                                                                                                      exposures), (2) to enhance investment returns, and/or (3) as liquid and cost-efficient
                                                                                                                      substitutes for positions in physical securities.

2                  Provide disclosures for the volume of derivative activity (FASB ASC 815-10-50-1B).                 2). The volume of derivative activity is a function of PBGC's Investment Managers
                                                                                                                      investment strategies. Notional amounts for Derivative Liability are as follows: Futures
                                                                                                                      $2,283 million and Option contracts $1,042 million.
3                  Provide disclosures on the location of fair value amounts of derivate instruments (both            3). Futures in a Derivative Asset position is disclosed in Derivative contracts
                   assets and                                                                                         (receivable) on PBGC's Balance Sheet. Both futures and options contracts in a
                   liabilities, respectively) on the Balance Sheet (FASB ASC Topic 815-10-50-4A).                     Derivative Liability position are disclosed in Derivative contracts (payable) on PBGC's
                                                                                                                      balance sheet. Interest rate swaps, options contracts, and forwards-foreign exchange
                                                                                                                      are disclosed on PBGC's Income Statement under Investments-fixed.
4                  Provide disclosures on the location of gains or losses recognized into earnings (FASB ASC          4). The gains and losses for futures, interest rate swaps, credit default swaps, options
                   815-10-50-4A).                                                                                     purchased (long), options written (short), and forwards-foreign exchange are all
                                                                                                                      reported in Investment income-fixed.
5                  Provide the effective portion of gains and losses, by contract type, on derivative instruments     5). PBGC does not currently choose to adopt hedge accounting (i.e., PBGC derivatives
                   classified as either cashflow or net investment hedges that are being reclassified into            are "non-designated"), so we have no hedge accounting requirements and would
                   earnings                                                                                           recognize gain or loss in earnings in the period of change.
                   during the current period (FASB ASC 815-10-50-4C).
6                  Provide the effective portion of gains and losses, by contract type, on derivative instruments     6). PBGC does not currently choose to adopt hedge accounting (i.e., PBGC derivatives
                   classified as either cashflow or net investment hedges that are recognized in other                are "non-designated"), so we have no hedge accounting requirements and would
                   comprehensive                                                                                      recognize gain or loss in earnings in the period of change.
                   income during the current period (FASB ASC 815-10-50-4C).
7                  Provide the portion of gains and losses, by contract type, on derivative instruments classified    7). PBGC does not currently choose to adopt hedge accounting (i.e., PBGC derivatives
                   as                                                                                                 are "non-designated"), so we have no hedge accounting requirements and would
                   either cashflow or net investment hedges that represent the amount of the hedges'                  recognize gain or loss in earnings in the period of change.
                   ineffectiveness
                   or the amount, if any, excluded from the assessment of the hedge effectiveness (FASB ASC
                   815-
                   10-50-4C).
8                  Provide a description of the nature of trading activities for non-hedge designated derivative      8). These derivative instruments are not designated as accounting hedges consistent
                   instruments and related risks, including how the entity manages those risks. Explain the use       with FASB Accounting Standards Codification Section 815, Derivatives and Hedging,
                   of                                                                                                 which requires an active designation as a prerequisite for any hedge accounting.
                   any alternative disclosures for trading activities, if applicable (FASB ASC 815-10-50-4F).         PBGC utilizes a no hedging designation which results in the gain or loss on a derivative
                                                                                                                      instrument to be recognized currently in earnings. Derivatives are accounted for at fair
                                                                                                                      market value in accordance with the FASB Accounting Standards Codification Section
                                                                                                                      815, Derivatives and Hedging. Derivatives are marked to market with changes in value
                                                                                                                      reported as a component of financial income on the Statements of Operations and
                                                                                                                      Changes in Net Position. PBGC presents all derivatives at fair value on the Statements


                                                                                                             - 97 -
                                                                                                                                                                                                   11/16/2012 14:40:35

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 29B        Derivative Liabilities                                                                                            Fiscal Year: 2012                  Period: SEPTEMBER
    Entity: 1602      PENSION BENEFIT GUARANTY CORPORATION                                                                               Agency Notes:      Note 3

 Status: Complete                          The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Text Data
Line               Question                                                                                           Answer
                                                                                                                      of Financial Condition.
9                  Provide a description on the existence and nature of credit-risk related contingent features       9). PBGC does not have any credit-risk related features. The counterparties to
                   and the                                                                                            PBGC's non-exchange-traded derivative contracts are major financial institutions
                   circumstances in which the features could be triggered in derivative instruments that are in a     subject to ISDA (International Swaps and Derivatives Association, Inc.) master
                   net                                                                                                agreements. PBGC monitors its counterparty risk and exchanges collateral under most
                   liability position at the end of the reporting period. Include disclosures related to posted       contracts to further support performance by its counterparties.
                   collateral, as well as additional collateral required and fair value of assets needed to settle
                   the
                   instrument immediately if the credit-risk contingent features were triggered (FASB ASC
                   815-10-
                   50-4H)
10                 Provide disclosures of the entity's accounting policy to offset or not offset derivative asset     10). The counterparties to PBGC¿s non-exchange-traded derivative contracts are
                   and                                                                                                major financial institutions subject to ISDA (International Swaps and Derivatives
                   liability positions on the Balance Sheet under a master netting agreement. Describe the            Association, Inc.) master agreements. PBGC monitors its counterparty risk and
                   accounting                                                                                         exchanges collateral under most contracts to further support performance by its
                   policy to offset cash collateral positions arising from derivative instrument(s) under a master    counterparties.
                   netting agreement against net derivative positions (FASB ASC 815-10-50-7).
11                 Disclose amounts recognized for the right to reclaim cash collateral or the obligation to return   11). PBGC receives cash and non-cash collateral for loaned securities under the
                   cash collateral under master netting arrangements (FASB ASC 815-10-50-8).                          securities lending program. The cash collateral amounts are recorded as assets and
                                                                                                                      are offset with a corresponding liability. Transferors of financial assets in exchange for
                                                                                                                      cash collateral cannot be distinguished from borrowing cash. Therefore, all cash
                                                                                                                      collateral is recorded as an asset by the party receiving it (PBGC as the secured party),
                                                                                                                      with a corresponding liability for the obligation to return it to the payer (obligor-
                                                                                                                      custodian bank).

                                                                                                                      The non-cash collateral is not recorded as an asset or a liability since PBGC does not
                                                                                                                      have the right by contract or custom to sell or repledge the collateral.

12                 Provide any other relevant information pertaining to this note. At a minimum, describe briefly     12). PBGC's derivative financial instruments are recorded at fair value and are included
                   the                                                                                                on the Statements of Financial Condition as investments and derivative contracts.
                   significant accounting policies pertaining to this note.                                           Derivative contracts include futures contracts in a receivable position, futures contracts
                                                                                                                      in a payable position, interest rate swaps, options purchased (long), options written
                                                                                                                      (short), and foreign exchange forward contracts.




                                                                                                            - 98 -
 Audit of the Pension Benefit Guaranty
Corporation’s Fiscal Year 2012 and 2011
 Special-Purpose Financial Statements


Audit Report AUD-2013-4 / FA-12-88-4




            Section VIII

 GF006F – Notes Status Report
                                     U.S. Department of the Treasury/FMS                    11-16-2012 15:10:40
                                   Governmentwide Financial Report System

                                             Notes Status Report


Entity:   1602-PENSION BENEFIT GUARANTY CORPORATION                      Year:       2012            SEPTEMBER

Number    Note Title                                                                        Status

01        Federal Reserve Earnings, Subsequent Events, and Other Pertinent                  SUBMITTED
          Information
02        Cash and Other Monetary Assets                                                    SUBMITTED
03        Accounts and Taxes Receivable                                                     SUBMITTED
04A       Direct Loans Receivable and Mortgage Backed Securities                            SUBMITTED
04B       Loan Guarantees                                                                   SUBMITTED
05        Inventories and Related Property                                                  SUBMITTED
06        Property, Plant, and Equipment                                                    SUBMITTED
07        Debt and Equity Securities                                                        SUBMITTED
08        Other Assets                                                                      SUBMITTED
09        Accounts Payable                                                                  SUBMITTED
10B       Treasury securities held by the Government trust, revolving, and special          SUBMITTED
          funds
11        Federal Employee and Veteran Benefits Payable                                     SUBMITTED
12        Environmental and Disposal Liabilities                                            SUBMITTED
13        Benefits Due and Payable                                                          SUBMITTED
14        Insurance and Guarantee Program Liabilities                                       SUBMITTED
15        Other Liabilities                                                                 SUBMITTED
17        Prior-Period Adjustments                                                          SUBMITTED
18        Contingencies (SFFAS Nos. 5 and 12)                                               SUBMITTED
19        Commitments                                                                       SUBMITTED
22        Earmarked Funds                                                                   SUBMITTED
25        Stewardship Land                                                                  SUBMITTED
26        Heritage Assets                                                                   SUBMITTED
27        Fiduciary Activities                                                              SUBMITTED
28A       Financial and Housing Market Stabilization - Investment in Government             SUBMITTED
          Sponsored Enterprises (GSE)
28B       Financial and housing Market Stabilization - Liabilities to Government            SUBMITTED
          Sponsored Enterprises (GSE)
29A       Derivative Assets                                                                 SUBMITTED
29B       Derivative Liabilities                                                            SUBMITTED




                                                    - 1 -
 Audit of the Pension Benefit Guaranty
Corporation’s Fiscal Year 2012 and 2011
 Special-Purpose Financial Statements


Audit Report AUD-2013-4 / FA-12-88-4




             Section IX

GF007F – Other Financial Report
   (FR) Data Status Report
                                   U.S. Department of the Treasury/FMS          11-16-2012 15:11:57
                                 Governmentwide Financial Report System

                                       Other FR Data Status Report


Entity:   1602-PENSION BENEFIT GUARANTY CORPORATION                  Year:   2012            SEPTEMBER

Number    Note Title                                                                Status

01        Taxes                                                                     SUBMITTED
08        Stewardship Investments                                                   SUBMITTED
09        Deferred Maintenance                                                      SUBMITTED
14        Risk Assumed-Federal Insurance and Guarantee Programs(SFFAS No.           SUBMITTED
          5, par. 105, 106,and 114)
15        Analysis of FR Operating Revenue to Budget Receipts                       SUBMITTED
16        Components of Loans and Equity Investments                                SUBMITTED




                                                 - 1 -
 Audit of the Pension Benefit Guaranty
Corporation’s Fiscal Year 2012 and 2011
 Special-Purpose Financial Statements


Audit Report AUD-2013-4 / FA-12-88-4




             Section X

   GF007 – Other Data Report
                                                                                                                                                                   11/16/2012 14:45:00

                                                                             U.S. Department of the Treasury
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System
                                                                                GF007 - Other Data Report

 Other Data: 01             Taxes                                                                                        Fiscal Year: 2012             Period: SEPTEMBER
       Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                             Agency Notes:    N/A
      Status: Complete                                                                    I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Taxes (SSFAS No.7, par. 67-69)                      No Data: YES             Line Attributes: Dollars
                                                                                                                       Rounding Method: User-Defined         Decimal: User-Defined
Line Status   Line Description        NB      2012 - SEPTEMBER         2011 - SEPTEMBER              Previously Rptd      Line Item Changes
 1            Estimated realized      Debit
              value of compliance
              assessments as of
              the end of the period
 2            Estimated realizable    Debit
              value of pre-
              assessment work-
              in-progress
 3            Changes in 1 and 2      Debit
              above
 4            Other claims for        Debit
              refunds not yet
              accrued but likely to
              be paid when
              administrative
              actions are
              completed
 5            Management's best       Debit
              estimate of
              unasserted claims for
              refunds
 6            Changes in 4 and 5      Debit
              above
 7            Amount of               Debit
              assessments written
              off that continue to
              be statutorily
              collectible




                                                                                               - 1 -
                                                                                                                                                                                     11/16/2012 14:45:00

                                                                                          U.S. Department of the Treasury
                                                                                           Financial Management Service
                                                                                      Governmentwide Financial Report System
                                                                                             GF007 - Other Data Report

 Other Data: 01                Taxes                                                                                                       Fiscal Year: 2012             Period: SEPTEMBER
         Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:    N/A
        Status: Complete                                                                                   I = Inactive Line


     Tab: Other Data Info.
      Section: B                  Section Name: Provide the following amount if a range is estimable              No Data: YES             Line Attributes: Dollars
                                                and not included in Sec. A (SFFAS No. 7 par 67)                                          Rounding Method: User-Defined         Decimal: User-Defined


Line Status      Line Description         NB                       CY Low                        CY High                        PY Low               PY High
 1               Estimated realizable    Debit
                 value of pre-
                 assessment work-
                 in-progress
 2               Changes in line 1       Debit
                 above
 3               Management's best       Debit
                 estimate of
                 unasserted claims for
                 refunds
 4               Changes in line 3       Debit
                 above

     Tab: Other Text Data

        Section: A                  Section Name: Taxes (SSFAS No.7, par. 67-69)                                       No Data: YES

 Line          Question                                                                                                         Answer
 1            Provide the explicit definitions of estimated amounts of the size of the tax gap.
 2            Provide the appropriate explanation of the limited reliability of the estimates of the size of the tax
              gap.
 3            Provide cross-references to portions of the tax gap due from identified noncompliant taxpayers
              and importers.
 4            Provide the estimates of the annual tax gap (amounts should specifically define whether it
              includes or excludes estimates of tax due on illegally earned revenue).
 5            Disclose the amounts by which trust funds may be over- or under-funded in comparison with the
              requirements of law, if reasonable estimable.




                                                                                                                 - 2 -
                                                                                                                                                                       11/16/2012 14:45:00

                                                                              U.S. Department of the Treasury
                                                                               Financial Management Service
                                                                          Governmentwide Financial Report System
                                                                                 GF007 - Other Data Report

 Other Data: 08            Stewardship Investments                                                                           Fiscal Year: 2012             Period: SEPTEMBER
       Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                  Agency Notes:    N/A
      Status: Complete                                                                       I = Inactive Line


  Tab: Other Data Info.
     Section: A              Section Name: Investment in Non-Federal physical property (SFFAS      No Data: YES              Line Attributes: Dollars
                                           No. 8, par 87)                                                                  Rounding Method: User-Defined         Decimal: User-Defined


Line Status   Line Description      NB                   FY 2012                   FY 2011                       FY 2010                FY 2009                 FY 2008
 1                                  Debit
 2                                  Debit
 3                                  Debit
 4                                  Debit
 5                                  Debit
 6            Other non-Federal     Debit
              physical property

     Section: B              Section Name: Research and Development: Investment in                 No Data: YES              Line Attributes: Dollars
                                           Development (SFFAS No. 8, par. 94, 99 & 100)                                    Rounding Method: User-Defined         Decimal: User-Defined


Line Status   Line Description      NB                   FY 2012                   FY 2011                       FY 2010                FY 2009                 FY 2008
 1                                  Debit
 2                                  Debit
 3                                  Debit
 4                                  Debit
 5                                  Debit
 6            Other investment in   Debit
              development




                                                                                                  - 3 -
                                                                                                                                                                       11/16/2012 14:45:00

                                                                             U.S. Department of the Treasury
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System
                                                                                GF007 - Other Data Report

 Other Data: 08            Stewardship Investments                                                                           Fiscal Year: 2012             Period: SEPTEMBER
       Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                  Agency Notes:    N/A
      Status: Complete                                                                       I = Inactive Line


  Tab: Other Data Info.
     Section: C              Section Name: Investment in Human Capital (SFFAS No. 8, par 100)      No Data: YES              Line Attributes: Dollars
                                                                                                                           Rounding Method: User-Defined         Decimal: User-Defined
Line Status   Line Description       NB                 FY 2012                    FY 2011                       FY 2010                FY 2009                 FY 2008
 1                                   Debit
 2                                   Debit
 3                                   Debit
 4                                   Debit
 5                                   Debit
 6            Other Investments in   Debit
              human capital


     Section: D              Section Name: Research and Development: Investment in Basic           No Data: YES              Line Attributes: Dollars
                                           Research (SFFAS No. 8, par.99 & 100)                                            Rounding Method: User-Defined         Decimal: User-Defined


Line Status   Line Description       NB                 FY 2012                    FY 2011                       FY 2010                FY 2009                 FY 2008
 1                                   Debit
 2                                   Debit
 3                                   Debit
 4                                   Debit
 5                                   Debit
 6            Other investments in   Debit
              basic research




                                                                                                  - 4 -
                                                                                                                                                                                  11/16/2012 14:45:00

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                          GF007 - Other Data Report

 Other Data: 08                Stewardship Investments                                                                                  Fiscal Year: 2012             Period: SEPTEMBER
         Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:    N/A
        Status: Complete                                                                                I = Inactive Line


     Tab: Other Data Info.
      Section: E                 Section Name: Research and Development: Investment in Applied                No Data: YES              Line Attributes: Dollars
                                               Research (SFFAS No. 8, par 100)                                                        Rounding Method: User-Defined         Decimal: User-Defined


Line Status      Line Description         NB                    FY 2012                       FY 2011                       FY 2010                FY 2009                 FY 2008
 1                                       Debit
 2                                       Debit
 3                                       Debit
 4                                       Debit
 5                                       Debit
 6               Other investment in     Debit
                 applied research


     Tab: Other Text Data

        Section: A                  Section Name: Investment in Non-Federal physical property (SFFAS             No Data: YES
                                                  No. 8, par 87)

 Line         Question                                                                                                      Answer
 1            Provide a description of federally owened physical property transferred to state and local
              governments. (SFFAS No. 8, par 87)
 2            Provide a description of the major programs of Federal investments in non-Federal physical
              property used in the "Other Data Info" tab. (SFFAS No.8 par. 87)
     Tab: Other Text Data

        Section: B                  Section Name: Research and Development: Investment in                        No Data: YES
                                                  Development (SFFAS No. 8, par. 94, 99 & 100)

 Line         Question                                                                                                      Answer
 1            Provide a description of the major programs of Federal investments in development used in the
              "Other Data Info" tab. (SFFAS No. 8, par. 100)
 2            Provide a description of the progress of major developmental projects including the results with
              respect to
              projects completed or otherwise terminated during the year and the status of projects that will
              continue (SFFAS No. 8,
              par. 99).




                                                                                                             - 5 -
                                                                                                                                                                      11/16/2012 14:45:00

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                       GF007 - Other Data Report

Other Data: 08              Stewardship Investments                                                                              Fiscal Year: 2012         Period: SEPTEMBER
       Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                    Agency Notes:    N/A
       Status: Complete                                                                             I = Inactive Line



    Tab: Other Text Data

       Section: C               Section Name: Investment in Human Capital (SFFAS No. 8, par 100)             No Data: YES

Line         Question                                                                                                   Answer
1           Provide a description of the major education and training programs considered Federal
            investments in human
            capital used in the "Other Data Info" tab (SFFAS No. 8, par. 94).
    Tab: Other Text Data

       Section: D               Section Name: Research and Development: Investment in Basic                  No Data: YES
                                              Research (SFFAS No. 8, par.99 & 100)

Line         Question                                                                                                   Answer
1           Provide a description of the major programs of Federal investments in basic research used in the
            "Other Data
            Info" tab (SFFAS No. 8, par. 100).
2           Provide a description of any major new discoveries made during the year (SFFAS No. 8, par. 99)
    Tab: Other Text Data

       Section: E               Section Name: Research and Development: Investment in Applied                No Data: YES
                                              Research (SFFAS No. 8, par 100)

Line         Question                                                                                                   Answer
1           Provide a description of the major programs of Federal investments in applied research used in
            the "Other Data
            Info" tab (SFFAS No. 8, par. 100).
2           Provide a description of any major new applications developed during the year (SFFAS No. 8,
            par. 99)




                                                                                                         - 6 -
                                                                                                                                                               11/16/2012 14:45:00

                                                                       U.S. Department of the Treasury
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System
                                                                          GF007 - Other Data Report

 Other Data: 09             Deferred Maintenance                                                                   Fiscal Year: 2012             Period: SEPTEMBER
       Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                       Agency Notes:       N/A
      Status: Complete                                                            I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Range of Amounts                            No Data: YES               Line Attributes: Dollars
                                                                                                                 Rounding Method: User-Defined          Decimal: User-Defined
Line Status   Line Description         NB            CY- Low   D       CY- High    D CY - Critical Maintenance             PY- Low     D            PY- High    D PY - Critical Maintenance
                                                                                                             D                                                                            D
 1            Buildings, structures,   N/A
              and facilities
 2            Furniture, fixtures,     N/A
              and equipment
 3            Other general            N/A
              property, plant, and
              equipment
 4            Heritage assets          N/A
 5            Stewardship land         N/A




                                                                                       - 7 -
                                                                                                                                                                                              11/16/2012 14:45:00

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                        GF007 - Other Data Report

 Other Data: 14               Risk Assumed-Federal Insurance and Guarantee Programs(SFFAS No. 5, par. 105, 106,and 114)                  Fiscal Year: 2012                   Period: SEPTEMBER
         Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                           Agency Notes:          AR - MD&A
        Status: Complete                                                                            I = Inactive Line


     Tab: Other Data Info.
      Section: A                Section Name: Risk Assumed                                                                              Line Attributes: Dollars
                                                                                                                                      Rounding Method: Millions                        Decimal: Zero
Line Status      Line Description        NB       2012 - SEPTEMBER            2011 - SEPTEMBER                  Previously Rptd           Line Item Changes
 1               Present value of       Debit                    321,772                      250,214                     250,214                               0
                 unpaid expected
                 losses (net of
                 associated
                 premiums)
 2               Periodic changes       Debit                     71,558                       60,238                      60,238                               0




     Tab: Other Text Data

        Section: A                  Section Name: Risk Assumed

 Line         Question                                                                                                   Answer
 1            Provide the indicators of the range of uncertainty around Federal insurance and guarantee                 1). Single-employer plans sponsored by companies whose credit quality is below investment
              programs related estimates and sensitivity of the estimates to changes in major assumptions               grade pose a greater risk of being terminated. In addition, there are some multiemployer
              (SFFAS No.5, par.114)                                                                                     plans that may require future financial assistance. For FY 2012, Single-employer program's
                                                                                                                        reasonably possible (RP) exposure to loss is $294,963 million and the Multiemployer
                                                                                                                        program's RP exposure to loss is $26,809 million.

                                                                                                                        The significant volatility in plan underfunding and sponsor credit quality over time makes
                                                                                                                        long-term estimates of PBGC's expected claims uncertain. This volatility, and the
                                                                                                                        concentration of claims in a relatively small number of terminated plans, have characterized
                                                                                                                        PBGC's experience to date and will likely continue. Factors such as economic conditions
                                                                                                                        affecting interest rates, financial markets, and the rate of business failures will also influence
                                                                                                                        PBGC's claims going forward.

                                                                                                                        In accordance with Section 450, PBGC's exposure to losses from plans of companies that
                                                                                                                        are classified as reasonably possible is disclosed in the footnotes. In order for a plan
                                                                                                                        sponsor to be specifically classified as reasonably possible, it must first have $5 million or
                                                                                                                        more of underfunding, as well as meet additional criteria. Criteria used for classifying a
                                                                                                                        company as reasonably possible include, but are not limited to, one or more of the following
                                                                                                                        conditions: the plan sponsor is in Chapter 11 reorganization; funding waiver pending or
                                                                                                                        outstanding with the Internal Revenue Service; sponsor missed minimum funding
                                                                                                                        contribution; sponsor's bond rating is below-investment-grade for Standard & Poor's (BB+)
                                                                                                                        or Moody's (Ba1); or sponsor has no bond rating but the Dun & Bradstreet Financial Stress
                                                                                                                        Score is below the threshold considered to be investment grade.
 2            Provide the actuarial or financial methods used to measure the present value of unpaid expected           2). The estimate of unfunded vested benefits exposure to loss for the single-employer plans


                                                                                                            - 8 -
                                                                                                                                                                                  11/16/2012 14:45:00

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                                  GF007 - Other Data Report

Other Data: 14              Risk Assumed-Federal Insurance and Guarantee Programs(SFFAS No. 5, par. 105, 106,and 114)           Fiscal Year: 2012                 Period: SEPTEMBER
       Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                     Agency Notes:       AR - MD&A
       Status: Complete                                                                     I = Inactive Line



 Tab: Other Text Data

       Section: A              Section Name: Risk Assumed

Line         Question                                                                                           Answer
            losses (SFFAS No. 5. par. 114)                                                                      of these companies was measured as of December 31, 2011. The reasonably possible
                                                                                                                exposure to loss in these plans was $295 billion for FY 2012. This is an increase of $68
                                                                                                                billion from the reasonably possible exposure of $227 billion in FY 2011. This reasonably
                                                                                                                possible exposure increased primarily due to the decrease in the interest rate used for
                                                                                                                valuing liabilities and low asset returns for calendar year 2011.

                                                                                                                Except in rare circumstances as indicated earlier in this footnote, the estimate of unfunded
                                                                                                                vested benefits exposure to loss is not generally based on PBGC-guaranteed benefit levels,
                                                                                                                since data is not available to determine an estimate at this level of precision. PBGC
                                                                                                                calculated this estimate, as in previous years, by using the most recent data available from
                                                                                                                filings and submissions to the Corporation for plan years ended on or after December 31,
                                                                                                                2010. The Corporation adjusted the value reported for liabilities to December 31, 2011,
                                                                                                                using a select rate of 3.08% for the first 20 years and 3.37% thereafter and applying the
                                                                                                                expense load as defined in 29 CFR Part 4044, Appendix C. The rates were derived in
                                                                                                                conjunction with the 1994 Group Annuity Mortality Static Table (with margins) projected to
                                                                                                                2021 using Scale AA to approximate annuity prices as of December 31, 2011. The
                                                                                                                underfunding associated with these plans could be substantially different at September 30,
                                                                                                                2012, because of the economic conditions that changed between December 31, 2011 and
                                                                                                                September 30, 2012. The Corporation did not adjust the estimate for events that occurred
                                                                                                                between December 31, 2011, and September 30, 2012.




                                                                                                 - 9 -
                                                                                                                                                                        11/16/2012 14:45:00

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                    GF007 - Other Data Report

 Other Data: 15              Analysis of FR Operating Revenue to Budget Receipts                                             Fiscal Year: 2012             Period: SEPTEMBER
        Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                Agency Notes:    N/A
       Status: Complete                                                                      I = Inactive Line


  Tab: Other Data Info.
      Section: A               Section Name: Operating Revenues to the Budget Receipts              No Data: YES             Line Attributes: Dollars
                                                                                                                           Rounding Method: User-Defined          Decimal: User-Defined
Line Status    Line Description         NB      CY-Individual income tax   CY-Corporation income   CY-Unemployment taxes        CY-Excise taxes     CY-Estate and gift taxes   CY-Customs duties
                                                 and tax withholdings                    taxes
 1             Undistributed           Credit
               Offsetting receipts
               (offset against
               outlays)
 2             Proprietary receipts    Credit
               from the public
               (offset against
               outlays)
 3             Rents and royalties     Credit
               on the outer
               continental shelf
               lands (offset against
               outlays)
 4             Offsetting              Credit
               governmental
               receipts (offset
               against outlays)
 5             Intrabudgetary          Credit
               transactions (offset
               against outlays)
 6             Earned (exchange)       Credit
               revenue reported in
               the Statement of Net
               Cost
 7                                     Credit
 8                                     Credit
 9                                     Credit
 10            Total (exchange and      N/A
               nonexchange)

Line Status    Line Description         NB           CY-Other taxes and CY-Miscellaneous earned
                                                            receipts                 revenue
 1             Undistributed           Credit
               Offsetting receipts
               (offset against
               outlays)



                                                                                                   - 10 -
                                                                                                                                                                                  11/16/2012 14:45:00

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                            GF007 - Other Data Report

 Other Data: 15                Analysis of FR Operating Revenue to Budget Receipts                                                      Fiscal Year: 2012             Period: SEPTEMBER
         Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:    N/A
        Status: Complete                                                                                 I = Inactive Line


  Tab: Other Data Info.
       Section: A                Section Name: Operating Revenues to the Budget Receipts                         No Data: YES           Line Attributes: Dollars
                                                                                                                                      Rounding Method: User-Defined         Decimal: User-Defined
Line Status      Line Description         NB            CY-Other taxes and CY-Miscellaneous earned
                                                               receipts                 revenue
 2               Proprietary receipts    Credit
                 from the public
                 (offset against
                 outlays)
 3               Rents and royalties     Credit
                 on the outer
                 continental shelf
                 lands (offset against
                 outlays)
 4               Offsetting              Credit
                 governmental
                 receipts (offset
                 against outlays)
 5               Intrabudgetary          Credit
                 transactions (offset
                 against outlays)
 6               Earned (exchange)       Credit
                 revenue reported in
                 the Statement of Net
                 Cost
 7                                       Credit
 8                                       Credit
 9                                       Credit
 10              Total (exchange and      N/A
                 nonexchange)

      Tab: Other Text Data

        Section: A                 Section Name: Operating Revenues to the Budget Receipts                        No Data: YES

 Line         Question                                                                                                       Answer
 1            Provide a detailed description of the undistributed offsetting receipts reconciling item(s).
 2            Provide a detailed description of the proprietary receipts from the public reconciling item(s).
 3            Provide a detailed description of the offsetting governmental receipts reconciling item(s).
 4            Provide a detailed description of the intrabudgetary transaction reconciling item(s).
 5            Provide a detailed description of the earned revenue reconciling item(s).



                                                                                                                - 11 -
                                                                                                                                                                      11/16/2012 14:45:00

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                         GF007 - Other Data Report

Other Data: 15               Analysis of FR Operating Revenue to Budget Receipts                                                 Fiscal Year: 2012         Period: SEPTEMBER
       Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                   Agency Notes:    N/A
       Status: Complete                                                                             I = Inactive Line



 Tab: Other Text Data

       Section: A               Section Name: Operating Revenues to the Budget Receipts                     No Data: YES

Line        Question                                                                                                    Answer
6           Provide a detailed description of the agency entered description reconciling item(s).




                                                                                                        - 12 -
                                                                                                                                                                            11/16/2012 14:45:00

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                                  GF007 - Other Data Report

 Other Data: 16             Components of Loans and Equity Investments                                                         Fiscal Year: 2012             Period: SEPTEMBER
       Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                   Agency Notes:      N/A
      Status: Complete                                                                        I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Components of Direct Loans Receivable, Gross -          No Data: YES               Line Attributes: Dollars
                                            Current Year                                                                     Rounding Method: User-Defined           Decimal: User-Defined


Line Status   Line Description        NB      CY-Federal Direct Student   CY-Electric Loans       CY-Rural Housing Service        CY-Federal Family              CY-Water and         CY-Farm Loans
                                                              Loans                                                               Education Loan        Environmental Loans
 1            Direct Loans            Debit
              Receivable, Gross -
              Beginning of Year
 2            Disbursements           Debit
              (loans
              made/securities
              purchased)
 3            Repayments              Debit
 4            Losses                  Debit
 5            Capitalized interest    Debit
 6            Capitalized dividends Debit
 7            Other                   Debit
 8            Direct Loans            N/A
              receivable, gross-
              end of the year

Line Status   Line Description        NB        CY-Export-Import Bank        CY-U.S. Agency for      CY-Housing and Urban CY-GSE Mortgage Backed             CY-All other loans              CY-Total
                                                             Loans    International Development           Development          Securities Purchase               receivable
                                                                                                                                       Program
 1            Direct Loans            Debit
              Receivable, Gross -
              Beginning of Year
 2            Disbursements           Debit
              (loans
              made/securities
              purchased)
 3            Repayments              Debit
 4            Losses                  Debit
 5            Capitalized interest    Debit
 6            Capitalized dividends   Debit
 7            Other                   Debit
 8            Direct Loans             N/A
              receivable, gross-



                                                                                                  - 13 -
                                                                                                                                                                              11/16/2012 14:45:00

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 16              Components of Loans and Equity Investments                                                          Fiscal Year: 2012             Period: SEPTEMBER
       Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                    Agency Notes:      N/A
      Status: Complete                                                                          I = Inactive Line


  Tab: Other Data Info.
     Section: A                 Section Name: Components of Direct Loans Receivable, Gross -          No Data: YES               Line Attributes: Dollars
                                              Current Year                                                                     Rounding Method: User-Defined           Decimal: User-Defined


Line Status   Line Description         NB       CY-Export-Import Bank        CY-U.S. Agency for        CY-Housing and Urban CY-GSE Mortgage Backed             CY-All other loans              CY-Total
                                                             Loans    International Development             Development          Securities Purchase               receivable
                                                                                                                                         Program
              end of the year




     Section: B                 Section Name: Components of Direct Loans Receivable, Gross -          No Data: YES               Line Attributes: Dollars
                                              Prior Year                                                                       Rounding Method: User-Defined           Decimal: User-Defined


Line Status   Line Description         NB     PY-Federal Direct Student     PY-Electric Loans       PY-Rural Housing Service        PY-Federal Family              PY-Water and         PY-Farm Loans
                                                              Loans                                                                 Education Loan        Environmental Loans
 1            Direct Loans            Debit
              Receivable, gross -
              beginning of year
 2            Disbursements           Debit
              (loans
              made/securities
              purchased)
 3            Repayments              Debit
 4            Losses                  Debit
 5            Capitalized interest    Debit
 6            Capitalized dividends Debit
 7            Other                   Debit
 8            Direct Loans             N/A
              receivable, gross-
              end of the year

Line Status   Line Description         NB       PY-Export-Import Bank        PY-U.S. Agency for        PY-Housing and Urban PY-GSE Mortgage Backed             PY-All other loans              PY-Total
                                                             Loans    International Development             Development          Securities Purchase               receivable
                                                                                                                                         Program
 1            Direct Loans            Debit



                                                                                                    - 14 -
                                                                                                                                                                          11/16/2012 14:45:00

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 16             Components of Loans and Equity Investments                                                       Fiscal Year: 2012             Period: SEPTEMBER
       Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                 Agency Notes:    N/A
      Status: Complete                                                                       I = Inactive Line


  Tab: Other Data Info.
     Section: B               Section Name: Components of Direct Loans Receivable, Gross -         No Data: YES              Line Attributes: Dollars
                                            Prior Year                                                                     Rounding Method: User-Defined           Decimal: User-Defined


Line Status   Line Description        NB      PY-Export-Import Bank        PY-U.S. Agency for       PY-Housing and Urban PY-GSE Mortgage Backed            PY-All other loans              PY-Total
                                                           Loans    International Development            Development          Securities Purchase              receivable
                                                                                                                                      Program
              Receivable, gross -
              beginning of year
 2            Disbursements           Debit
              (loans
              made/securities
              purchased)
 3            Repayments              Debit
 4            Losses                  Debit
 5            Capitalized interest    Debit
 6            Capitalized dividends   Debit
 7            Other                   Debit
 8            Direct Loans            N/A
              receivable, gross-
              end of the year
     Section: C               Section Name: Components of Loan Guarantees, Gross - Current         No Data: YES              Line Attributes: Dollars
                                            Year                                                                           Rounding Method: User-Defined           Decimal: User-Defined


Line Status   Line Description        NB          CY-Federal Family         CY-Federal Housing       CY-Veterans Housing    CY-Export-Import Bank CY-Small Business Loans CY-Israeli Loan Guarantee
                                                 Education Loans         Administration Loans         Benefit Program                    Loans                                          Program
 1            Guaranteed Loans,       Debit
              gross-beginning of
              the year
 2            Disbursements           Debit
              (loans
              made/securities
              purchased)
 3            Repayments              Debit
 4            Other                   Debit
 5            Guaranteed Loans,       N/A
              gross-end of the
              year




                                                                                                 - 15 -
                                                                                                                                                                         11/16/2012 14:45:00

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                                  GF007 - Other Data Report

 Other Data: 16            Components of Loans and Equity Investments                                                       Fiscal Year: 2012              Period: SEPTEMBER
       Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                 Agency Notes:       N/A
      Status: Complete                                                                      I = Inactive Line


  Tab: Other Data Info.
     Section: C              Section Name: Components of Loan Guarantees, Gross - Current         No Data: YES              Line Attributes: Dollars
                                           Year                                                                           Rounding Method: User-Defined            Decimal: User-Defined


Line Status   Line Description      NB      CY-OPIC Credit Program CY-Rural Housing Service CY-Business and Industry            CY-Export Credit     CY-All other Guaranteed               CY-Total
                                                                                                           Loans           Guarantee Programs                       loans
 1            Guaranteed Loans,     Debit
              gross-beginning of
              the year
 2            Disbursements         Debit
              (loans
              made/securities
              purchased)
 3            Repayments            Debit
 4            Other                 Debit
 5            Guaranteed Loans,       N/A
              gross-end of the
              year
     Section: D               Section Name: Components of Loan Guarantees, Gross - Prior Year     No Data: YES              Line Attributes: Dollars
                                                                                                                          Rounding Method: User-Defined            Decimal: User-Defined
Line Status   Line Description      NB           PY-Federal Family         PY-Federal Housing       PY-Veterans Housing    PY-Export-Import Bank PY-Small Business Loans PY-Israeli Loan Guarantee
                                                Education Loans         Administration Loans         Benefit Program                    Loans                                          Program
 1             Guaranteed Loans,    Debit
               gross-beginning of
               the year
 2             Disbursements        Debit
               (loans
               made/securities
               purchased)
 3             Repayments           Debit
 4             Other                Debit
 5             Guaranteed Loans,    N/A
               gross-end of the
               year

Line Status   Line Description      NB      PY-OPIC Credit Program PY-Rural Housing Service PY-Business and Industry             PY-Export Credit    PY-All other Guaranteed               PY-Total
                                                                                                           Loans           Guarantee Programs                       loans
 1            Guaranteed Loans,     Debit
              gross-beginning of
              the year



                                                                                                - 16 -
                                                                                                                                                                             11/16/2012 14:45:00

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 16             Components of Loans and Equity Investments                                                          Fiscal Year: 2012              Period: SEPTEMBER
       Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                    Agency Notes:       N/A
      Status: Complete                                                                          I = Inactive Line


  Tab: Other Data Info.
     Section: D                 Section Name: Components of Loan Guarantees, Gross - Prior Year       No Data: YES              Line Attributes: Dollars
                                                                                                                              Rounding Method: User-Defined            Decimal: User-Defined
Line Status   Line Description         NB      PY-OPIC Credit Program PY-Rural Housing Service PY-Business and Industry              PY-Export Credit    PY-All other Guaranteed               PY-Total
                                                                                                              Loans            Guarantee Programs                       loans
 2            Disbursements           Debit
              (loans
              made/securities
              purchased)
 3            Repayments              Debit
 4            Other                   Debit
 5            Guaranteed Loans,       N/A
              gross-end of the
              year
     Section: E               Section Name: Components of TARP Direct Loans and Equity                No Data: YES              Line Attributes: Dollars
                                            Investments, Gross - Current Year                                                 Rounding Method: User-Defined            Decimal: User-Defined


Line Status   Line Description         NB         CY-Capital Purchase    CY-AIG, Inc., Investment    CY-Targeted Investment    CY-Automotive Industry         CY-Consumer and           CY-Public-Private
                                                          Program                     Program                   Program         Financing Program              Business Lending    Investment Program
                                                                                                                                                                    Initiative
 1            TARP loans and          Debit
              equity investments
              receivable, gross-
              beginning of year
 2            Disbursements           Debit
              (loans
              made/securities
              purchased)
 3            Repayments              Debit
 4            Losses                  Debit
 5            Capitalized interest    Debit
 6            Capitalized dividends Debit
 7            Other                   Debit
 8            TARP loans and           N/A
              equity investments
              receivable, gross-
              end of year

Line Status   Line Description         NB           CY-All Other TARP                CY-Total
                                                         Programs


                                                                                                    - 17 -
                                                                                                                                                                           11/16/2012 14:45:00

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 16             Components of Loans and Equity Investments                                                          Fiscal Year: 2012             Period: SEPTEMBER
       Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                    Agency Notes:       N/A
      Status: Complete                                                                          I = Inactive Line


  Tab: Other Data Info.
     Section: E               Section Name: Components of TARP Direct Loans and Equity                No Data: YES              Line Attributes: Dollars
                                            Investments, Gross - Current Year                                                 Rounding Method: User-Defined          Decimal: User-Defined


Line Status   Line Description        NB          CY-All Other TARP                  CY-Total
                                                       Programs
 1            TARP loans and          Debit
              equity investments
              receivable, gross-
              beginning of year
 2            Disbursements           Debit
              (loans
              made/securities
              purchased)
 3            Repayments              Debit
 4            Losses                  Debit
 5            Capitalized interest    Debit
 6            Capitalized dividends   Debit
 7            Other                   Debit
 8            TARP loans and          N/A
              equity investments
              receivable, gross-
              end of year
     Section: F               Section Name: Components of TARP Direct Loans and Equity                No Data: YES              Line Attributes: Dollars
                                            Investments, Gross - Prior Year                                                   Rounding Method: User-Defined          Decimal: User-Defined


Line Status   Line Description        NB        PY-Capital Purchase      PY-AIG, Inc., Investment    PY-Targeted Investment    PY-Automotive Industry         PY-Consumer and         PY-Public-Private
                                                        Program                       Program                   Program         Financing Program             Business Lending   Investment Program
                                                                                                                                                                   Initiative
 1            TARP loans and          Debit
              equity investments
              receivable, gross-
              beginning of year
 2            Disbursements           Debit
              (loans
              made/securities
              purchased)
 3            Repayments              Debit
 4            Losses                  Debit



                                                                                                    - 18 -
                                                                                                                                                                           11/16/2012 14:45:00

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 16             Components of Loans and Equity Investments                                                          Fiscal Year: 2012             Period: SEPTEMBER
       Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                    Agency Notes:       N/A
      Status: Complete                                                                          I = Inactive Line


  Tab: Other Data Info.
     Section: F               Section Name: Components of TARP Direct Loans and Equity                No Data: YES              Line Attributes: Dollars
                                            Investments, Gross - Prior Year                                                   Rounding Method: User-Defined          Decimal: User-Defined


Line Status   Line Description        NB        PY-Capital Purchase      PY-AIG, Inc., Investment    PY-Targeted Investment    PY-Automotive Industry         PY-Consumer and         PY-Public-Private
                                                        Program                       Program                   Program         Financing Program             Business Lending   Investment Program
                                                                                                                                                                   Initiative
 5            Capitalized interest    Debit
 6            Capitalized dividends Debit
 7            Other                   Debit
 8            TARP loans and          N/A
              equity investments
              receivable, gross-
              end of year

Line Status   Line Description        NB          PY-All Other TARP                  PY-Total
                                                        Programs
 1            TARP loans and          Debit
              equity investments
              receivable, gross-
              beginning of year
 2            Disbursements           Debit
              (loans
              made/securities
              purchased)
 3            Repayments              Debit
 4            Losses                  Debit
 5            Capitalized interest    Debit
 6            Capitalized dividends   Debit
 7            Other                   Debit
 8            TARP loans and           N/A
              equity investments
              receivable, gross-
              end of year




                                                                                                    - 19 -
                                                                                                                                                                     11/16/2012 14:45:00

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                       GF007 - Other Data Report

Other Data: 16              Components of Loans and Equity Investments                                                          Fiscal Year: 2012         Period: SEPTEMBER
       Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                   Agency Notes:    N/A
       Status: Complete                                                                            I = Inactive Line



    Tab: Other Text Data

       Section: A               Section Name: Components of Direct Loans Receivable, Gross -                 No Data: YES
                                              Current Year

Line        Question                                                                                                   Answer
1           Provide details regarding the programs reported in Sections A and B that comprise amounts
            reported in the "all other Loans Receivable" column.
2           Provide a detailed description of the amounts reported in Sections A and B that comprose the
            "Other" line.

3           Provide details regarding the programs reported in Sections C and D that comprose the "Other"
            line in the "all other Guaranteed Loans" column.
4           Provide a detailed description of the amounts reported in Sections C and D that comprose the
            "Other" line.
5           Provide details regarding the programs reported in Sections E and F that comprise amounts
            reported in the "all other TARP Programs" column.

6           Provide a detailed description of the amounts reported in Sections E and F that comprise the
            "Other" line.




                                                                                                           - 20 -
     Audit of the Pension Benefit Guaranty
    Corporation’s Fiscal Year 2012 and 2011
     Special-Purpose Financial Statements


     Audit Report AUD-2013-4 / FA-12-88-4




                 Section XI

GF008G – Completion and Approvals Report
                                       U.S. Department of the Treasury/FMS                      11-16-2012 16:47:20
                                      Governmentwide Financial Report System

                                     GF008 - Completion and Approvals Report


Entity: 1602 -    PENSION BENEFIT GUARANTY CORPORATION                                    Year: 2012 SEPTEMBER

GF002 - Agency Audited Financial Statement Module
FPA Status:       COMPLETE                         By: SLESLI01                       Date:     16-NOV-12 14:02
CFO Status:       LOCK          Approved           By: WLUZIA01                       Date:     16-NOV-12 14:09
IG Action:        LOCK                             By: JMARCH02                       Date:     16-NOV-12 16:01

GF003 - Reclassification Module
FPA Status:       COMPLETE                         By: SLESLI01                       Date:     16-NOV-12 14:02
CFO Status:       LOCK          Approved           By: WLUZIA01                       Date:     16-NOV-12 14:11
IG Action:        LOCK                             By: JMARCH02                       Date:     16-NOV-12 16:22

GF004 - Intragovernmental Trading Partner Module
FPA Status:       COMPLETE                         By: SLESLI01                       Date:     16-NOV-12 14:02
CFO Status:       LOCK          Approved           By: WLUZIA01                       Date:     16-NOV-12 14:11
IG Action:        LOCK                             By: JMARCH02                       Date:     16-NOV-12 16:22

GF006 - FR Notes Module
FPA Status:       COMPLETE                         By: SLESLI01                       Date:     16-NOV-12 14:02
CFO Status:       LOCK          Approved           By: WLUZIA01                       Date:     16-NOV-12 14:11
IG Action:        LOCK                             By: JMARCH02                       Date:     16-NOV-12 16:23
GF007 - Other Data Module

FPA Status:       COMPLETE                         By: SLESLI01                       Date:     16-NOV-12 14:02
CFO Status:       LOCK          Approved           By: WLUZIA01                       Date:     16-NOV-12 14:11
IG Action:        LOCK                             By: JMARCH02                       Date:     16-NOV-12 16:24

CLOSING PACKAGE - IG
IG Opinion:       Unqualified                      By:                                Date:
IG Explanation:
    Copy will be emailed to you. Relevant paragraph states:

    In our opinion, the special purpose financial statements and accompanying notes referred to above present,
    fairly, in all material respects, the financial posiion of PBGC as of September 30, 2012 and 2011, and its net costs
    and changes in net position for the years then ended in conformity with accounting principles generally accepted
    in the United States of America and the presentation pursant to the requirements of hte TFM Chapter 4700.

    Opinion by CliftonLarsonAllen, LLP Date: 11/16/12

IG file attachment: N/A


                                                          -1-
  Audit of the Pension Benefit Guaranty
 Corporation’s Fiscal Year 2012 and 2011
  Special-Purpose Financial Statements


  Audit Report AUD-2013-4 / FA-12-88-4




              Section XII

GF120 – Reclassification Audit Trail
Report at Statement Summary Level
                                                                U.S.Department of the Treasury                                                     11/16/2012 15:15:21
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System


                                                GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                 Fiscal Year: 2012                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                            Reporting Method: MILLIONS                   Decimal Point: ZERO

Agency Line Item: Cash and cash equivalents                                      Account Type: A                                        F/N: B

                                                                           2012-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                  Credit                       Variance             Date/Time               User Id

N   Cash and Other Monetary Assets       FR                      3,525                                                       10/27/2012 07:42:47    SLESLI01
F   Fund Balance with Treasury           FR                          1                                                       10/27/2012 07:42:47    SLESLI01
F   Federal Investments                  FR                        266                                                       10/27/2012 07:42:47    SLESLI01

B         Cash and cash equivalents    Entity                                                3,792                      0    10/27/2012 07:42:47    SLESLI01


                                                                           2011-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                  Credit                       Variance             Date/Time               User Id

N   Cash and Other Monetary Assets       FR                      4,984                                                       10/27/2012 07:42:47    SLESLI01
F   Fund Balance with Treasury           FR                          1                                                       10/27/2012 07:42:47    SLESLI01
F   Federal Investments                  FR                         41                                                       10/27/2012 07:42:47    SLESLI01

B         Cash and cash equivalents    Entity                                                5,026                      0    10/27/2012 07:42:47    SLESLI01




                                                                              - 1 -
                                                                             U.S.Department of the Treasury                                                     11/16/2012 15:15:21
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System


                                                             GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                              Fiscal Year: 2012                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                                         Reporting Method: MILLIONS                   Decimal Point: ZERO

Agency Line Item: Securities lending collateral (Notes 3 and 5)                               Account Type: A                                        F/N: N

                                                                                        2012-SEPTEMBER
F/N Line Item Description                          FR/Entity          Debit                  Credit                       Variance             Date/Time               User Id

N   Debt and Equity Securities                        FR                      3,425                                                       10/27/2012 07:48:41    SLESLI01

N         Securities lending collateral (Notes 3    Entity                                                3,425                      0    10/27/2012 07:48:41    SLESLI01
    and 5)

                                                                                        2011-SEPTEMBER
F/N Line Item Description                          FR/Entity          Debit                  Credit                       Variance             Date/Time               User Id

N   Debt and Equity Securities                        FR                      4,587                                                       10/27/2012 07:48:41    SLESLI01

N         Securities lending collateral (Notes 3    Entity                                                4,587                      0    10/27/2012 07:48:41    SLESLI01
    and 5)




                                                                                           - 2 -
                                                                U.S.Department of the Treasury                                                     11/16/2012 15:15:21
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System


                                                GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                 Fiscal Year: 2012                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                            Reporting Method: MILLIONS                   Decimal Point: ZERO

Agency Line Item: Fixed maturity securities                                      Account Type: A                                        F/N: B

                                                                           2012-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                  Credit                       Variance             Date/Time               User Id

F   Federal Investments                  FR                      22,691                                                      11/01/2012 13:40:26    SLESLI01
N   Debt and Equity Securities           FR                      24,545                                                      11/01/2012 13:40:26    SLESLI01
N   Derivative Assets                    FR                          1                                                       11/01/2012 13:40:26    SLESLI01

B         Fixed maturity securities    Entity                                                47,237                     0    11/01/2012 13:40:26    SLESLI01


                                                                           2011-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                  Credit                       Variance             Date/Time               User Id

F   Federal Investments                  FR                      22,469                                                      11/01/2012 13:40:26    SLESLI01
N   Debt and Equity Securities           FR                      22,464                                                      11/01/2012 13:40:26    SLESLI01
N   Derivative Assets                    FR                         18                                                       11/01/2012 13:40:26    SLESLI01

B         Fixed maturity securities    Entity                                                44,951                     0    11/01/2012 13:40:26    SLESLI01




                                                                              - 3 -
                                                                U.S.Department of the Treasury                                                     11/16/2012 15:15:21
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System


                                                GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                 Fiscal Year: 2012                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                            Reporting Method: MILLIONS                   Decimal Point: ZERO

Agency Line Item: Equity securities                                              Account Type: A                                        F/N: N

                                                                           2012-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                  Credit                       Variance             Date/Time               User Id

N   Debt and Equity Securities           FR                      22,619                                                      10/27/2012 08:33:35    SLESLI01

N         Equity securities            Entity                                                22,619                     0    10/27/2012 08:33:35    SLESLI01


                                                                           2011-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                  Credit                       Variance             Date/Time               User Id

N   Debt and Equity Securities           FR                      17,996                                                      10/27/2012 08:33:35    SLESLI01
N   Derivative Assets                    FR                          1                                                       10/27/2012 08:33:35    SLESLI01

N         Equity securities            Entity                                                17,997                     0    10/27/2012 08:33:35    SLESLI01




                                                                              - 4 -
                                                             U.S.Department of the Treasury                                                     11/16/2012 15:15:21
                                                              Financial Management Service
                                                         Governmentwide Financial Report System


                                             GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                              Fiscal Year: 2012                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                         Reporting Method: MILLIONS                   Decimal Point: ZERO

Agency Line Item: Private equity                                              Account Type: A                                        F/N: N

                                                                        2012-SEPTEMBER
F/N Line Item Description          FR/Entity          Debit                  Credit                       Variance             Date/Time               User Id

N   Debt and Equity Securities        FR                      1,339                                                       10/27/2012 08:37:30    SLESLI01

N         Private equity            Entity                                                1,339                      0    10/27/2012 08:37:30    SLESLI01


                                                                        2011-SEPTEMBER
F/N Line Item Description          FR/Entity          Debit                  Credit                       Variance             Date/Time               User Id

N   Debt and Equity Securities        FR                      1,459                                                       10/27/2012 08:37:30    SLESLI01

N         Private equity            Entity                                                1,459                      0    10/27/2012 08:37:30    SLESLI01




                                                                           - 5 -
                                                                  U.S.Department of the Treasury                                                     11/16/2012 15:15:21
                                                                   Financial Management Service
                                                              Governmentwide Financial Report System


                                                  GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                   Fiscal Year: 2012                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                              Reporting Method: MILLIONS                   Decimal Point: ZERO

Agency Line Item: Real estate and real estate investment trusts                    Account Type: A                                        F/N: N

                                                                             2012-SEPTEMBER
F/N Line Item Description               FR/Entity          Debit                  Credit                       Variance             Date/Time               User Id

N   Debt and Equity Securities             FR                        511                                                       10/27/2012 08:45:32    SLESLI01

N         Real estate and real estate    Entity                                                  511                      0    10/27/2012 08:45:32    SLESLI01
    investment trusts

                                                                             2011-SEPTEMBER
F/N Line Item Description               FR/Entity          Debit                  Credit                       Variance             Date/Time               User Id

N   Debt and Equity Securities             FR                        536                                                       10/27/2012 08:45:32    SLESLI01

N         Real estate and real estate    Entity                                                  536                      0    10/27/2012 08:45:32    SLESLI01
    investment trusts




                                                                                - 6 -
                                                           U.S.Department of the Treasury                                                     11/16/2012 15:15:21
                                                            Financial Management Service
                                                       Governmentwide Financial Report System


                                           GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                            Fiscal Year: 2012                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                       Reporting Method: MILLIONS                   Decimal Point: ZERO

Agency Line Item: Other                                                     Account Type: A                                        F/N: N

                                                                      2012-SEPTEMBER
F/N Line Item Description        FR/Entity          Debit                  Credit                       Variance             Date/Time               User Id

N   Debt and Equity Securities      FR                         77                                                       10/27/2012 08:48:15    SLESLI01

N         Other                   Entity                                                   77                      0    10/27/2012 08:48:15    SLESLI01


                                                                      2011-SEPTEMBER
F/N Line Item Description        FR/Entity          Debit                  Credit                       Variance             Date/Time               User Id

N   Debt and Equity Securities      FR                         22                                                       10/27/2012 08:48:15    SLESLI01

N         Other                   Entity                                                   22                      0    10/27/2012 08:48:15    SLESLI01




                                                                         - 7 -
                                                                   U.S.Department of the Treasury                                                     11/16/2012 15:15:21
                                                                    Financial Management Service
                                                               Governmentwide Financial Report System


                                                   GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                    Fiscal Year: 2012                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                               Reporting Method: MILLIONS                   Decimal Point: ZERO

Agency Line Item: Sponsors of terminated plans                                      Account Type: A                                        F/N: N

                                                                              2012-SEPTEMBER
F/N Line Item Description                FR/Entity          Debit                  Credit                       Variance             Date/Time               User Id

N   Accounts and Taxes Receivable           FR                         41                                                       10/27/2012 08:53:25    SLESLI01

N         Sponsors of terminated plans    Entity                                                   41                      0    10/27/2012 08:53:25    SLESLI01


                                                                              2011-SEPTEMBER
F/N Line Item Description                FR/Entity          Debit                  Credit                       Variance             Date/Time               User Id

N   Accounts and Taxes Receivable           FR                         31                                                       10/27/2012 08:53:25    SLESLI01

N         Sponsors of terminated plans    Entity                                                   31                      0    10/27/2012 08:53:25    SLESLI01




                                                                                 - 8 -
                                                                U.S.Department of the Treasury                                                     11/16/2012 15:15:21
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System


                                                GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                 Fiscal Year: 2012                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                            Reporting Method: MILLIONS                   Decimal Point: ZERO

Agency Line Item: Premiums (Note 11)                                             Account Type: A                                        F/N: N

                                                                           2012-SEPTEMBER
F/N Line Item Description           FR/Entity            Debit                  Credit                       Variance             Date/Time               User Id

N   Accounts and Taxes Receivable       FR                       1,087                                                       10/27/2012 08:57:31    SLESLI01

N         Premiums (Note 11)           Entity                                                1,087                      0    10/27/2012 08:57:31    SLESLI01


                                                                           2011-SEPTEMBER
F/N Line Item Description           FR/Entity            Debit                  Credit                       Variance             Date/Time               User Id

N   Accounts and Taxes Receivable       FR                         562                                                       10/27/2012 08:57:31    SLESLI01

N         Premiums (Note 11)           Entity                                                  562                      0    10/27/2012 08:57:31    SLESLI01




                                                                              - 9 -
                                                                 U.S.Department of the Treasury                                                      11/16/2012 15:15:21
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System


                                                 GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                   Fiscal Year: 2012                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                             Reporting Method: MILLIONS                    Decimal Point: ZERO

Agency Line Item: Sale of securities                                               Account Type: A                                        F/N: N

                                                                            2012-SEPTEMBER
F/N Line Item Description              FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Accounts and Taxes Receivable         FR                      1,353                                                        10/27/2012 09:13:43    SLESLI01

N         Sale of securities            Entity                                                 1,353                      0    10/27/2012 09:13:43    SLESLI01


                                                                            2011-SEPTEMBER
F/N Line Item Description              FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Accounts and Taxes Receivable         FR                      1,807                                                        10/27/2012 09:13:43    SLESLI01

N         Sale of securities            Entity                                                 1,807                      0    10/27/2012 09:13:43    SLESLI01




                                                                               - 10 -
                                                                    U.S.Department of the Treasury                                                      11/16/2012 15:15:21
                                                                     Financial Management Service
                                                                Governmentwide Financial Report System


                                                    GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                      Fiscal Year: 2012                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                                Reporting Method: MILLIONS                    Decimal Point: ZERO

Agency Line Item: Derivative contracts (Note 4)                                       Account Type: A                                        F/N: N

                                                                               2012-SEPTEMBER
F/N Line Item Description                 FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Accounts and Taxes Receivable            FR                         79                                                        10/27/2012 09:18:52    SLESLI01
N   Derivative Assets                        FR                          4                                                        10/27/2012 09:18:52    SLESLI01

N         Derivative contracts (Note 4)    Entity                                                    83                      0    10/27/2012 09:18:52    SLESLI01


                                                                               2011-SEPTEMBER
F/N Line Item Description                 FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Accounts and Taxes Receivable            FR                         88                                                        10/27/2012 09:18:52    SLESLI01
N   Derivative Assets                        FR                         90                                                        10/27/2012 09:18:52    SLESLI01

N         Derivative contracts (Note 4)    Entity                                                   178                      0    10/27/2012 09:18:52    SLESLI01




                                                                                  - 11 -
                                                                U.S.Department of the Treasury                                                      11/16/2012 15:15:21
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System


                                                GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                  Fiscal Year: 2012                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                            Reporting Method: MILLIONS                    Decimal Point: ZERO

Agency Line Item: Investment income                                               Account Type: A                                        F/N: B

                                                                           2012-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

F   Interest Receivable                  FR                        164                                                        10/27/2012 09:29:53    SLESLI01
N   Accounts and Taxes Receivable        FR                          4                                                        10/27/2012 09:29:53    SLESLI01
N   Debt and Equity Securities           FR                        296                                                        10/27/2012 09:29:53    SLESLI01

B         Investment income            Entity                                                   464                      0    10/27/2012 09:29:53    SLESLI01


                                                                           2011-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

F   Interest Receivable                  FR                        182                                                        10/27/2012 09:29:53    SLESLI01
N   Accounts and Taxes Receivable        FR                          4                                                        10/27/2012 09:29:53    SLESLI01
N   Debt and Equity Securities           FR                        295                                                        10/27/2012 09:29:53    SLESLI01

B         Investment income            Entity                                                   481                      0    10/27/2012 09:29:53    SLESLI01




                                                                              - 12 -
                                                              U.S.Department of the Treasury                                                      11/16/2012 15:15:21
                                                               Financial Management Service
                                                          Governmentwide Financial Report System


                                              GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                Fiscal Year: 2012                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                          Reporting Method: MILLIONS                    Decimal Point: ZERO

Agency Line Item: Other                                                         Account Type: A                                        F/N: N

                                                                         2012-SEPTEMBER
F/N Line Item Description           FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Accounts and Taxes Receivable      FR                         4                                                         10/27/2012 09:33:12    SLESLI01

N         Other                      Entity                                                     4                      0    10/27/2012 09:33:12    SLESLI01


                                                                         2011-SEPTEMBER
F/N Line Item Description           FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Accounts and Taxes Receivable      FR                         3                                                         10/27/2012 09:33:12    SLESLI01

N         Other                      Entity                                                     3                      0    10/27/2012 09:33:12    SLESLI01




                                                                            - 13 -
                                                                U.S.Department of the Treasury                                                      11/16/2012 15:15:21
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System


                                                GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                  Fiscal Year: 2012                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                            Reporting Method: MILLIONS                    Decimal Point: ZERO

Agency Line Item: Capitalized assets, net                                         Account Type: A                                        F/N: N

                                                                           2012-SEPTEMBER
F/N Line Item Description            FR/Entity           Debit                   Credit                       Variance             Date/Time               User Id

N   Property, Plant and Equipment       FR                          42                                                        10/27/2012 09:35:15    SLESLI01

N         Capitalized assets, net      Entity                                                    42                      0    10/27/2012 09:35:15    SLESLI01


                                                                           2011-SEPTEMBER
F/N Line Item Description            FR/Entity           Debit                   Credit                       Variance             Date/Time               User Id

N   Property, Plant and Equipment       FR                          33                                                        10/27/2012 09:35:15    SLESLI01

N         Capitalized assets, net      Entity                                                    33                      0    10/27/2012 09:35:15    SLESLI01




                                                                              - 14 -
                                                                U.S.Department of the Treasury                                                      11/16/2012 15:15:21
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System


                                                GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                  Fiscal Year: 2012                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                            Reporting Method: MILLIONS                    Decimal Point: ZERO

Agency Line Item: Trusteed plans                                                  Account Type: L                                        F/N: N

                                                                           2012-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Insurance and Guarantee Program      FR                                                  103,127                          10/27/2012 09:39:23    SLESLI01
    Liabilities
N         Trusteed plans               Entity                    103,127                                                 0    10/27/2012 09:39:23    SLESLI01


                                                                           2011-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Insurance and Guarantee Program      FR                                                   91,719                          10/27/2012 09:39:23    SLESLI01
    Liabilities
N         Trusteed plans               Entity                    91,719                                                  0    10/27/2012 09:39:23    SLESLI01




                                                                              - 15 -
                                                                     U.S.Department of the Treasury                                                      11/16/2012 15:15:21
                                                                      Financial Management Service
                                                                 Governmentwide Financial Report System


                                                     GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                       Fiscal Year: 2012                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                                 Reporting Method: MILLIONS                    Decimal Point: ZERO

Agency Line Item: Plans pending termination and trusteeship                            Account Type: L                                        F/N: N

                                                                                2012-SEPTEMBER
F/N Line Item Description                  FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Insurance and Guarantee Program           FR                                                     418                           10/27/2012 09:42:28    SLESLI01
    Liabilities
N          Plans pending termination and    Entity                      418                                                   0    10/27/2012 09:42:28    SLESLI01
    trusteeship

                                                                                2011-SEPTEMBER
F/N Line Item Description                  FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Insurance and Guarantee Program           FR                                                     346                           10/27/2012 09:42:28    SLESLI01
    Liabilities
N          Plans pending termination and    Entity                      346                                                   0    10/27/2012 09:42:28    SLESLI01
    trusteeship




                                                                                   - 16 -
                                                                U.S.Department of the Treasury                                                      11/16/2012 15:15:21
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System


                                                GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                  Fiscal Year: 2012                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                            Reporting Method: MILLIONS                    Decimal Point: ZERO

Agency Line Item: Settlements and judgments                                       Account Type: L                                        F/N: N

                                                                           2012-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Insurance and Guarantee Program      FR                                                      56                           10/27/2012 09:45:15    SLESLI01
    Liabilities
N         Settlements and judgments    Entity                      56                                                    0    10/27/2012 09:45:15    SLESLI01


                                                                           2011-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Insurance and Guarantee Program      FR                                                      56                           10/27/2012 09:45:15    SLESLI01
    Liabilities
N         Settlements and judgments    Entity                      56                                                    0    10/27/2012 09:45:15    SLESLI01




                                                                              - 17 -
                                                                       U.S.Department of the Treasury                                                      11/16/2012 15:15:21
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System


                                                       GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                         Fiscal Year: 2012                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                                   Reporting Method: MILLIONS                    Decimal Point: ZERO

Agency Line Item: Claims for probable terminations                                       Account Type: L                                        F/N: N

                                                                                  2012-SEPTEMBER
F/N Line Item Description                    FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Insurance and Guarantee Program             FR                                                    2,035                          10/27/2012 09:48:19    SLESLI01
    Liabilities
N         Claims for probable terminations    Entity                    2,035                                                   0    10/27/2012 09:48:19    SLESLI01


                                                                                  2011-SEPTEMBER
F/N Line Item Description                    FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Insurance and Guarantee Program             FR                                                     833                           10/27/2012 09:48:19    SLESLI01
    Liabilities
N         Claims for probable terminations    Entity                      833                                                   0    10/27/2012 09:48:19    SLESLI01




                                                                                     - 18 -
                                                              U.S.Department of the Treasury                                                      11/16/2012 15:15:21
                                                               Financial Management Service
                                                          Governmentwide Financial Report System


                                              GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                Fiscal Year: 2012                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                          Reporting Method: MILLIONS                    Decimal Point: ZERO

Agency Line Item: Insolvent plans                                               Account Type: L                                        F/N: N

                                                                         2012-SEPTEMBER
F/N Line Item Description           FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Other Liabilities                  FR                                                    1,388                          10/27/2012 09:50:59    SLESLI01

N         Insolvent plans            Entity                    1,388                                                   0    10/27/2012 09:50:59    SLESLI01


                                                                         2011-SEPTEMBER
F/N Line Item Description           FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Other Liabilities                  FR                                                    1,232                          10/27/2012 09:50:59    SLESLI01

N          Insolvent plans           Entity                    1,232                                                   0    10/27/2012 09:50:59    SLESLI01




                                                                            - 19 -
                                                                U.S.Department of the Treasury                                                      11/16/2012 15:15:21
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System


                                                GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                  Fiscal Year: 2012                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                            Reporting Method: MILLIONS                    Decimal Point: ZERO

Agency Line Item: Probable insolvent plans                                        Account Type: L                                        F/N: N

                                                                           2012-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Other Liabilities                    FR                                                    5,622                          10/27/2012 09:54:39    SLESLI01

N         Probable insolvent plans     Entity                    5,622                                                   0    10/27/2012 09:54:39    SLESLI01


                                                                           2011-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Other Liabilities                    FR                                                    3,243                          10/27/2012 09:54:39    SLESLI01

N          Probable insolvent plans    Entity                    3,243                                                   0    10/27/2012 09:54:39    SLESLI01




                                                                              - 20 -
                                                                     U.S.Department of the Treasury                                                      11/16/2012 15:15:21
                                                                      Financial Management Service
                                                                 Governmentwide Financial Report System


                                                     GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                       Fiscal Year: 2012                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                                 Reporting Method: MILLIONS                    Decimal Point: ZERO

Agency Line Item: Derivative contracts (Note 4)                                        Account Type: L                                        F/N: N

                                                                                2012-SEPTEMBER
F/N Line Item Description                  FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Other Liabilities                         FR                                                      73                           10/27/2012 10:04:39    SLESLI01
N   Derivative Liabilities                    FR                                                      21                           10/27/2012 10:04:39    SLESLI01

N         Derivative contracts (Note 4)     Entity                       94                                                   0    10/27/2012 10:04:39    SLESLI01


                                                                                2011-SEPTEMBER
F/N Line Item Description                  FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Other Liabilities                         FR                                                     167                           10/27/2012 10:04:39    SLESLI01
N   Derivative Liabilities                    FR                                                       6                           10/27/2012 10:04:39    SLESLI01

N          Derivative contracts (Note 4)    Entity                      173                                                   0    10/27/2012 10:04:39    SLESLI01




                                                                                   - 21 -
                                                                       U.S.Department of the Treasury                                                      11/16/2012 15:15:21
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System


                                                       GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                         Fiscal Year: 2012                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                                   Reporting Method: MILLIONS                    Decimal Point: ZERO

Agency Line Item: Due for purchases of securities                                        Account Type: L                                        F/N: N

                                                                                  2012-SEPTEMBER
F/N Line Item Description                    FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Other Liabilities                           FR                                                    2,557                          10/27/2012 10:07:44    SLESLI01

N         Due for purchases of securities     Entity                    2,557                                                   0    10/27/2012 10:07:44    SLESLI01


                                                                                  2011-SEPTEMBER
F/N Line Item Description                    FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Other Liabilities                           FR                                                    4,079                          10/27/2012 10:07:44    SLESLI01

N          Due for purchases of securities    Entity                    4,079                                                   0    10/27/2012 10:07:44    SLESLI01




                                                                                     - 22 -
                                                                        U.S.Department of the Treasury                                                      11/16/2012 15:15:21
                                                                         Financial Management Service
                                                                    Governmentwide Financial Report System


                                                        GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                          Fiscal Year: 2012                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                                    Reporting Method: MILLIONS                    Decimal Point: ZERO

Agency Line Item: Payable upon return of securities loaned                                Account Type: L                                        F/N: N

                                                                                   2012-SEPTEMBER
F/N Line Item Description                     FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Other Liabilities                            FR                                                    3,425                          10/27/2012 10:10:38    SLESLI01

N         Payable upon return of securities    Entity                    3,425                                                   0    10/27/2012 10:10:38    SLESLI01
    loaned

                                                                                   2011-SEPTEMBER
F/N Line Item Description                     FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Other Liabilities                            FR                                                    4,587                          10/27/2012 10:10:38    SLESLI01

N         Payable upon return of securities    Entity                    4,587                                                   0    10/27/2012 10:10:38    SLESLI01
    loaned




                                                                                      - 23 -
                                                               U.S.Department of the Treasury                                                      11/16/2012 15:15:21
                                                                Financial Management Service
                                                           Governmentwide Financial Report System


                                               GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                 Fiscal Year: 2012                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                           Reporting Method: MILLIONS                    Decimal Point: ZERO

Agency Line Item: Unearned premiums                                              Account Type: L                                        F/N: N

                                                                          2012-SEPTEMBER
F/N Line Item Description        FR/Entity              Debit                   Credit                       Variance             Date/Time               User Id

N   Other Liabilities                  FR                                                      358                           10/27/2012 10:12:26    SLESLI01

N         Unearned premiums           Entity                      358                                                   0    10/27/2012 10:12:26    SLESLI01


                                                                          2011-SEPTEMBER
F/N Line Item Description        FR/Entity              Debit                   Credit                       Variance             Date/Time               User Id

N   Other Liabilities                  FR                                                      397                           10/27/2012 10:12:26    SLESLI01

N          Unearned premiums          Entity                      397                                                   0    10/27/2012 10:12:26    SLESLI01




                                                                             - 24 -
                                                                      U.S.Department of the Treasury                                                      11/16/2012 15:15:21
                                                                       Financial Management Service
                                                                  Governmentwide Financial Report System


                                                      GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                        Fiscal Year: 2012                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                                  Reporting Method: MILLIONS                    Decimal Point: ZERO

Agency Line Item: Accounts payable and accrued expenses (Note 8)                        Account Type: L                                        F/N: B

                                                                                 2012-SEPTEMBER
F/N Line Item Description                   FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Accounts Payable                           FR                                                      67                           10/27/2012 10:25:08    SLESLI01
N   Other Liabilities                          FR                                                      11                           10/27/2012 10:25:08    SLESLI01
F   Benefit Program Contributions Payable      FR                                                       1                           10/27/2012 10:25:08    SLESLI01

B        Accounts payable and accrued        Entity                      79                                                    0    10/27/2012 10:25:08    SLESLI01
    expenses (Note 8)

                                                                                 2011-SEPTEMBER
F/N Line Item Description                   FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Accounts Payable                           FR                                                      58                           10/27/2012 10:25:08    SLESLI01
N   Other Liabilities                          FR                                                      11                           10/27/2012 10:25:08    SLESLI01
F   Benefit Program Contributions Payable      FR                                                       1                           10/27/2012 10:25:08    SLESLI01

B        Accounts payable and accrued        Entity                      70                                                    0    10/27/2012 10:25:08    SLESLI01
    expenses (Note 8)




                                                                                    - 25 -
                                                                 U.S.Department of the Treasury                                                      11/16/2012 15:15:21
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System


                                                 GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                   Fiscal Year: 2012                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                             Reporting Method: MILLIONS                    Decimal Point: ZERO

Agency Line Item: Net position                                                     Account Type: E                                        F/N: B

                                                                            2012-SEPTEMBER
F/N Line Item Description              FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

B   Net Position-Non-Earmarked Funds      FR                      37,085                                                       11/01/2012 13:44:21    SLESLI01

B         Net position                  Entity                                                 37,085                     0    11/01/2012 13:44:21    SLESLI01


                                                                            2011-SEPTEMBER
F/N Line Item Description              FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

B   Net Position-Non-Earmarked Funds      FR                      29,062                                                       11/01/2012 13:44:21    SLESLI01

B         Net position                  Entity                                                 29,062                     0    11/01/2012 13:44:21    SLESLI01




                                                                               - 26 -
                                                                    U.S.Department of the Treasury                                                      11/16/2012 15:15:21
                                                                     Financial Management Service
                                                                Governmentwide Financial Report System


                                                    GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: INCOME STATEMENT                                                                   Fiscal Year: 2012                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                                Reporting Method: MILLIONS                    Decimal Point: ZERO

Agency Line Item: Total Costs                                                         Account Type: TC                                       F/N: B

                                                                               2012-SEPTEMBER
F/N Line Item Description                 FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

F   Imputed Costs                            FR                          8                                                        10/28/2012 20:12:09    SLESLI01
F   Buy/Sell Costs                           FR                          4                                                        10/28/2012 20:12:09    SLESLI01
F   Benefit Program Costs                    FR                         24                                                        10/28/2012 20:12:09    SLESLI01
F   Federal Securities Interest Expense      FR                          6                                                        10/28/2012 20:12:09    SLESLI01
N   Non-Federal Gross Cost                   FR                      20,173                                                       10/28/2012 20:12:09    SLESLI01

B         Total Costs                      Entity                                                 20,215                     0    10/28/2012 20:12:09    SLESLI01


                                                                               2011-SEPTEMBER
F/N Line Item Description                 FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

F   Imputed Costs                            FR                          5                                                        10/28/2012 20:12:09    SLESLI01
F   Buy/Sell Costs                           FR                          5                                                        10/28/2012 20:12:09    SLESLI01
F   Benefit Program Costs                    FR                         23                                                        10/28/2012 20:12:09    SLESLI01
F   Federal Securities Interest Expense      FR                         35                                                        10/28/2012 20:12:09    SLESLI01
N   Non-Federal Gross Cost                   FR                      12,797                                                       10/28/2012 20:12:09    SLESLI01

B         Total Costs                      Entity                                                 12,865                     0    10/28/2012 20:12:09    SLESLI01




                                                                                  - 27 -
                                                                    U.S.Department of the Treasury                                                      11/16/2012 15:15:21
                                                                     Financial Management Service
                                                                Governmentwide Financial Report System


                                                    GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: INCOME STATEMENT                                                                   Fiscal Year: 2012                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                                Reporting Method: MILLIONS                    Decimal Point: ZERO

Agency Line Item: Total Revenue                                                       Account Type: TR                                       F/N: B

                                                                               2012-SEPTEMBER
F/N Line Item Description                 FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

F   Federal Securities Interest Revenue      FR                                                    1,769                          10/28/2012 20:14:10    SLESLI01
    (exchange)
N   Non-Federal Earned Revenue               FR                                                   10,448                          10/28/2012 20:14:10    SLESLI01
F   Imputed Financing Source                 FR                                                       8                           10/28/2012 20:14:10    SLESLI01
N   Other Taxes and Receipts                 FR                           4                                                       10/28/2012 20:14:10    SLESLI01

B         Total Revenue                    Entity                    12,221                                                  0    10/28/2012 20:14:10    SLESLI01


                                                                               2011-SEPTEMBER
F/N Line Item Description                 FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

F   Federal Securities Interest Revenue      FR                                                    1,174                          10/28/2012 20:14:10    SLESLI01
    (exchange)
N   Non-Federal Earned Revenue               FR                                                    7,414                          10/28/2012 20:14:10    SLESLI01
F   Imputed Financing Source                 FR                                                       5                           10/28/2012 20:14:10    SLESLI01
N   Other Taxes and Receipts                 FR                                                       4                           10/28/2012 20:14:10    SLESLI01

B         Total Revenue                    Entity                     8,597                                                  0    10/28/2012 20:14:10    SLESLI01




                                                                                  - 28 -
                                                                          U.S.Department of the Treasury                                                      11/16/2012 15:15:21
                                                                           Financial Management Service
                                                                      Governmentwide Financial Report System


                                                          GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: INCOME STATEMENT                                                                         Fiscal Year: 2012                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                                      Reporting Method: MILLIONS                    Decimal Point: ZERO

Agency Line Item: Net position, beginning of year                                           Account Type: BN                                       F/N: B

                                                                                     2012-SEPTEMBER
F/N Line Item Description                       FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

B   Beginning Net Position                         FR                      29,062                                                       11/13/2012 08:43:18    SLESLI01
F   Change in Accounting Principles - Federal      FR                         29                                                        11/13/2012 08:43:18    SLESLI01

B         Net position, beginning of year        Entity                                                 29,091                     0    11/13/2012 08:43:18    SLESLI01


                                                                                     2011-SEPTEMBER
F/N Line Item Description                       FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

B   Beginning Net Position                         FR                      24,794                                                       11/13/2012 08:43:18    SLESLI01
F   Change in Accounting Principles - Federal      FR                         29                                                        11/13/2012 08:43:18    SLESLI01

B         Net position, beginning of year        Entity                                                 24,823                     0    11/13/2012 08:43:18    SLESLI01




                                                                                        - 29 -
If you want to report or discuss confidentially any instance
 of misconduct, fraud, waste, abuse, or mismanagement,
      please contact the Office of Inspector General.



                       Telephone:
            The Inspector General’s HOTLINE
                    1-800-303-9737

  The deaf or hard of hearing, dial FRS (800) 877-8339
   and give the Hotline number to the relay operator.



                           Web:
       http://oig.pbgc.gov/investigation/details.html



                         Or Write:
          Pension Benefit Guaranty Corporation
               Office of Inspector General
                     PO Box 34177
             Washington, DC 20043-4177
